<html>
<title> - THE ESCALATING INTERNATIONAL WILDLIFE TRAFFICKING CRISIS: ECOLOGICAL,ECONOMIC AND NATIONAL SECURITY ISSUES</title>
<body><pre>[Senate Hearing 113-520]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 113-520
 
                  THE ESCALATING INTERNATIONAL WILDLIFE
                    TRAFFICKING CRISIS: ECOLOGICAL,ECONOMIC 
                         AND NATIONAL SECURITY ISSUES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                AND THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                             U.S. GOVERNMENT PRINTING OFFICE
91-934 PDF                        WASHINGTON : 2014                             
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>  

 





                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
BENJAMIN L. CARDIN, Maryland         JOHN McCAIN, Arizona
JEANNE SHAHEEN, New Hampshire        JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

             BENJAMIN L. CARDIN, Maryland, Chairman        

CHRISTOPHER MURPHY, Connecticut      MARCO RUBIO, Florida
BARBARA BOXER, California            RON JOHNSON, Wisconsin
TOM UDALL, New Mexico                JEFF FLAKE, Arizona
EDWARD J. MARKEY, Massachusetts      JOHN McCAIN, Arizona

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

    Hon. Daniel M. Ashe, Director, U.S. Fish and Wildlife 
  Service, Washington, DC........................................    10
      Prepared statement.........................................    11
    Brooke Darby, Deputy Assistant Secretary for the Bureau of 
  International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State, Washington, DC............................    23
      Prepared statement.........................................    24
    Hon. Judith G. Garber, Acting Assistant Secretary for the 
  Bureau of Oceans and International Environmental and Scientific 
  Affairs, U.S. Department of State, Washington, DC..............     5
      Prepared statement.........................................     7
    Hon. Eric G. Postel, Assistant Administrator for The Bureau 
  of Economic Growth, Education, and Environment, U.S. Agency for 
  International Development, Washington, DC......................    18
      Prepared statement.........................................    19



              Additional Material Submitted for the Record

    Responses Of Daniel M. Ashe to questions submitted by Senator 
  Marco Rubio....................................................    44
    Statement submitted by the Wildlife Conservation Society.....    45
    Statement submitted by the Environment and Natural Resources 
  Division, Department of Justice, Washington, DC................    48
    Statement submitted by Ginette Hemley, senior vice president, 
  Wildlife Conservation, World Wildlife Fund, and Crawford Allan, 
  senior director, Traffic.......................................    52
    Statement submitted by Bas Huijbregts, head of policy, 
  Illegal Wildlife Trade Campaign, Central Africa Worldwide Fund 
  for Nature (WWF)...............................................    62

                                 (iii)

  


  JOINT HEARING ON THE ESCALATING INTERNATIONAL WILDLIFE TRAFFICKING 
       CRISIS: ECOLOGICAL, ECONOMIC, AND NATIONAL SECURITY ISSUES

                              ----------                              


                        WEDNESDAY, MAY 21, 2014

                           U.S. Senate,    
           Subcommittee on African Affairs,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons and Benjamin L. Cardin (chairmen of the subcommittees) 
presiding.
    Present: Senators Coons, Cardin, and Flake.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Good afternoon. I would like to call to 
order this joint hearing of the Senate Foreign Relations 
Subcommittees on African Affairs and on East Asian Affairs.
    Today, we will consider the far-reaching ecological, 
economic, and national security threats arising from the 
escalating global wildlife trafficking crisis. We will also 
examine the role of several key factors in fueling this crisis, 
including increased demand for illegal wildlife products in 
Asia, the involvement of illicit criminal networks and armed 
groups, and weak enforcement capacity in both source and demand 
countries in Africa and Asia.
    Finally, we will consider the scope and implementation path 
of the U.S. Government's national strategy for combating 
wildlife trafficking, as well as other efforts to address this 
crisis.
    I would like to recognize one of the Senate's strongest 
leaders on conservation issues and the chair of the East Asian 
Subcommittee, Senator Cardin, and my friend and partner on the 
Africa Subcommittee, Senator Flake.
    I would also like to welcome our four witnesses and thank 
you all for joining us today. I look forward to your insights 
and your testimony.
    Over the last decade, wildlife trafficking has grown into 
an international crisis. It is a multibillion-dollar industry 
driven by dangerous and sophisticated transnational criminal 
syndicates used by some terrorist groups to fund their 
operations. These poachers and traffickers are organized, well-
financed, heavily armed, and extremely dangerous.
    The scale at which poachers are operating is threatening 
the very survival of some of the world's most iconic wildlife. 
Last year alone, roughly 35,000 elephants and 1,000 rhinos were 
killed in Africa. The loss of these wildlife populations, 
coupled with the security and stability threats of poachers and 
traffickers, is having a serious impact on the economic 
development of many African communities that rely on tourism 
for revenue, as well.
    This is an issue that should move us to act, for a wide 
range of reasons. It is a serious and complicated problem, but 
one in which the United States can play an important role in 
solving, in partnership with Asian and African countries.
    To facilitate the implementation of the administration's 
national strategy, Congress, last year, provided dedicated 
funding to stop wildlife trafficking. In my view, Congress must 
continue to work with the administration and other partners to 
stem the tide against this escalating crisis.
    Senator Cardin and Senator Flake and I decided it was 
important to hold a joint subcommittee hearing, because the 
wildlife trafficking crisis is not constrained to one region 
but involves source, transit, and demand countries across the 
globe. The trade of ivory and rhino horn, sourced in Africa but 
fueled primarily by strong demand in Asia, today contributes to 
this ongoing challenge. We are interested in discussing 
everything that happens, from the poaching of wildlife to the 
purchasing of illegal animals and products, and everything in 
between.
    While the focus of this hearing is primarily on the trade 
of elephant ivory and rhino horn between Africa and Asia, as 
demonstrated by the examples on the table for us, this issue is 
much broader than that. Trafficking includes illegal trade in 
live wildlife, fish, seafood, trees, plants, and many other 
threatened species from across the globe. Dealing with this 
issue over the long run will require robust partnerships at 
every level--governments, NGOs, the private sector, and 
communities throughout Africa, Asia, and the world.
    I want to thank and recognize the very broad range of 
nongovernmental organizations that work tirelessly to conserve 
vulnerable ecosystems and to secure the economic, social, and 
cultural benefits of wildlife for future generations. You are 
the first line of defense in this fight against wildlife 
trafficking, and we are grateful for your input and thank you 
for your partnership as we strive together to address this 
issue.
    I now turn to my friend, Senator Cardin, chair of the East 
Asia Subcommittee, for his opening statement.
    Senator Cardin. Why do we not let Senator Flake go.
    Senator Coons. I will now turn to Senator Flake for his 
opening statement. Thank you.
    Senator Flake.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. I would rather hear the witnesses, so I will 
not talk long, but I appreciate the chairman for calling this 
hearing.
    This is something that, when we met last year, was in the 
top of our agenda, to get a handle on this. So, pleased that 
you are here before us today, and look forward to hearing the 
testimony.
    Senator Coons. Thank you, Senator.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. First, let me thank Senator Coons for the 
suggestion to hold this joint hearing. I think this is the 
right thing to do. Senator Flake, thank you for your help. I 
also want to acknowledge Senator Rubio's help and cooperation 
as the ranking Republican member of the Subcommittee on East 
Asia and Pacific.
    We recognize the importance of this subject matter, that it 
is very much fueling a lot of illegal activities, it is a big 
business and it is costing people their lives. This is an issue 
that is affecting the health of species diversity around the 
world, particularly in Africa. And we really need to do 
something about it. It is a multibillion-dollar industry, as 
Chairman Coons has pointed out. And there are a lot of 
similarities as to what is happening with the trafficking of 
illegal wildlife and of the trafficking of illegal arms and 
drugs. There is a lot of similarity between the networks 
involved.
    The Convention on International Trade and Endangered 
Species reported that, in 2012, an estimated 22,000 elephants 
were slaughtered across Africa, and, according to U.S. Fish and 
Wildlife--I hope I am quoting these numbers correctly--
approximately 2,800 rhinos have been poached in South Africa 
since 2008. The chairman mentioned 1,000 in the last year. So, 
you see the numbers here are astronomical. And as I have 
already learned this morning, those rhino horns can get up to 
$60,000 per pound, I believe is the number that was just given 
to me. You can see that we are talking about a very lucrative 
field and one that creates great danger as well as affects our 
environment.
    But, as has been pointed out, yes, the primary target for 
the poaching is Africa, but it would not be possible unless 
there was a demand for the product. And the demand is in Asia. 
So, that is one of the reasons why we are having this joint 
hearing. I might tell you, there is also a demand in the United 
States. So, we have got to take care of our own business here 
at home, as well as dealing with the problems in Asia and 
Africa.
    There are well-known species that we have talked about, but 
there are also lizards and turtles and coral and hornbills--all 
of which are threatened due to illegal wildlife trafficking. 
So, it is not just the most visible species; there are some 
other species that are very much part of this illegal 
trafficking.
    I do want to point out that we have seen some progress. We 
often focus on the areas where the United States and other 
countries struggle to see eye to eye; however, this is an issue 
we can all get behind. We have seen enormous cooperation with 
our partners in the Asia-Pacific region to combat the illegal 
wildlife trafficking trade. Earlier this year, Vietnam's 
President issued a directive to prioritize enforcement across 
his entire government to combat poaching and trafficking of 
African elephant ivory and rhino horns. That is good news, and 
we very much want to acknowledge when the right steps are 
taken. And, according to the World Wildlife Federation, 65 
million mobile phone subscribers in Vietnam are now receiving 
SMS text messages asking them to say ``No'' to rhino horns. 
Public knowledge and support, here, is a critical factor for us 
dealing with this issue.
    And, through the United States Agency for International 
Development-funded Asia Regional Response to Endangered Species 
Trafficking Program, Lao and Thai enforcement agents recently 
participated in an investigation training course at a major 
endangered species smuggling corridor. In late March, the 
authorities in Singapore seized about 1 ton of ivory from 
shipment containers en route from Africa to another Asian 
country. And at the 2013 Strategic and Economic Dialogue, the 
United States and China committed to cooperate on enforcement 
issues in an effort to end the supply and demand for such 
products.
    So, we are seeing an acknowledgment of the issue, progress 
being made, and a recognition that the effectiveness of our 
strategy will only work if we have a coordinated effort. I 
intend to be in Asia next week, and this is one of the issues 
that we will be talking about during my visit.
    And we look forward to hearing the witnesses tell us how we 
can use existing mechanisms and partnerships, as well as 
forging new efforts, in order to combat this significant 
problem.
    I am pleased with the administration's aggressive National 
Strategy for Combating Wildlife Trafficking, that was released 
in February. I look forward to hearing from our panel on the 
plans to urgently implement and institutionalize this plan with 
our Asian-Pacific partners in the areas of enforcement, demand 
reduction, and partner-building to ensure long-term solutions 
to finally put an end to this damaging illicit practice.
    Mr. Chairman, I have certain requests for statements to be 
made part of the record, including the Wildlife Conservation 
Society, the World Wildlife Fund and Traffic. I thank them for 
their commitment and leadership on this issue, and I would 
enter these statements into the record and would like to enter 
into the record a statement from the Department of Justice, 
which plays an important role in prosecuting international 
wildlife trafficking crimes, as well as assisting and 
collaborating with enforcement partners in sourced transit and 
demand countries.
    Senator Coons. Without objection.
    Senator Cardin. Thank you, I appreciate that.
    Let me introduce our panel, if I might.
    We are pleased to have with us Ambassador Judith Garber, 
the Acting Assistant Secretary for the Bureau of Oceans and 
International Environmental and Scientific Affairs at the 
Department of State. A career Foreign Service officer, she 
previously served as the Bureau's Principal Deputy Assistant 
Secretary and as Ambassador to Latvia.
    She is joined by Daniel Ashe, the Director of the U.S. Fish 
and Wildlife Service. Prior to his appointment as Director, Mr. 
Ashe served as the Services Deputy Director for Policy, 
beginning in 2009, where he provided strategic program 
direction and developed policy and guidance to support and 
promote program development and fulfill the service mission.
    We are also very pleased to have The Honorable Eric Postel 
here, the Assistant Administrator for the Bureau of Economic 
Growth, Education, and Environment at the U.S. Agency for 
International Development. Mr. Postel has more than 25 years of 
private-sector experience working in emerging markets, 
including support for economic development in more than 45 
developing countries.
    And the fourth member of our panel is Brooke Darby, Deputy 
Assistant Secretary for the Bureau of International Narcotics 
and Law at the Department of State. A career member of the 
Foreign Service, Ms. Darby has previously served as Chief of 
Staff to the Director General of the Foreign Service.
    I think we have an excellent panel. As is the practice of 
our committee, your full statements will be made part of the 
record. You may proceed as you wish, as long as you keep your 
comments somewhat within the allotted time.
    We will start with Ambassador Garber.

STATEMENT OF HON. JUDITH G. GARBER, ACTING ASSISTANT SECRETARY 
 FOR THE BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND 
  SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Garber. Thank you. Good afternoon, Chairman 
Coons, Chairman Cardin, and Senator Flake. I appreciate the 
opportunity to appear before you today to address the dramatic 
escalation in wildlife trafficking.
    With your permission, I would like to submit my written 
statement for the record.
    Senator Coons. Without objection.
    Ambassador Garber. At the outset, let me extend my thanks 
to Congress for focusing strong attention and action on this 
pernicious, multifaceted crisis. If left unchecked, the 
exponential rise in killings of protected species, such as the 
iconic elephants and rhinos, will virtually wipe them out. If 
left unchecked, serious threats to conservation, local 
economies, security, and health will abound.
    President Obama's July 2013 Executive order called for 
action, establishing an interagency task force and an advisory 
council. In February, the President released the National 
Strategy for Combating Wildlife Trafficking, which lays out a 
clear whole-of-government approach with three strategic 
priorities: strengthening domestic and global enforcement, 
reducing demand for illegally traded wildlife at home and 
abroad, and building international cooperation and public/
private partnerships.
    For the last decade, the Department has partnered with 
other U.S. Federal agencies to aid in the establishment of five 
regional wildlife enforcement networks, with four additional 
networks underway. Looking ahead, our goal is to connect these 
into one global network for exchanging information, encouraging 
best practices, and promoting coordination.
    The United States sent a strong message that we will not 
tolerate illicit trade in ivory when the U.S. Fish and Wildlife 
Service performed an ivory crush in November that destroyed 
nearly 6 tons of seized or forfeited elephant ivory. Now other 
countries are following suit, including recent destructions in 
China, France, Belgium, and Chad. Hong Kong began to destroy 
its stockpile of confiscated ivory just last week.
    We must also address demand. We intend to strengthen our 
efforts with international partners to communicate the negative 
impacts of the devastating trade. We hope that by raising 
awareness, consumers will reconsider harmful purchasing 
patterns. We have collaborated with the NGO community to 
sponsor public-service announcements, and we continue to work 
closely with the NGOs, as well as the private sector, including 
airlines, cruise ships, hotels, and the antiques sector.
    In honor of the first World Wildlife Day, I hosted a 
listening session with international NGOs on strategies to 
reduce demand for illegally traded wildlife, hearing about 
their international efforts, successes, and lessons learned, as 
well as the challenges inherent in measuring results. This work 
continues.
    We are strengthening our diplomacy, highlighting this issue 
at a number of multilateral foreign institutions, including the 
Asia-Pacific Economic Cooperation, the Association of Southeast 
Asian Nations, the African Union, and the U.N. General 
Assembly. We secured the inclusion of language to address 
wildlife trafficking in two Security Council resolutions, 
adopted in January, sanctioning armed African groups. We are 
working with China, raising wildlife trafficking at multiple 
levels.
    As part of the U.S. strategic economic dialogue, as the 
chairman pointed out, we are planning, for the second year in a 
row, a breakout session on this issue. We have asked that key 
topics include demand reduction, enactment of an ivory ban 
similar to the recent U.S. ban, and a commitment to join us in 
creating a global network of regional wildlife enforcement 
networks.
    Secretary Kerry raised wildlife trafficking during his 
visit to Vietnam last December. In February, as Chairman Cardin 
pointed out, the Prime Minister of Vietnam issued a directive 
instructing all ministries and local authorities to prioritize 
wildlife trafficking. And later this year, we are hosting, with 
Vietnam, a demand-reduction workshop under APEC auspices.
    As the current facilitator for the Congo Basin Forest 
Partnership, we devoted an extended session to wildlife this 
past November. We are continually encouraging African leaders 
to take concrete steps to protect their wildlife, to prevent 
trafficking, and to end the corruption that enables this crime 
to continue.
    In closing, let me say a few words about our efforts, 
moving forward. We will continue to promote commitments to 
conservation and to fighting the crime and corruption that 
fuels wildlife trafficking both within countries, across 
borders, among regions, and globally. The U.S. Government will 
further use diplomacy to secure commitments in international 
fora and at the highest levels of government. We will continue 
to strengthen effective implementation of international 
agreements, and work toward new measures. We will work with our 
sister agencies to ensure that our work is efficient and 
effective.
    Congress has shown great leadership on this issue, and we 
greatly appreciate your support to enhance our ability to 
combat wildlife trafficking. We look forward to working with 
you on this important issue, and I greatly appreciate the 
opportunity to appear before you today and would be happy to 
answer any questions that you may have.
    [The prepared statement of Ambassador Garber follows:]

           Prepared Statement of Ambassador Judith G. Garber

                              introduction
    Good afternoon Chairman Coons, Chairman Cardin, Ranking Member 
Flake, Ranking Member Rubio and other members of the African Affairs 
and East Asian and Pacific Affairs Subcommittees of the Committee on 
Foreign Relations. I appreciate the opportunity to appear before you 
today alongside my colleagues, Deputy Assistant Secretary Darby, 
Director Ashe, and Assistant Administrator Postel.
    We are here today because we share an understanding that the 
dramatic escalation in wildlife trafficking is something that affects 
us all. We know that the illicit trade in wildlife is decimating the 
populations of the world's iconic species, particularly elephants and 
rhinos. The heavy toll that wildlife trafficking is taking is bringing 
some species to the brink of extinction. In 2012 alone an estimated 
22,000 African elephants were killed for their ivory. Even starker is 
the decimation of forest elephant populations in Central Africa which 
have declined by approximately two-thirds between 2002 and 2012.
    This illegal trade has devastating impacts: it threatens security, 
undermines the rule of law, fuels corruption, hinders sustainable 
economic development, and contributes to the spread of disease.
    In spite of these depressing facts the good news is that the 
international community is coming together in an unprecedented way to 
combat this pernicious trade. Shared understanding and commitment, 
along with the efforts of governments, the international community, 
intergovernmental organizations, NGOs, corporations, civil society, and 
individuals are critical for collective action to this evolving 
transnational threat.
    Secretary Kerry has long championed efforts to combat wildlife 
trafficking. As chairman of the Senate Foreign Relations Committee, he 
held hearings on the subject. In his role as Secretary of State, he has 
called on leaders everywhere to step up and meet the challenge of 
rooting out the corruption, graft, and complicity in the system that 
threatens all of us.
          national strategy for combating wildlife trafficking
    President Obama's July 1, 2013, Executive order created the 
Presidential Task Force on Wildlife Trafficking and called for 
development of a ``National Strategy for Combating Wildlife 
Trafficking.'' The strategy was released on February 11, 2014, and 
reflects the analysis and contributions from around the Federal 
Government, led by the Task Force cochairs, the Departments of State, 
Interior, and Justice. The Executive order also established an Advisory 
Council comprising former U.S. Government officials, NGO 
representatives, the private sector, and law enforcement experts. The 
Council provided input into the development of the National Strategy 
and continues to provide valuable input and support as we focus on next 
steps for implementation.
    As President Obama directed, the National Strategy describes a 
``whole of government'' approach to tackle this growing threat, 
identifying priority areas for interagency coordination, with the 
objectives of harnessing and strategically applying the full breadth of 
federal resources. It sets three strategic priorities:

  <bullet> Strengthening domestic and global enforcement, including 
        assessing the related laws, regulations, and enforcement tools;
  <bullet> Reducing demand for illegally traded wildlife at home and 
        abroad; and,
  <bullet> Building international cooperation and public-private 
        partnerships to combat illegal wildlife poaching and trade.
             strengthening domestic and global enforcement
    The first of these strategic priorities is strengthening domestic 
and global enforcement. This includes prioritizing wildlife trafficking 
enforcement domestically, maximizing the use of tools available under 
U.S. law, and working with foreign governments and other partners to 
enhance the capacity of other countries to fight wildlife trafficking.
    We are increasingly concerned with links to terrorists and rogue 
military personnel. Like many illicit activities, it is difficult to 
determine the extent to which these actors are involved in wildlife 
trafficking. We believe, however, that the Lord's Resistance Army, the 
Janjaweed, and al-Shabaab have been at least partly involved. There is 
evidence that some insurgent groups are directly involved in poaching 
or trafficking, who then trade wildlife products for weapons or safe 
haven. We believe that, at a minimum, they are likely sharing some of 
the same facilitators--such as corrupt customs and border officials, 
money launderers, and supply chains.
    We still have much to learn about the full extent of the 
relationship between suspected terrorist financing and wildlife 
trafficking. One of the goals of our assistance efforts is to promote 
greater information-sharing and coordination within and among 
governments, law enforcement and intelligence agencies, conservation 
groups, and other actors working in this area.
    The United States sent a strong message that we will not tolerate 
illicit trade in ivory when the U.S. Fish and Wildlife Service 
performed an ``Ivory Crush'' in November that destroyed nearly 6 tons 
of seized or forfeited African and Asian elephant ivory (including full 
tusks, carved tusks, and smaller carvings and other objects). Now many 
other countries are following suit, including recent destructions in 
China, France, Belgium, and Chad, and we have urged still others to 
consider taking similar actions. In January, Hong Kong announced its 
plans to destroy its stockpile of confiscated ivory and we were pleased 
to see that destruction began just this past Thursday. Additionally, 
other countries are considering destructions of their respective 
stockpiles of confiscated wildlife products. We are encouraging them to 
pursue these actions.
    The same day that the President released the National Strategy, the 
U.S. also announced an effort to close existing legal loopholes to 
achieve a near total ban on the commercial trade of ivory in the United 
States, with limited exceptions. This has given us the opportunity to 
lead by example, as we encourage other countries to enact their own 
bans on the commercial ivory trade.
    For the last decade the State Department has partnered with other 
U.S. Government agencies to stand up regional Wildlife Enforcement 
Networks (WENs) to tackle wildlife trafficking. The State Department 
and USAID are supporting the Association of Southeast Asian Nations 
ASEAN-WEN, the South Asia WEN, the Central America WEN, the Horn of 
Africa WEN, and other emerging WENs around the world, including efforts 
in Central and Southern Africa and South America. Last October we 
funded a workshop, hosted by the Government of Botswana in Gaborone, 
which laid the groundwork for the Wildlife Enforcement Network for 
Southern Africa (WENSA). In March 2013, we worked to strengthen 
enforcement and existing partnerships by hosting at the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES) Conference of Parties the First Global Meeting of the Wildlife 
Enforcement Networks. Our goal is to support the creation of a global 
network of regional wildlife enforcement networks.
    The Department of State has long worked with foreign governments to 
enhance their capacity to fight wildlife trafficking, as well as within 
international fora and through our bilateral relationships to persuade 
our global partners to treat wildlife trafficking seriously. We will 
continue working with our interagency partners to build law enforcement 
and criminal justice capacity and cooperation globally, with the aim of 
strengthening policies and legislative frameworks and developing 
capacities to prosecute and adjudicate crimes related to wildlife 
trafficking.
             reducing demand for illegally traded wildlife
    Second, the National Strategy focuses on demand reduction, at home 
and abroad. Going forward, the United States will work with existing 
and new partners to communicate through public outreach and education 
activities, in the United States and abroad, the negative impacts of 
wildlife trafficking. As we've already discussed, the impacts are vast, 
causing irreparable harm to the species themselves, the broader 
environment, security, food supplies, governance, livelihoods, and 
human health. We hope by educating consumers, we can alter their 
harmful purchasing patterns.
    Addressing demand is a complex and long-term issue, which depends 
in part on the species in question. It is not enough to increase public 
awareness. In order to end wildlife trafficking, the buying must stop. 
We collaborated a few years ago with the NGO community to sponsor 
public service announcements with conservationist Jane Goodall and 
actor Harrison Ford. We continue to work closely with the NGOs, many of 
whom have ongoing public outreach campaigns, as well as the private 
sector, including airlines, cruise ships, hotels, and the antique 
sector. We are in the initial stages of working with governmental and 
nongovernmental colleagues to devise a more comprehensive demand 
reduction strategy that draws on the respective strengths of each 
sector. On World Wildlife Day, I hosted a listening session with a 
group of international NGOs on strategies to reduce demand for 
illegally traded wildlife, hearing about their international efforts--
the successes and lessons learned, as well as the challenges inherent 
in measuring results. We will continue to engage the NGOs, private 
sector and to seek input from the Advisory Council as we go forward in 
implementing this section of the Strategy.
   building international cooperation and public-private partnerships
    Third, the National Strategy seeks to build international 
cooperation and public-private partnerships to combat poaching and the 
illegal trade in wildlife. We hope to build on our existing work in the 
international arena to further strengthen the implementation of 
international agreements. We will seek new partnerships and strengthen 
existing ones.
Multilateral Efforts
    We have advocated for countries to work together to combat wildlife 
trafficking in a number of multilateral fora, including Asia-Pacific 
Economic Cooperation (APEC), the Association of Southeast Asian Nations 
(ASEAN), the U.N. Food and Agriculture Organization, and the U.N. 
General Assembly. We have also worked with our mission to the U.N. to 
secure the inclusion of language to address wildlife trafficking in two 
Security Council Resolutions, adopted in January 2014, sanctioning 
African armed groups. We have also pressed multilateral institutions 
including the African Union, the African Development Bank, and Regional 
Economic Communities in Africa to take a more active stance against 
wildlife trafficking.
    We strengthened the commitment to address wildlife trafficking 
expressed in both the APEC Leaders' and Foreign Ministerial 
Declarations issued in 2012 and 2013, and we are developing follow-on 
programming to build capacity in the region to reduce demand and 
strengthen enforcement during the 2014 Chinese APEC chairmanship.
    We recently worked with 30 donor countries to increase funding 
significantly for the Global Environment Facility's activities to fight 
wildlife trafficking by addressing both supply and demand through 
monitoring and enforcement capacity building and awareness-raising 
campaigns.
Bilateral Efforts
    We continue to address wildlife trafficking in our bilateral 
relationships. In February, Secretary Kerry and Indonesian Minister of 
Forestry Zulkifli Hasan signed a Memorandum of Understanding (MOU) on 
Conserving Wildlife and Combating Wildlife Trafficking. The MOU focuses 
on collaborative efforts to combat wildlife trafficking in Indonesia 
and in third countries, in particular, improving rhino conservation and 
protection.We have also made strides in our bilateral engagement with 
China to combat wildlife trafficking over the last year building on 
commitments made in the 2012 and 2013 APEC Leaders Declarations and the 
2013 Strategic and Economic Dialogue (S&ED). We will organize a second 
breakout session on wildlife trafficking at the 2014 S&ED, following up 
on the 2013 session and the subsequent progress made in the past year, 
which includes the destruction of about 6 tons each of our respective 
confiscated ivory stockpiles, several interdictions and prosecutions of 
wildlife traffickers, and separate coordinated events in Beijing and 
Washington that recognized the first World Wildlife Day on March 3. The 
2014 breakout session agenda and outcome language are still under 
discussion, but key topics will include demand reduction; a request to 
China to enact an ivory ban similar the recent U.S. ban on the 
commercial trade of elephant ivory, with limited exceptions; and a 
commitment to support the development of a global network of Wildlife 
Enforcement Networks.
    We are committed to do more and work smarter with partners around 
the world to support wildlife range and transit states in Africa to 
maintain the integrity of their national borders and protect the 
continent's iconic wildlife. On February 12, President Obama reached 
agreement with his French counterpart, Francois Hollande, to work 
together to combat wildlife trafficking in Central Africa. As current 
facilitator for the Congo Basin Forest Partnership (CBFP), we devoted 
an extended session to the issue at the November 2013 CBFP Partners 
Meeting. Additionally, this past March the State Department and USAID 
West Africa teams began a regional project with Burkina Faso, Guinea, 
and Togo to forge connections and share valuable information on 
wildlife crime in the region; there are plans to expand this 
conversation to additional West African countries this month with the 
goal of creating an integrated regional framework developed by and for 
West Africans to coordinate antiwildlife trafficking efforts. An 
interesting note: the team is implementing the project virtually cost 
free by utilizing digital video conferencing technology already 
available at U.S. missions in the region.
    In 2013 and 2014 the State Department's International Visitor 
Leadership Program (IVLP) held exchanges focused on antipoaching and 
antitrafficking best practices, connecting wildlife authorities and 
private sector stakeholders from key African countries with 
counterparts in the United States.
    U.S. Ambassadors in sub-Saharan African countries and State 
Department principals continually encourage African leaders and senior 
government officials to take concrete steps to protect their wildlife, 
to prevent trafficking, and to put a stop to the corruption that 
enables the crimes to continue.
                               conclusion
    Combating wildlife trafficking is a complex challenge which demands 
a multifaceted and whole-of-government approach. Within the framework 
of the National Strategy, we will work across the U.S. Government to 
focus our international investments to combat wildlife trafficking in 
the most strategic and effective way possible.
    We seek an open and inclusive dialogue about the challenges 
presented by wildlife trafficking and possible ways to address those 
challenges. We recognize that the United States is part of the problem, 
and we are determined to be part of the solution.
    We appreciate your support and interest. I would be pleased to 
answer any questions that you may have.

    Senator Coons. Thank you, Ambassador.
    Director Ashe.

   STATEMENT OF HON. DANIEL M. ASHE, DIRECTOR, U.S. FISH AND 
                WILDLIFE SERVICE, WASHINGTON, DC

    Mr. Ashe. Thank you, Chairman Coons, Chairman Cardin, 
Ranking Member Flake. I really appreciate the opportunity to 
testify before you today, although I have to say I regret the 
necessity.
    As you know, and as Ambassador Garber has said, we are 
observing a devastating and escalating crisis in international 
wildlife trafficking. And evidence of that trafficking is on 
display on the table before us. And I believe the most 
essential ingredient in dealing with that crisis is U.S. 
leadership and resolve. We saw the result of this, as 
Ambassador Garber noted, last November when we crushed our 
entire stockpile of seized illegal ivory, and quickly we saw 
other countries, leading countries in the world, responding and 
crushing their own stockpiles of ivory. And we expect to see 
additional nations follow that lead in the months and years to 
come.
    We see the world paying heed as the United States organizes 
its all-of-government approach, spurred by President Obama's 
Executive order creating the opportunity to leverage resources 
and expertise across the Federal Government to crack down on 
poaching and trafficking that is devastating some of the 
world's most beloved animals.
    As the United States is moving to curtail domestic commerce 
in ivory, we again have the attention of the world. This is 
positioning us to work to reduce demand and to speak from a 
position of authority, not from a position of hypocrisy, on 
this issue.
    The Service has a four-tiered approach to combat wildlife 
trafficking. We continue to work with international law 
enforcement agencies to develop and dismantle trafficking 
networks and arrest those responsible for the brutal slaughter 
of these magnificent creatures. We provide critical financial 
and technical support for on-the-ground conservation efforts 
and capacity-building of range states to protect wildlife and 
bring poachers and traffickers to justice.
    We work here in the United States and with our partners in 
Asia, Europe, and Latin America to reduce demand for wildlife 
products, and we continue to work with CITES member nations to 
support sustainable and well-managed trade and well-managed 
wildlife management programs to provide jobs and economic 
development in range countries; thus, reducing the allure of 
poaching and trafficking.
    Highlighting some of the strategy's most significant 
actions and recommendations, we are using the full extent of 
our legal authority to stop virtually all commercial trade in 
elephant ivory and rhino horn within the United States and 
across State borders. All commercial imports of African 
elephant ivory into the United States will be prohibited, 
without exception. Nearly all commercial exports of elephant 
ivory will also be prohibited, with the exception of a very 
small and strictly defined class of antiques with verified 
documentation of their antiquity. Domestic commerce will be 
prohibited, again with the exception of documented antiques and 
other items appropriately documented.
    The strategy also recommends the continued sale of the Save 
Vanishing Species semipostal stamp. The public has purchased 
more than 25 million stamps, generating more than $2.5 million 
for conservation. We need to continue that effort.
    I would like to conclude by asking you to consider this 
moment in history. We have a chance to take action and ensure 
that elephants, rhinos, and hundreds of other wild plants and 
animals do not vanish from the wild. Because of the President's 
leadership and that of good colleagues and partner 
organizations and institutions, and the leadership from 
subcommittees like yours, I believe we can dare to dream that 
our grandchildren and even our great-grandchildren have the 
opportunity to view these animals in the wild, in their natural 
habitat. I look forward to working with you and your 
subcommittees and the Congress to make that dream a reality.
    Thank you.
    [The prepared statement of Mr. Ashe follows:]

                   Prepared Statement of Dan M. Ashe

                              introduction
    Good afternoon Chairman Coons, Chairman Cardin, Ranking Member 
Flake, Ranking Member Rubio, and members of the subcommittees. I am Dan 
Ashe, Director of the U.S. Fish and Wildlife Service (Service), within 
the Department of the Interior (Department). I appreciate the 
opportunity to testify before you today to discuss the escalating 
international wildlife trafficking crisis.
    The Service provides key leadership and capacity in addressing 
wildlife trafficking. For decades, we have worked in countries across 
the globe to conserve imperiled wildlife and address illicit wildlife 
trade. The Service's responsibilities include certain international 
conservation efforts, administered by our International Affairs 
program. The Service's Office of Law Enforcement, which is essential to 
wildlife conservation, also plays a key role in international 
conservation, including combating illegal wildlife trafficking.
                    the wildlife trafficking crisis
    Illegal wildlife trade is estimated to be a multibillion-dollar 
business involving the unlawful harvest of and trade in live animals 
and plants or parts and products derived from them. Wildlife is traded 
as skins, leather goods or souvenirs; as food or traditional medicine; 
as pets; and in many other forms. Illegal wildlife trade is typically 
unsustainable, harming wild populations of animals and plants, and 
pushing endangered species toward extinction. Endangered animals and 
plants are often the target of wildlife crime because of their rarity 
and high economic value. Furthermore, wildlife trafficking negatively 
impacts a country's natural resources and local communities that might 
otherwise benefit from tourism or legal, sustainable trade.
    Wildlife trafficking once was predominantly a crime of opportunity 
committed by individuals or small groups. Today, it is the purview of 
international criminal cartels that are well structured and highly 
organized, and capable of illegally moving orders of magnitude more in 
wildlife and wildlife products. This lucrative business may be tied to 
drug trafficking organizations and is a destabilizing influence in many 
African nations. What was once a local or regional problem has become a 
global crisis, as increasingly sophisticated, violent, and ruthless 
criminal organizations have branched into wildlife trafficking. 
Organized criminal enterprises are a growing threat to wildlife, the 
world's economy, and global security.
    Thousands of wildlife species are threatened by illegal and 
unsustainable wildlife trade. For example, in recent months significant 
media attention has gone to the plight of the world's rhinoceros 
species, which are facing increased poaching as demand for their horns 
increases in Asia. In some parts of Asia, rhino horn is considered to 
be a powerful traditional medicine, used to treat a variety of 
ailments. More recently, demand has shifted to less traditional uses, 
including as a cure for cancer or even as a hangover remedy, 
particularly in Southeast Asia. While there is little or no scientific 
evidence to support these claims, the dramatic rise in poaching to 
satisfy this demand is pushing rhinos toward the brink of extinction.
    We have also seen a recent resurgence of elephant poaching in 
Africa, which is threatening this iconic species. Africa's elephants 
are being slaughtered for ivory at rates not seen in decades. 
Populations of both savannah and forest elephants have dropped 
precipitously, and poaching occurs across all regions of Africa. There 
is also a terrible human cost associated with these losses. During the 
past few years, hundreds of park rangers have been killed in the line 
of duty in Africa.
    Improved economic conditions in markets such as China and other 
parts of east and Southeast Asia are fueling an increased demand for 
rhino horn, elephant ivory, and other wildlife products. More Asian 
consumers have the financial resources to purchase these wildlife 
products, which are a status symbol for new economic elites. Although 
the primary markets are in Asia, the United States continues to play a 
role as a consumer and transit country for illegally traded wildlife, 
and we must be a part of the solution.
          president's executive order on wildlife trafficking
    The administration recognized that if illicit wildlife trade 
continues on its current trajectory some of the world's most treasured 
animals could be threatened with extinction. We have a moral obligation 
to respond, and there is a key role for the U.S. Government to play. 
The criminals have raised their game, and we must do the same. In 
response to this crisis, on July 1, 2013, President Obama issued 
Executive Order 13648 to enhance coordination of U.S. Government 
efforts to combat wildlife trafficking and assist foreign governments 
with capacity-building. Upon issuing the Executive order, President 
Obama said, ``We need to act now to reverse the effects of wildlife 
trafficking on animal populations before we lose the opportunity to 
prevent the extinction of iconic animals like elephants and 
rhinoceroses.''
    The Executive order establishes a Presidential Task Force on 
Wildlife Trafficking charged with developing and implementing a 
National Strategy for Combating Wildlife Trafficking. The Task Force is 
cochaired by the Department of the Interior, Department of Justice, and 
Department of State, and includes a dozen other departments and 
agencies. Drawing on resources and expertise from across the U.S. 
Government, we are working to identify new approaches to crack down on 
poaching and wildlife trafficking and to more efficiently coordinate 
our enforcement efforts with interagency and international partners.
    The Executive order also establishes an Advisory Council on 
Wildlife Trafficking comprised of individuals with relevant expertise 
from outside the Government to make recommendations to the Task Force. 
The Service, along with the cochairing agencies, is engaging the 
Council's expertise in law enforcement and criminal justice, wildlife 
biology and conservation, finance and trade, and international 
relations and diplomacy to develop and advance this national strategy.
     u.s. fish and wildlife service's role in addressing wildlife 
                              trafficking
    I would like to highlight the National Strategy for Combating 
Wildlife Trafficking and how we in the Service are strengthening our 
efforts to address this critical issue. But first, I would like to 
discuss the Service's ongoing efforts over the past few decades working 
across the globe to conserve imperiled wildlife and address illicit 
wildlife trade. We have a four-tiered approach to combat wildlife 
trafficking with our international partners. The approach focuses on: 
law enforcement; technical assistance; the Convention on International 
Trade in Endangered Species of Wild Fauna and Flora (CITES); and demand 
reduction.
Law Enforcement to Target and Stop Illicit Trade
    The Service is the primary Federal agency responsible for enforcing 
U.S. laws and treaties that address international wildlife trafficking 
and protect U.S. and foreign species from unsustainable trade. Working 
with shoestring budgets and a special agent workforce that has not 
grown since the late-1970s, the Service has disrupted large-scale 
trafficking in contraband wildlife ``commodities'' that range from 
elephant ivory and rhino horn to sturgeon caviar and sea turtle skin 
and shell.
    Service special agents utilize both overt and clandestine 
investigative techniques to detect and document international smuggling 
and crimes involving the unlawful exploitation of protected native and 
foreign species in interstate commerce. A wildlife smuggling 
investigation typically involves securing charges under both the 
Endangered Species Act (ESA) (a misdemeanor statute) and the felony 
wildlife trafficking provisions of the Lacey Act (where the Federal 
felony violation is predicated on the violation of another Federal, 
State, foreign, or tribal wildlife law). Such investigations also often 
document and secure felony charges for related crimes such as 
conspiracy, smuggling, money laundering, false statements, and wire 
fraud.
    Since the mid-1970s, the Service has deployed a force of uniformed 
wildlife inspectors at major ports of entry across the nation to check 
inbound and outbound shipments for wildlife. These 130 officers ensure 
that wildlife trade complies with the CITES treaty and U.S. laws. They 
also conduct proactive inspections of air cargo warehouses, ocean 
containers, international mail packages, and international passenger 
flights looking for smuggled wildlife. Discoveries by wildlife 
inspectors at the ports may lead to full-scale criminal investigations 
of wildlife trafficking.
    The Service operates the world's first and only full-service 
wildlife forensics laboratory--a lab that is globally recognized as 
having created the science of wildlife forensics. Guidance from the 
lab, for example, provided an easy way for officers in the field to 
distinguish elephant ivory from other types of ivory, such as mammoth 
or walrus ivory. The Service continues to support a FY 2015 budget 
request to expand research at our lab to make it easier to determine 
the origin or geographic source of illicit wildlife material, 
particularly for species threatened by current patterns of illegal 
trade. Such evidence enhances our ability to provide law enforcement 
and justice officials with evidence to more effectively prosecute 
wildlife crime.
    Service enforcement officers and forensic scientists have provided 
specialized training to wildlife enforcement counterparts in more than 
65 different countries since 2000. These capacity-building efforts have 
included teaching criminal investigation skills to wildlife officers 
from sub-Saharan Africa at the International Law Enforcement Academy in 
Botswana on a yearly or twice-yearly basis.
    One example of the Service's law enforcement efforts in combating 
wildlife trafficking is Operation Crash. This Operation is an ongoing 
nationwide criminal investigation led by the Service that is addressing 
all aspects of U.S. involvement in the black market rhino horn trade. 
More than 200 Federal, State, and local law enforcement officers in 40 
States and 10 foreign countries have participated in Operation Crash 
over the last 3 years. Since February 2012, 21 individuals have been 
charged with numerous offenses such as conspiracy, smuggling, money 
laundering, tax evasion, bribery, and making false documents as well as 
violations of the ESA and Lacey Act. Nine convictions to date so far 
have resulted in several prison sentences along with the forfeiture of 
several luxury vehicles, gold bars, Rolex watches and several hundred 
thousand dollars in illegally obtained funds from dealing in rhino 
horn.
    Wildlife trafficking is increasingly a transnational crime 
involving illicit activities in two or more countries and often two or 
more global regions. Cooperation between nations is essential to 
combating this crime. Investigations of transnational crime are 
inherently difficult, and among other endeavors, the U.S. Government 
places U.S. law enforcement officials overseas to help combat such 
transnational crime. In January 2014, with assistance from the State 
Department and USAID, the Service created the first program for 
stationing special agents at U.S. embassies as international attachees, 
to coordinate investigations of wildlife trafficking and support 
wildlife enforcement capacity-building. In collaboration with our State 
Department colleagues, the Service secured the first positions ever for 
FWS experts to be posted in embassies in Bangkok and Dar es Salaam, 
where they will coordinate investigations of wildlife trafficking and 
support wildlife enforcement capacity building. Additional postings in 
key regions are planned in the coming year.
Technical Assistance and Grants to Build In-Country Capacity
    The Service has a long history of providing technical assistance 
and grants to build in-country capacity for conservation of wildlife 
species. Through the Multinational Species Conservation Funds, the 
Service provides funding in the form of grants or cooperative 
agreements to projects benefiting African and Asian elephants, rhinos, 
tigers, great apes, and marine turtles in their natural habitats. A 
substantial portion of the funding awarded through the Multinational 
Species Conservation Funds is invested in projects aimed at combating 
wildlife crime through improved law enforcement, antipoaching patrols, 
demand reduction, and economic alternatives. Several of the Service's 
global and regional programs, including Africa, Asia, and the Western 
Hemisphere, also directly address wildlife conservation efforts, 
including combating wildlife crime.
    Through the Wildlife Without Borders-Africa Program, a technical 
and financial partnership with USAID, the Service has supported the 
development of innovative methods to conserve wildlife and fight 
wildlife crime in Central Africa, including improvement of 
investigations, arrest operations, and legal followup. A number of 
projects are geared toward building in-country capacity and providing 
technical assistance to reduce the poaching of African elephants, which 
once numbered in the millions but are now estimated at fewer than 
400,000 across the continent. The Service is committed to working with 
in-country partners to halt and reverse this trend, most notably in 
Gabon, where two-thirds of the forest elephants in Minkebe National 
Park have been killed since 2004, a loss of more than 11,000 elephants. 
This includes a 5-year cooperative agreement with the Gabonese National 
Parks Agency totaling more than $3.1 million and matched by more than 
$3.3 million in additional leveraged funds in the first year.
    In Latin America, the Service is working with partners to reduce 
the trafficking of species such as macaws and other parrots, jaguars, 
and reptiles through law enforcement training efforts in Mexico. Grant 
funding also supports the expansion of income-generating programs to 
communities in Colombia as an alternative to the illegal pet trade. 
Throughout Africa and Asia, funding is supporting conservation efforts 
to reduce the demand for ivory, rhino horn, tigers, pangolins, and 
other endangered wildlife by targeting government decisionmakers, young 
people, and the business sector through awareness campaigns.
    Through the Critically Endangered Animal Fund and the Amphibians in 
Decline Fund, projects around the world are protecting endangered 
animals and amphibians from poaching and illegal wildlife trade. From 
Snow Leopards in Pakistan to Peru's Lake Titicaca frogs, these two 
funds are supporting projects that are helping to save these animals.
    This is a pivotal moment in the conservation movement. We are now 
witnessing a confluence of two forces--an alarming, unprecedented, and 
dramatic increase in the slaughter of wildlife coupled with dramatic 
increases in trafficking and poaching. Species decline is being 
exacerbated by the lack of law enforcement coupled with corruption, 
instability, and underlying poverty. These grants provide critical 
conservation support across the globe for numerous endangered species.
CITES and Illegal Wildlife Trade
    CITES, an international agreement among 180 member nations, 
including the United States, is designed to control and regulate global 
trade in certain wild animals and plants that are or may become 
threatened with extinction due to international trade. As the first 
nation to ratify CITES, the United States has consistently been a 
leader in combating wildlife trafficking and protecting natural 
resources. More than 35,000 species currently benefit from CITES 
protection. International trade in plants and animals, whether taken 
from the wild or bred in captivity, can pose serious risks to species. 
Without regulation, international trade can deplete wild populations, 
leading to extinction. The goal of CITES is to facilitate legal, 
biologically sustainable trade, whenever possible. But in some cases, 
no level of commercial trade can be supported.
    Though a longstanding priority for CITES Parties, the focus on 
combating elephant poaching and illegal ivory trade is more intense 
than ever before. In March 2013, at the most recent meeting of the 
Conference of the Parties (CoP16), eight countries--China, Kenya, 
Malaysia, the Philippines, Tanzania, Thailand, Uganda, and Vietnam--
that were identified as significant source, transit, or destination 
points for illegal ivory trade agreed to develop time-bound action 
plans to actively address illegal ivory trade.
    Also at CoP16, the CITES Parties recognized the importance of 
addressing the entire crime chain by adopting several decisions to 
ensure that modern forensic and investigative techniques are applied to 
the illegal trade in ivory. The CITES Parties agreed to provide more 
effective control over domestic ivory markets and government-held 
stockpiles, and to promote public awareness campaigns, including 
supply-and-demand-reduction strategies.
    The decisions agreed upon at CoP16 to address the elephant poaching 
crisis were a significant step in the right direction. The United 
States played a major role in the development of all of these decisions 
and actions, and is committed to playing a significant role in their 
implementation, including ensuring that countries are held accountable 
for failure to do so.
Reducing Consumer Demand for Illegal Wildlife Products
    Most of the international conservation work funded by the Service 
has focused on on-the-ground protection of habitat and wildlife, 
including enforcement efforts, with the Service providing approximately 
$10 million annually to enhance and support wildlife conservation 
throughout Africa and Asia. In addition, the Service supports 
government and nongovernment partners in consumer nations in Asia in 
public awareness and demand-reduction campaigns.
    Over the years, the Service has also worked to educate and inform 
U.S. consumers about the role they play in wildlife trafficking and the 
impacts of this illegal activity on animal and plant species around the 
world. These efforts have ranged from partnering with nongovernmental 
organizations on a long-running ``Buyer Beware'' campaign and 
commissioning our law enforcement officers to present outreach programs 
on wildlife trafficking at the local, State, and national levels, to 
using airport billboards and social media to engage the public on this 
issue.
    Working with our cochairs, the Service will play a key role in 
efforts to reduce demand for illegally traded wildlife. Using our 
extensive network and experience, we are developing a strategy for the 
Service's role in addressing consumer demand. This includes working 
with the private sector and governments in key consumer countries to 
build public awareness about the impacts of illegal trade on wildlife, 
the potential penalties for engaging in such activities, and taking 
other actions to encourage attitudinal and behavioral shifts, all 
leading to measurable reductions in demand for illegal wildlife 
products.
                            u.s. ivory crush
    As part of our effort to combat illegal ivory trafficking, on 
November 14, 2013, the United States destroyed its 6-ton stock of 
confiscated elephant ivory, sending a clear message that we will not 
tolerate wildlife crime that threatens to wipe out the African elephant 
and a host of other species around the globe. The destruction of this 
ivory, which took place near the Service's National Wildlife Property 
Repository on the Rocky Mountain Arsenal National Wildlife Refuge near 
Denver, CO, was witnessed by representatives of African nations and 
other countries, dozens of leading conservationists, and international 
media representatives.
    This ivory crush sparked a new sense of possibility and 
collaboration--that we can work together effectively to halt this 
crisis before it is too late. We now are in a much better position to 
work with the international community to push for a reduction of ivory 
stockpiles worldwide, and to crack down on poaching and illegal trade. 
The ivory crush signaled the United States commitment to combating 
wildlife trafficking and one of the goals was to encourage other 
nations to do the same. Following the U.S. ivory crush, a number of 
other countries and regions destroyed their illegal stockpiles of 
ivory, including China, France, Chad, Belgium, and Hong Kong.
          national strategy for combating wildlife trafficking
    In accordance with the Executive order, the Presidential Task Force 
produced a National Strategy for Combating Wildlife Trafficking. The 
National Strategy establishes strategic priorities and guiding 
principles to help focus and strengthen the U.S. Government's efforts 
to combat wildlife trafficking, and to position the United States to 
exercise leadership on this urgent issue.
    The strategic priorities include: (1) strengthening the enforcement 
of laws and the implementation of international agreements that protect 
wildlife; (2) reducing demand for illegal wildlife and wildlife 
products; and (3) working in partnership with governments, local 
communities, nongovernmental organizations, the private sector, and 
others to enhance global commitment to combat wildlife trafficking.
    The Service is integrally involved in all of these priorities, but 
I would like to highlight a few areas of particular importance in our 
efforts to stem illegal wildlife trade.
Administrative Actions to Address the Current Poaching Crisis
    The United States has several laws and regulations in place that 
can help to address the poaching crisis. African elephants are listed 
as threatened under the ESA and also protected under the African 
Elephant Conservation Act. Nations across the world regulate trade in 
this species under CITES. Under these U.S. laws, it is generally 
illegal to:

  <bullet> Import or export African elephant ivory for primarily 
        commercial purposes;
  <bullet> Import or export it for other purposes without CITES 
        documents;
  <bullet> Buy or sell unlawfully imported African elephant ivory in 
        interstate commerce.

    Asian elephants are listed as endangered under the ESA. Import, 
export, and interstate commerce in ivory and other parts and products 
are generally prohibited.
    Though there are several laws and regulations in place to address 
illegal trade, a number of loopholes exist that are exploited by 
illegal ivory traders. Following the release of the National Strategy, 
the Service has taken steps toward implementing a near complete ban on 
commercial trade in elephant ivory. The first of these steps was the 
issuance of a director's order, which re-affirmed the African Elephant 
Conservation Act moratorium and the ESA definition of ``antique.'' 
Though this order was issued as a policy action, we intend to 
incorporate provisions in the order into our regulations through a 
public rule-making process, with opportunity for public comment.
    In addition to the provisions in the Director's Order, we will 
improve our ability to protect elephants, rhinos, and other CITES-
listed wildlife by publishing a final rule revising our CITES 
regulations, including ``use after import'' provisions that limit sale 
of elephant ivory within the United States. Under this new rule, items 
such as elephant ivory and rhino horn imported for noncommercial 
purposes may not subsequently be sold in either intrastate or 
interstate commerce. These regulations were already published as a 
proposed rule with opportunity for public comment.
    In the coming months, we will also publish a proposed rule to 
revise the ESA special rule for the African elephant (50 CFR 17.40(e)). 
This action will also include a public comment period. We will also 
propose limiting the number of elephant sport-hunted trophies that an 
individual can import to two per person per year.
    The combined result of these administrative actions would be the 
virtual elimination of all commercial trade (import, export, and 
interstate and intrastate sale) in elephant ivory and rhino horn, with 
certain narrow exceptions. Taking these measures will establish U.S. 
leadership and support diplomatic efforts to encourage demand reduction 
in consumer nations. The United States is one of the world's major 
consumers of illicit wildlife products, and we must lead by example. We 
also believe these actions are consistent with recent CITES 
recommendations adopted at CoP16.
Assess and Strengthen Legal Authorities
    While the Service is pursuing administrative actions to address the 
poaching crisis, the National Strategy also identifies the need to 
analyze and assess in general the laws, regulations, and enforcement 
tools that are now, or could be, used to combat wildlife trafficking. 
The goal is to determine which are most effective and identify those 
that require strengthening.
    In particular, the National Strategy calls on Congress to consider 
legislation to recognize wildlife trafficking crimes as predicate 
offenses for money laundering. This action would be invaluable to the 
Service's law enforcement efforts because it would place wildlife 
trafficking on an equal footing with other serious crimes. It would 
also provide our special agents with the same tools to investigate 
serious crimes that other federal law enforcement agencies have. This 
legislative change would help take the profit out of the illegal 
wildlife trade and end the days of wildlife trafficking being a low-
risk, high-profit crime. Strong penalties provide a deterrent and 
assist the U.S. Government in unraveling complex conspiracies and 
combating trafficking. Offenders facing significant penalties are more 
likely to become key cooperating defendants than those facing a light 
penalty.
Save the Vanishing Species Semipostal Stamp
    The National Strategy recommends continuing the sale of the Save 
the Vanishing Species Semipostal stamp. This stamp, which went on sale 
on September 20, 2011, has been providing vital support for the 
Service's efforts to fight global wildlife trafficking and poaching. 
More than 25.5 million stamps have been purchased in the United States 
by the public online and at their local post offices, generating more 
than $2.5 million for conservation. This money has been used to support 
47 projects in 31 countries in Africa, Asia, and Latin America to 
conserve elephants, rhinoceroses, tigers, marine turtles, and great 
apes. These funds have been leveraged by an additional $3.6 million in 
matching contributions--making the stamp a key part of the United 
States response to protecting wildlife and addressing the ongoing 
worldwide epidemic of poaching and wildlife trafficking.
    The continued sale of the Save the Vanishing Species Semipostal 
stamp is authorized by legislation enacted by Congress. However, the 
requirement to sell the stamp for 2 years has expired and the Postal 
Service has discontinued the sale of the stamp at this time. Continuing 
to sell the stamp would extend an opportunity for the American public 
to support wildlife conservation abroad by directly contributing money 
to help rhinos, tigers, elephants, sea turtles, and great apes.
Increasing Capacity to Address Wildlife Trafficking
    The Service is requesting $3.0 million in increases for its Law 
Enforcement and International Affairs programs as part of the National 
Strategy for Combating Wildlife Trafficking. I urge the Congress to 
support the President's budget request so that we can increase our 
efforts to change the trajectory of wildlife trafficking before it is 
too late for some species. The current wildlife trafficking crisis 
includes an escalating mass slaughter of elephants in Africa. If it is 
not stopped, the world may well lose wild populations of African 
elephants forever. A key to preventing this is to strengthen the 
Service's capacities in a number of areas described below.
    This increase would allow the Service's Office of Law Enforcement 
to begin to fully utilize its network of special agent/international 
attachees and build on past successes in combating global wildlife 
trafficking. Most of the FY 2015 Law Enforcement Operations requested 
increase would go to strengthening forensic capabilities needed to 
address wildlife trafficking, including illegal timbering, and 
expanding the capacity of the Special Investigations Unit so that it 
can maximize the scope and effectiveness of Service efforts to respond 
to the elephant poaching crisis and shutdown trafficking in elephant 
ivory.
    Successfully addressing the wildlife trafficking crisis requires 
actions in both the source countries and in the countries where demand 
for wildlife products drives poaching and illegal trade. The increase 
in the FY 2015 budget request would allow the Service's International 
Affairs program to work with key countries, such as Vietnam, China, 
Malaysia, and the Philippines , where demand for illegal wildlife 
products is high, to mobilize their private sectors in support of 
demand reduction campaigns. Funding would also be used to enable the 
implementation of one pilot project at a major elephant reserve to 
adapt drug interdiction techniques to combatting wildlife trafficking.
    Strong governance and effective implementation of international 
treaty obligations, in particular CITES, will also play a key role in 
curbing wildlife trafficking and supporting wildlife conservation. 
Equally important, U.S. consumers need to be aware of the laws that 
regulate wildlife trade and the plight of wild animal and plant species 
threatened by illegal and unsustainable trade in order to reduce 
demand. The increase in the FY 2015 budget request would support the 
effective implementation of ivory trade action plans and other actions 
agreed to at CoP16, and enable the Service to develop and implement a 
comprehensive outreach and education strategy targeting U.S. consumers 
of illegally traded wildlife.
                               conclusion
    I would like to thank the subcommittees for your support of our 
efforts to combat wildlife trafficking. We look forward to continuing 
to work with you as we move from the National Strategy into the 
implementation phase. The Presidential Task Force is developing a 
detailed implementation plan--outlining proposed agency actions to 
better leverage federal resources, share data, and coordinate law 
enforcement and conservation efforts across government, both 
domestically and internationally. The implementation plan will also 
address the importance of public/private partnerships in combating 
wildlife trafficking, and identify clear opportunities to work on the 
ground with local communities and other members of the public. We are 
also engaging the Advisory Council on Wildlife Trafficking regarding 
implementation of the National Strategy. We will engage your 
subcommittees, as well as other committees as appropriate, as we move 
forward.
    I want to leave you by asking you to consider this moment in 
history--and the choice we must all make as human beings and global 
citizens. We have a chance here, and now, to build on this National 
Strategy to ensure a secure future for elephants, rhinos, and hundreds 
of other wild plant and animal species. How will we answer when our 
grandchildren ask why some of these magnificent creatures no longer 
exist in the wild? I want to be able to tell them that the Service did 
everything we could to keep these amazing species from vanishing from 
our planet. I look forward to working with your subcommittees to make 
it a reality.
    Thank you for the opportunity to present testimony today. I would 
be pleased to answer any questions that you may have.

    Senator Coons. Thank you, Director.
    Assistant Administrator Postel.

 STATEMENT OF HON. ERIC G. POSTEL, ASSISTANT ADMINISTRATOR FOR 
THE BUREAU OF ECONOMIC GROWTH, EDUCATION, AND ENVIRONMENT, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Postel. Good afternoon, Chairman Coons, Chairman 
Cardin, and Ranking Member Flake. I would like to thank the 
committee for holding today's hearing and giving USAID the 
opportunity to testify.
    And, like you, my fellow panelists, and everybody else in 
this room, USAID is deeply concerned by the disturbing surge in 
poaching and illegal fishing and the threat it represents to 
wildlife diversity. The slaughter of thousands of animals, and 
the murder of park rangers, let us not forget, trying to 
protect these species, must be stopped.
    Today, rhino horn is more valuable per ounce than gold and 
a whole host of illegal products. The illegal killing and 
capture of wildlife, as you have noted, triggers a host of 
serious problems. The proceeds fund terrorists and militias, 
the local inhabitants are harmed, livelihoods in local 
economies are disrupted, and the rule of law is threatened. 
Poaching also threatens tourism, which is a major source of 
economic growth in countries such as Tanzania and Kenya. The 
broad destabilizing effects of wildlife trafficking creates 
incentives for corruption, discourages foreign investment, and 
disrupts ecosystems, with far-reaching consequences. That is 
why wildlife trafficking is an international development issue, 
and why USAID is committed to stemming this current crisis, in 
partnership with all of you and our colleagues across the U.S. 
Government.
    Our antipoaching work has traditionally focused on 
community conservation. One particularly successful effort was 
in Namibia, where, over 15 years, we invested about $40 million 
to establish community conservancies, where local people were 
given the rights to manage and benefit from their local natural 
resources. Today, one in eight Namibians, as Senator Flake may 
know, is a part of a conservancy and benefiting from the 
economic benefits, and the wildlife populations are growing, 
with almost no recorded poaching, the last couple of years, 
within those conservancies. Nepal has been similarly 
successful. In 2013, no tigers, elephants, or rhinos were 
poached in Nepal; in part, due to 20 years of investment and 
support by a wide range of organizations.
    But, though we take pride, along with others, in those 
successes, we face the stark reality that, since 2008, there 
has been a tremendous growth in demand for wildlife products, 
and it is fueling the poaching that we have all been discussing 
today. And these traffickers are sophisticated, organized, and 
violent, using all the financial, political, and technological 
tools at their disposal.
    Pursuant to the new U.S. national strategy, USAID's 
expanded efforts will focus on three main goals: stop the 
demand for wildlife products, stop the poaching, and stop the 
trafficking. And to achieve that, USAID will nearly double 
direct funding to combat wildlife trafficking, to an estimated 
$40 million in fiscal year 2014. We will focus on wildlife 
trafficking hotspots in these source, transit, and demand 
countries, and especially those that have made a political 
commitment to address the issue. We will concentrate the 
majority of the funding in Africa, the center of the elephant 
and rhino poaching; next will be Asia, where there are both 
poaching problems and, of course, it is one of the main sources 
of the demand.
    We have activities underway, as you noted in your opening 
comments, involving stopping the demand, stopping poaching, and 
trying to stop trafficking, often in great partnership with 
other colleagues and departments within the United States 
Government.
    Finally, I would like to note that, as the U.S. Government 
and USAID works on the front lines in the courts, on community 
conservation, and on reducing demand, we will also try new 
approaches, such as launching a new wildlife trafficking tech 
challenge that will seek to identify the most creative and 
promising technological solutions to wildlife crime. This 
effort is part of our overall USAID new model of development 
that emphasizes partnerships, innovation, and results. By 
applying new methods to our comprehensive approach to fight 
trafficking, we hope to save the world's most iconic species 
and promote sustainable development in all these countries.
    Based on my 3 years in government, I want to assure you and 
my fellow citizens that the employees with whom I have worked 
on this issue at the State Department, U.S. Fish and Wildlife 
Service, and USAID are all completely committed to trying to 
tackle this problem, are working very hard, are incredibly 
smart and experienced experts, and are dedicated to partnering 
with governments, the private sector, NGOs, and citizens around 
the world to tackle this.
    Thank you for your interest in this topic, and I look 
forward to your questions.
    [The prepared statement of Mr. Postel follows:]

                  Prepared Statement of Eric G. Postel

                              introduction
    Good afternoon Chairman Coons, Chairman Cardin, Ranking Member 
Flake, Ranking Member Rubio and other members of the subcommittees. On 
behalf of U.S. Agency for International Development (USAID) 
Administrator Shah, I would like to thank the committee for holding 
today's hearing and giving me the opportunity to testify.
    President Obama set forth a new vision of a results-driven USAID 
that would lead the world in development. We have risen to this 
challenge, pioneering a new model of development that emphasizes 
partnerships, innovation, and results. We are guided in these efforts 
by a new mission statement: we partner to end extreme poverty and 
promote resilient democratic societies while advancing our security and 
prosperity. Combating wildlife trafficking and the promotion of 
conservation are critically important to USAID and our mission. 
Conservation, which includes combating wildlife trafficking, is 
fundamental to human development and in achieving sustainable 
development.
    USAID along with our U.S. Government counterparts represented here 
today are deeply concerned by the recent disturbing surge in poaching 
and the threat it represents to wildlife diversity. The slaughter of 
thousands of animals and the murder of park rangers trying to protect 
these species must be stopped.
    USAID has a longstanding commitment to conserve and protect 
wildlife, reflecting, as Secretary Kerry recently noted the United 
States deep and abiding conservation tradition. Millions of Americans 
treasure the world's natural heritage and support safeguarding its 
wildlife. The increased flood of criminal trafficking not only raises 
the specter of species extinction and ecological disturbance, but also 
undermines conservation achievements, erodes economic prospects and 
saps national security. As a result, USAID has tripled its support to 
address this crisis over the past 2 years, investing an estimated $40 
million this year to develop innovative solutions in antipoaching, 
community conservation, and the reduction of consumer demand for 
trafficked products.
    USAID's wildlife trafficking efforts are underway within the 
context of the administration's ``National Strategy for Combating 
Wildlife Trafficking.'' The National Strategy establishes guiding 
principles and priorities for U.S. efforts to stem the illegal trade in 
wildlife via enhanced interagency cooperation and coordination. The 
National Strategy also affirms our Government's resolve to work in 
partnership with other governments, local communities, nongovernmental 
organizations (NGO), the private sector and others to combat wildlife 
trafficking.
    Today, rhino horn is more valuable per ounce than gold. The illegal 
and brutal capture and culling of wildlife trigger a host of additional 
serious problems: the proceeds fund weapons for terrorist networks and 
militias, local inhabitants are harmed, livelihoods and local economies 
are disrupted, and the rule of law threatened. Poaching also threatens 
tourism, which is often a major source of economic growth in developing 
countries such as Tanzania and Botswana. The broad destabilizing 
effects of wildlife trafficking creates incentives for corruption 
(including inside the wildlife management agencies that are responsible 
for protecting wildlife) discourages foreign investment, and disrupts 
ecosystems with far-reaching consequences. In my time at USAID, I have 
met people who can send their kids to school because of income earned 
from ecotourism, who have enough food because they are harvesting wild 
fish sustainably and who are healthy because of the clean water 
protected by forested hillsides. When nature is lost and the 
environment is degraded, the poorest in the world usually suffer the 
most.
              usaid role in combating wildlife trafficking
    In helping to implement the National Strategy, USAID's vision is to 
adapt and deploy a range of development tools and interventions to 
significantly reduce illegal wildlife trafficking. Historically, 
USAID's antipoaching work has focused on community-based conservation. 
A particularly successful effort was with our Namibian partners. For 
almost 15 years, USAID invested $40 million in this program to 
establish community ``conservancies'' where local people were given the 
rights to manage and benefit from their natural resources. As a result 
of this transformational program, community opinion changed in favor of 
wildlife and wildlife populations increased along with the economic 
benefits to communities. Today, one in eight Namibians is a member of a 
conservancy, the economic benefits and wildlife populations continue to 
grow, and there is almost no recorded poaching in the conservancies in 
Namibia. Similar success has been seen in Nepal, where in 2013 no 
tigers, elephants, or rhinos were poached. This was due, in part, to 20 
years of USAID support to communities to manage their forests. We also 
credit U.S. Fish and Wildlife Service grants for rhino conservation as 
part of these successes, and appreciate the recent work of the 
Millennium Challenge Corporation in investing in Namibia's 
conservancies.
    These examples demonstrate that regions with a history of long-term 
investment in community conservation are more resistant to the current 
poaching crisis. As we move forward, it is important to recognize that 
this success required major investments and consistent effort over 
decades. We recognize as well that we are only one part of the answer, 
and that we must work with other partners, such as our U.S. Government 
colleagues, the private sector, NGOs and host country governments. 
Together we can work to strengthen the front lines, build political 
will, and foment cultural changes to reduce demand and underlying 
corruption.
    While we take pride in these successes, we face the stark reality 
that since 2008, the tremendous growth in demand for wildlife products 
(including in the United States) has fueled a poaching rate that has 
completely overwhelmed previously secure regions. Forest elephant 
populations in Central Africa declined by 62 percent between 2002 and 
2011. Relentless poaching in South Africa's Kruger National Park is 
threatening the world's largest white rhino population. And in our 
oceans, illegal shark finning is pushing many shark species to the 
brink of extinction. Today's wildlife traffickers are sophisticated, 
organized, and violent, using all of the financial, political, and 
technological tools at their disposal. New approaches, new partnerships 
and better coordination at the local, national, and international level 
are needed if we are to save these precious resources.
    Pursuant to the National Strategy, our efforts will focus on three 
main goals: stop the demand for wildlife products, stop the poaching, 
and stop the trafficking.
    To achieve these goals:
    1. USAID will nearly double direct funding to combat wildlife 
trafficking to an estimated annual $40 million, up from over $20 
million in the previous fiscal year. It is worth noting that this $40 
million estimate is conservative as many of our biodiversity programs 
in our $200 million per year conservation portfolio contribute 
indirectly to antitrafficking efforts such as protecting critical 
habitats for wildlife.
    2. We will focus on wildlife trafficking hotspots in those source, 
transit, and demand countries that have made a political commitment to 
address the issue.
    3. We will concentrate the majority of FY14 funding in Africa, the 
center of the elephant and rhino poaching crisis, followed by Asia, 
where both consumer demand and poaching continue to rise.
    To do all that, our first step is to analyze the country-level 
factors affecting and being affected by illicit trade. The analysis 
yields a suite of support activities to be undertaken. That may mean 
helping communities manage wildlife at the same time that we provide 
training and equipment to park rangers. In other cases, we work with 
national governments to develop new wildlife policies. Our analysis 
also recognizes that we cannot--and should not--do everything. We work 
with other agencies, NGOs, and private companies to achieve impact. 
And, we emphasize that programs won't succeed unless the counterpart 
government is committed to achieving success. Once designed, we monitor 
and measure progress, generating evidence about what works.
                            stop the demand
    USAID supports activities that help shut down illicit markets. In 
2012, a monitoring report from USAID's partner International Fund for 
Animal Welfare led to a crackdown by the Chinese State Forestry Police 
on Web sites and antique markets in China. The police disrupted 13 
criminal gangs, arrested or fined more than 1,000 illegal traders, and 
seized more than 130,000 wild animals and 2,000 animal products. 
Authorities shut down more than 7,000 street shops and over 600 Web 
sites selling banned animals, and removed 1,600 related online 
messages. This effort was the largest police action to date tackling 
the massive online trade in illegal wildlife in China. When the same 
Web sites were revisited 4 months later, the number of wildlife 
products for sale had decreased by more than 50 percent. Continuous 
monitoring shows that the effect of the enforcement action has kept the 
illegal trade below previous levels.
    A growing part of USAID's portfolio seeks to reduce consumer demand 
for wildlife, the root cause of wildlife trafficking. We have a 5-year 
program that supports public awareness campaigns to reduce demand for 
wildlife in Thailand, Vietnam, and China. For example, its iThink 
campaign uses local celebrities and high-profile government officials 
in public service campaigns to create a groundswell of public opinion 
against wildlife purchases. The ``Fin Free Thailand'' campaign recently 
unveiled its ``Blue List'' of 100 hotels that will no longer serve 
shark-fin soup or any shark meat, an example of working with the 
private sector to achieve greater impact. Other activities focus on 
Asia's youth, who have tremendous power to influence their peers--and 
parents--to stop buying illegal wildlife products.
                           stop the poaching
    On the supply side, USAID fights poaching in more than 25 
countries, often with our colleagues at the Department of State, the 
U.S. Fish & Wildlife Service and other federal agencies. We work with 
governments to ensure that poachers are prosecuted and held 
accountable. For example, in countries such as Kenya, Tanzania and the 
Philippines, USAID is providing support to wildlife-focused Ministries 
to develop national antipoaching strategies; improve ranger capacity; 
enhance information networks; and reform out-of-date wildlife laws, 
including penalties.
    One example of this work is in the Salonga National Park in the 
Democratic Republic of the Congo, home to rare forest elephants and the 
endangered bonobo. When USAID-supported collections of park patrol data 
revealed in early 2012 that heavily armed elephant poachers had 
infiltrated the park and overwhelmed undertrained and ill-equipped park 
guards, the Congolese Government committed more than 300 military 
personnel to root out the poachers through ``Operation Bonobo.'' In 
collaboration with National Park authorities, the military conducted a 
sweep of the park and surrounding communities. As of September 2012, 
authorities had arrested 30 suspected poachers, seven of whom have been 
sentenced to prison. In addition, more than 120 high-powered firearms 
were confiscated, including assault rifles. Since then, nearly all 
signs of hunting have disappeared, and elephants have returned to areas 
they avoided during the siege.
    As we support antipoaching efforts on the front lines, we will also 
continue to invest in communities that live with and benefit from 
wildlife. Local communities are increasingly recognized as key partners 
with government in the fight against poaching, de facto ``gatekeepers'' 
because they often live next to protected areas that support wildlife 
populations. By increasing the economic returns from conservation, 
wildlife becomes more valuable alive than dead, building a local 
constituency for action on protection. Community-based conservation is 
a key part of USAID's approach because it provides the foundation for 
lasting success, as we have seen throughout our work.
                          stop the trafficking
    In the illegal wildlife supply chain, poachers profit the least and 
are easily replaced. Targeting mid- and high-level traffickers is a 
more effective strategy to shut down trafficking networks. Much work 
remains to be done in this area. USAID supports activities to help 
build strong criminal cases against traffickers. For example, in the 
Philippines, we and our colleagues in the U.S. Department of the 
Interior, including the U.S. Fish & Wildlife Service, advise and 
support the Philippine Government to improve environmental law 
enforcement. Together, we are helping to build robust systems to 
prosecute wildlife traffickers, including the development of ``rules of 
procedure'' for environmental cases, institutionalized training for 
prosecutors and judges to prosecute wildlife crimes, and capacity-
building for wildlife forensics.
    USAID was also an early funder of the ``WEN''--or Wildlife 
Enforcement Network--enforcement model, starting in 2005. This program, 
in concert particularly with the Department of State, forged regional 
cooperation between police, customs, judicial, and environmental 
agencies in the ten ASEAN countries. ASEAN-WEN established a model that 
is now being replicated in other regions, with support from USAID and 
our interagency colleagues.
    USAID is also supporting some efforts to map and shut down the 
transit routes through which illegal wildlife is trafficked. Wildlife 
traffickers use complex shipping routes that frequently change, conceal 
illicit cargo on transport vessels and falsify documents at ports of 
exit and entry. For example, USAID assessments have revealed direct 
links between the abalone trade and drug trafficking and provided new 
insights into the complexity of ivory trade routes, including seasonal 
changes and the opening of new export and import nodes. These findings 
will inform targeted interventions in that will help disrupt illegal 
trade between Africa and Asia.
                             final remarks
    Despite the strong programs and successes I have just described, 
there is no denying that we are in the throes of a poaching crisis. 
Almost every week, a new article details fresh atrocities committed 
against wildlife. But there are also encouraging signs of increased 
global vigilance, cooperation and effort.
    Since President Obama issued the Executive order to Combat Wildlife 
Trafficking last summer, we have also been examining how else USAID can 
best support the global effort to combat wildlife trafficking. It is 
clear that community conservation should remain a major focus that we 
must continue our work with governments on the front lines and in the 
courts and that we must stamp out consumer demand. But what about new 
approaches? As you know, there is a renewed focus on using science, 
technology, innovation and partnership at USAID to solve intractable 
development problems. We are also applying this to the illicit trade in 
wildlife.
    Later this year, we will launch the Wildlife Trafficking Tech 
Challenge, a new program that will seek the most creative, innovative, 
and promising science and technology solutions to wildlife crime. We 
will focus on four critically important areas where technology has the 
potential to make big impacts: (1) understanding and shutting down 
transit routes, (2) improving forensic tools and intelligence gathering 
to build strong criminal cases, (3) understanding and reducing consumer 
demand and (4) combating corruption along the illegal wildlife supply 
chain. This program will specifically draw in applicants from fields 
outside of conservation, such as software engineers, forensic 
scientists, social media experts and universities. We hope some of your 
constituents will participate so that fresh eyes and new partnerships 
will complement our ongoing conservation work to reduce the slaughter.
    I would like to thank you again for your support on this issue and 
for the opportunity to speak with you today. I look forward to your 
questions and any thoughts you might have on how we might engage your 
constituencies in the fight against wildlife trafficking. Attached to 
my written testimony for the record is a copy of the 2013 USAID 
Biodiversity Conservation Report which details all of USAID's 
programming to combat wildlife trafficking.

[Editor's note.--The Report mentioned above sumitted for the 
record by Eric Postel was too voluminous to include in the 
printed hearing. It will be retained in the permanent record of 
the committee.]

    Senator Coons. Thank you, Assistant Administrator.
    Deputy Assistant Secretary Darby.

 STATEMENT OF BROOKE DARBY, DEPUTY ASSISTANT SECRETARY FOR THE 
BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Darby. Chairmen Coons and Cardin, Ranking Member Flake, 
it is a pleasure to appear before you today to discuss the 
threat posed by wildlife trafficking and efforts of the 
Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs, known as INL, to address it.
    Wildlife trafficking is among the top five most lucrative 
forms of transnational organized criminal activity, generating 
an estimated $8 to $10 billion in illicit revenues each year. 
The damage it causes is serious and multifold. It puts the 
safety of civilian populations at risk through the use of heavy 
weaponry and aggressive tactics; it fuels and is fueled by 
corruption, which undermines the rule of law, good governance, 
and citizens' faith in their government; it creates and 
exacerbates border insecurity; it weakens financial stability 
and economic growth, particularly in countries that rely 
heavily on tourism revenues; and there is some evidence that 
terrorist and militia groups, including al-Shabaab, the Lord's 
Resistance Army, and the Janjaweed, have profited from the 
trade.
    Today, wildlife trafficking is a low-risk, high-reward 
enterprise. The President's national strategy to combat 
wildlife trafficking and the efforts that INL, those 
represented here today, and other agencies throughout our 
government are taking in furtherance of that strategy, are 
designed to change that equation and, in doing so, to protect 
wildlife and to protect people.
    The Senate Foreign Relations Committee, then under the 
chairmanship of now Secretary of State Kerry, was early to 
raise the alarm about the illegal wildlife trade and the 
threats it poses. With strong support from this committee and 
others in Congress, INL is advancing the enforcement and 
international cooperation pillars of the President's strategy 
through capacity-building programs and diplomatic engagement, 
targeting four key areas.
    First, legislative frameworks to make sure countries have 
the laws in place to vigorously investigate and successfully 
prosecute wildlife crime, with penalties that constitute true 
deterrence.
    Second, investigative and enforcement capacities to develop 
deeper knowledge of how organized criminal groups operate in 
this space, and begin to dismantle them.
    Third, prosecutorial and judicial capacities to give courts 
the tools they need to prosecute wildlife trafficking 
effectively.
    And fourth, enhancing cross-border law enforcement 
cooperation, particularly through the wildlife enforcement 
networks.
    We already are seeing results. In February, a monthlong 
operation named COBRA II, involving 28 countries from 
throughout Africa, Asia, as well as the United States, and 
supported by INL, USAID, and others, arrested 400 individuals 
and made more than 350 major wildlife seizures. More such 
operations will follow in the future.
    Late last year, Secretary Kerry announced the first $1 
million reward offer under the new Transnational Organized 
Crime Rewards Program that this committee helped to authorize 
for prolific wildlife trafficking syndicate based in Laos, but 
operating throughout Africa and Asia, known as the Xaysavang 
Network. There are early signs that turning up the pressure on 
this network is having an impact on its operations.
    And last year's U.N. Crime Commission adopted a resolution, 
cosponsored by the United States and Peru, that presses 
countries to make wildlife trafficking a serious crime, which 
not only creates a bigger deterrent, but also allows countries 
to utilize tools available under the U.N. Convention on 
Transnational Organized Crime, like extradition and mutual 
legal assistance, to go after and punish wildlife traffickers.
    There is much more we and the international community must 
do, but, with your continued support, we are better positioned 
than ever to address the wildlife trafficking threat.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Darby follows:]

                   Prepared Statement of Brooke Darby

    Chairmen Coons and Cardin, Ranking Members Flake and Rubio, and 
distinguished members of the Subcommittees on African Affairs and East 
Asian and Pacific Affairs, thank you for inviting me here today to 
discuss the threat posed from wildlife trafficking and the efforts of 
the Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) to address it.
    I testify before you today alongside committed champions and long-
time supporters of enhancing conservation efforts, improving land 
management, protecting endangered species, and strengthening law 
enforcement capacities that safeguard natural resources and prevent and 
prosecute environmental and wildlife trafficking crimes. And while this 
may be an area that INL is somewhat new to, you can rest assured that 
we are now much more actively engaged, taking to heart the call-to-
action by both the President and Secretary of State, to leverage all 
instruments at our disposal to strengthen our partners' law enforcement 
and criminal justice capacities to combat wildlife trafficking.
    Let me provide some insights into the breadth and scale of the 
challenge posed by the global illicit trade in wildlife. Increasing 
demand for illegally traded wildlife products in the last several years 
has fueled a massive uptick in poaching, particularly in Africa, and 
growing engagement by sophisticated transnational organized criminal 
networks, drawn to profits that can rival, or in some cases even 
exceed, those derived from drug trafficking. Conservative estimates of 
$8-$10 billion in illicit revenues per year place wildlife trafficking 
among the top five most lucrative forms of transnational organized 
crime. In addition to searching out opportunities for high rewards, 
criminals also exploit environments with low risks of detection and 
meaningful punishment--and they find that in the illicit wildlife trade 
where they are able to exploit porous borders, corrupt officials, 
insufficient enforcement and investigative capacities and penalties, 
weak legal regimes, and lax financial system oversight.
    All of us need to be concerned about the wide-ranging impact of the 
illegal wildlife trade, and organized criminal organizations' 
involvement in it. I'd like to talk about the serious impact this crime 
has on humans and our security from INL's perspective:

  <bullet> The high-tech weaponry and violent, aggressive tactics now 
        employed by poachers threaten the safety and security of 
        civilian populations, particularly in supply (also known as 
        ``range'') states. Park rangers are at special risk and many 
        have been killed trying to protect wildlife.
  <bullet> The corruption that both fuels, and is fueled by, the 
        illegal wildlife trade undermines good governance and the rule 
        of law, and erodes citizens' confidence in their government 
        institutions.
  <bullet> Wildlife trafficking crimes create and exacerbate border 
        insecurity, creating new vulnerabilities that other criminals, 
        terrorists, and militias can exploit.
  <bullet> The depletion of natural resources, and related corruption, 
        weakens financial stability and economic growth, particularly 
        in countries for which tourism is a major revenue source. 
        Furthermore, illicit trade in illegally harvested marine 
        species threatens food security, potentially undermining 
        political stability in many developing nations.
  <bullet> Terrorists and militia groups may seize the opportunity to 
        benefit from the wildlife trade. We have some evidence that the 
        Lord's Resistance Army and the Janjaweed have done so, for 
        example, trading wildlife products for weapons or safe haven.

    For these reasons, the President issued an Executive order calling 
for a whole of government response to combat wildlife trafficking on 
July 1, 2013, and released the ``National Strategy for Combating 
Wildlife Trafficking'' on February, 11, 2014. The strategy calls on 
agencies and departments to address wildlife trafficking by: (1) 
strengthening domestic and global enforcement; (2) reducing demand for 
illegal wildlife products; and (3) building international cooperation 
and public-private partnerships.
    INL is primarily involved in implementing the enforcement and 
international cooperation goals of the strategy through programmatic 
and diplomatic initiatives. We are not complete newcomers to the game--
for over a decade, we have provided wildlife investigative training 
delivered by the U.S. Fish and Wildlife Service as part of our 
International Law Enforcement Academy (ILEA) program. But within the 
last year, with strong support from Congress, we have begun to greatly 
expand our programs, drawing on our experience in addressing other 
forms of transnational criminal activity. We have organized our work 
around four key areas.
    First, we will work with interested partners to strengthen 
legislative frameworks to make wildlife trafficking a serious crime 
with strong penalties in order to provide investigators and prosecutors 
the legal tools they need to put the traffickers behind bars.
    Second we will improve law enforcement and investigative 
capabilities--including intelligence, evidence collection and analysis, 
investigative skills and methods, and collaboration across agencies and 
governments--with our partner agencies to promote intelligence-led 
investigations and operations that strive not simply to pick up 
individual poachers but rather to better understand and begin to 
dismantle the organizations for which they work.
    Third, we will work to build prosecutorial and judicial capacities 
with our partners. As we have learned, rangers and police will not 
continue to apprehend the bad guys if they believe prosecutors or 
judges will just let them go. So as we improve legislative frameworks 
and offer up new tools, we need to ensure prosecutors and judges know 
how to use those tools effectively and creatively.
    And fourth, we will enhance cross-border law enforcement 
cooperation, particularly by working with the regional Wildlife 
Enforcement Networks (WENs) with other agencies. There is much that we 
need to learn about how wildlife trafficking organizations operate--but 
we do know that illegal wildlife products often make their way through 
multiple transit points as they move from supply states to demand 
markets. So we need to build alliances and processes across borders for 
sharing information and intelligence and collaborating on operations.
    The National Strategy stresses the need to marshal and 
strategically apply federal resources through a coordinated approach. 
Our work in these areas will be done on a bilateral and regional basis 
looking at priority areas and landscapes for U.S. foreign assistance in 
Latin America, Africa, and Asia. When the President announced the 
Executive order to Combat Wildlife Trafficking last July, he also 
announced that $10 million would support law enforcement efforts in 
Africa. Those funds, coupled with approximately $6 million in prior 
year funding, are supporting bilateral INL programming in Kenya and 
South Africa; regional capacity-building efforts in Africa and East 
Asia and the Pacific, and global programs, including efforts through 
INTERPOL, the United Nations Office on Drugs and Crime (UNODC), and the 
World Customs Organizations, all of which are part of the International 
Consortium for Combating Wildlife Crime (ICCWC). The approximately $15 
million recently directed in FY 2014 International Narcotics Control 
and Law Enforcement (INCLE) funds will enable us to expand efforts 
begun or piloted using prior year resources, such as training for 
customs officers at ports of entry, prosecutorial training, and joint 
capacity-building/operational exercises across regions and continents.
    INL's engagement extends beyond assistance programming. We also are 
tapping into tools developed to address transnational organized crime, 
to tackle the specific challenge of wildlife trafficking, including the 
Transnational Organized Crime Rewards Program, which Congress 
authorized in 2013. In November 2013, Secretary Kerry announced the 
first reward offer under the program of up to $1 million for 
information leading to the dismantling of the Xaysavang Network. The 
Xaysavang Network, based in Laos and operating across Africa and Asia, 
facilitates the illegal trade of endangered elephants, rhinos, and 
other species.
    Through diplomatic outreach and engagement, we are building 
international consensus around the importance of dismantling wildlife 
trafficking networks. For example, at the U.N. Crime Commission in 
April 2013, the United States introduced a successful joint resolution 
with Peru encouraging governments around the world to treat wildlife 
trafficking as a ``serious crime'' pursuant to the U.N. Convention 
against Transnational Organized Crime. Making it a serious crime 
unlocks new opportunities for international law enforcement cooperation 
provided under the Convention, including mutual legal assistance, asset 
seizure and forfeiture, extradition, and other tools to hold criminals 
accountable for wildlife crime. The U.N. Economic and Social Council 
adopted the resolution in July 2013, further elevating wildlife 
trafficking as a major concern for the United Nations. These measures 
provide the mandate that we need, as members of a larger body of 
concerned nations, to harness our collective capabilities to learn more 
about these trafficking networks, share information, and collaborate on 
plans and programs that will undermine them.
    Another early success to which we can point is a recent month-long 
global law enforcement cooperative effort, known as ``Cobra II,'' that 
we helped to support. Participants from 28 countries, including 
representatives from the U.S. Fish and Wildlife Service with 
participation from USAID, executed this global operation in February 
2014 to combat wildlife trafficking and poaching which resulted in more 
than 400 arrests and 350 major seizures of wildlife and wildlife 
products across Africa, Asia, and the United States. The operation 
demonstrated to participants the benefits and results that can be 
achieved by working together and we will seek to build on the positive 
momentum it generated.
    Although we have more to learn about the links that exist between 
wildlife trafficking organizations and other transnational criminal 
groups, we do know that wildlife traffickers do not operate in a 
vacuum. Criminal organizations tend to use the same routes and shipping 
methods as smugglers of weapons, drugs, and counterfeits. They bribe 
the same customs officials. They deploy poachers in the same restive 
regions where terrorists and other criminals may sow instability and 
conflict and exploit weak institutions and porous borders. Money and 
corruption are common denominators of all forms of transnational 
organized crime, and wildlife trafficking is no exception.
    INL is looking at ways to connect our anticorruption and unit 
vetting programs used effectively in narcotics-producing regions, to 
support willing governments afflicted by wildlife trafficking. We are 
also examining the broader use of Presidential Proclamation (PP) 7750, 
which is used to bar entry into the United States of high-level corrupt 
officials and their family members, against wildlife traffickers and 
their enablers.
    Following the money is equally important. All illicit criminal 
networks need money to finance their activities and as illicit funds 
move through the international financial system, they can be detected 
and monitored. In addition to exercising leadership within the 
Financial Action Task Force (FATF), we are promoting and applying tools 
like asset recovery and forfeiture to combat transnational organized 
crime and money laundering. Through the FATF style regional body for 
Eastern and Southern Africa, we are working with international partners 
to uncover and counter money laundering and other illicit financial 
flows related to wildlife trafficking. We then will develop capacity-
building projects to address gaps this study identifies.
    Illicit networks undercut the ability of law enforcement to protect 
citizens, deprive the states of vital revenues, promote corruption, and 
contribute to bad governance. But as organized crime has evolved and 
diversified, so has INL. Our programs are tailored to specific and 
cross cutting threats, including wildlife trafficking, to target the 
common facilitators of all types of crime.
    Thank you, Chairman Coons, Chairman Cardin, and distinguished 
members of the subcommittees for your attention to and support of our 
collective efforts to combat wildlife trafficking. I welcome your 
questions.

    Senator Coons. Thank you very much.
    We will now begin 7-minute rounds of questions, if my 
colleagues here--let me ask just an initial question of all 
four of you. And this is going to be a multipart question.
    Ambassador Garber, I appreciate your complimenting Congress 
on our leadership, but I am interested in hearing from each of 
you, in turn, What are the real opportunities for congressional 
action? What are the things that we should be doing that will 
actually move this forward in a concrete way? Because each of 
you referenced, in passing, something, whether it is 
reauthorization or extension of the stamp, whether it is 
funding, whether it is strengthening the criminal penalties for 
particular actions. So, what congressional actions should we be 
taking promptly, if at all possible?
    Second, how are you spending the $45 million that Congress 
dedicated to wildlife trafficking?
    And how does your budget request for this year specifically 
deal with the--my third question--implementation plan for the 
national strategy?
    I think all of us spoke, in some way, in support of or 
complimenting the national strategy. But, it was released 3 
months ago. I am eager to hear more about the timeline for an 
implementation strategy.
    So, what should we be doing? What are you doing? And how 
are we going to get to an implementation strategy?
    Ambassador.
    Ambassador Garber. Thank you very much, Mr. Chairman.
    In terms of what Congress can do, holding a hearing like 
this is so important because it shows that it is not just the 
administration that is concerned about this issue, but that the 
U.S. Congress is, too.
    We also have deeply appreciated the seed funding, from the 
position in my Bureau that we have received, for setting up the 
Wildlife Enforcement Networks that we were talking about 
earlier. And we have been able to leverage a very small bit of 
money into something that has real effect and has helped us to 
staunch what is going on in wildlife trafficking.
    And we also have deeply appreciated the support that we 
received for funding some of the international conventions that 
we are also partnering with, because this is an issue that the 
U.S. Government cannot solve alone. As you said in your opening 
remarks, this is something that requires partners and 
partnership, and it really requires a partnership between the 
administration and Congress, but also a partnership with the 
U.S. Government, with many other countries, with 
nongovernmental organizations, and with the private sector. And 
Congress is helpful in all of that.
    Senator Coons. Thank you, Ambassador.
    Director Ashe.
    Mr. Ashe. Thank you, Senator.
    I would say--I mentioned the stamp before. I think funding, 
in general, we have a $3 million budget increase that the 
President has proposed for our budget this year, which will 
allow us to put more capacity into our forensics lab in 
Ashland, OR. And that is going to provide us with the 
opportunity to provide technical support to range and transit 
countries to do a better job of enforcement and, ultimately, 
prosecution, which is key, support to put liaison positions 
into State Department embassies around the world so that we 
have eyes and ears on the ground, and we are coordinating at 
the embassy level with our other agency colleagues.
    I think ESA penalties, the penalties for trafficking can be 
improved; but perhaps more important, we can consider the 
possibility of using antiracketeering and other statutes to 
attack these syndicated criminal networks.
    And I would say accountability, that you should hold us 
accountable to actually accomplish the aspirations that are 
reflected in the President's strategy, so perhaps maybe 
thinking about having us come back here this time next year and 
to see what we have been able to accomplish during that period 
of time.
    Senator Coons. I like that idea. I welcome anyone who seeks 
more congressional accountability. [Laughter.]
    Senator Coons. Assistant Administrator Postel.
    Mr. Postel. Thank you, Senator.
    To add to the list two or three things, in terms of 
opportunities, one is, on your CODELs, to raise the issue with 
the host-country governments. I think it is very important that 
they hear lots of voices. They, of course, hear from all of us, 
but also hearing from all of you about the importance of these 
issues and how good governance is part of what is needed to 
have success.
    Second, if and when you ever have interactions with the 
various U.S. companies involved in transit and transport, we 
have some partnerships--for instance, with Delta and other 
folks--but, you know, how does this stuff get moved around? We 
need those partnerships and engagement from CEOs of a number of 
different types of companies involved.
    Also, the conversation with local constituents. As you 
noted, Mr. Chairman, the second-biggest market is the United 
States. And I am not sure people always understand what harm 
comes from some of their private activities. So, visibility on 
that is very useful.
    And, of course, we very much appreciate the fundings and 
the support you give, in terms of directives for budgets, not 
only on specific issues, but the overall top line to the 
agency, which then gives us the wherewithal to accomplish all 
those things.
    In terms of our spending--of the FY 14 funds that I 
mentioned, 65 percent will be for Africa, 25 percent will go to 
Asia, and 10 percent will be for more global goods, like the 
tech challenge analysis of transit routes and things like that.
    In terms of FY 15, we will definitely be looking--the 
request is based on the concept that we will make adjustments. 
And we are already starting to pivot, even without the 
implementation plan, because of moving more toward some other 
countries, which maybe we were not as active in, but they are 
demand hotspots or supply hotspots.
    Thank you.
    Senator Coons. Thank you.
    DAS [Deputy Assistant Secrertary] Darby.
    Ms. Darby. I do not have too much to add, in terms of the 
ways that Congress can be supportive of this effort beyond what 
my colleagues have said, which I certainly agree with.
    And I think--to reinforce the domestic awareness points, I 
think, Chairman Coons, the Opportunity Africa Conference that 
you held in Delaware earlier this year, and the opportunity 
that you gave us to speak at that conference on the issue of 
wildlife trafficking, interacting with the members of your 
audience reinforced how interested people are in this issue, 
and yet how they do not have all of the facts at their 
disposal. And I think fora like that are a really important way 
that we can get the message out to domestic audiences. And I 
think the elementary school students who were in the front row 
and asking questions is a great sign of future generations' 
engagement on this issue, because clearly, while we are very 
engaged right now, and we want this to remain a priority for 
the years to come, addressing this in a comprehensive way is 
going to be a generational challenge, and we need to make sure 
it stays on the radar.
    Senator Coons. That is right. Thank you. I believe it is a 
long-term challenge. And one of the things that made that panel 
particularly successful at the conference in Delaware was a 
Delawarian who is an iconic filmmaker who has dedicated a great 
deal of time to documenting the hard work needed to save 
elephants in Africa. We also had a Namibian former--his father 
was a poacher, and he is involved in community-based 
conservation. So, it was a great panel. And thank you again for 
coming to Delaware for that.
    Let me turn to Senator Flake.
    Senator Flake.
    Senator Flake. Well, thank you.
    Thank you for your testimony.
    I have spent about 3 years of my life in southern Africa, 
been in countries where things are going well. Namibia, 
certainly since I was there, has had good success in 
maintaining these conservation efforts, with a lot of help from 
the United States. And I have seen Zimbabwe, as well, where I 
spent time in the early 1980s, go the other direction.
    But, the first question, just in terms of budget. CRS notes 
that, between all the agencies that are spending money in this 
regard--and it is about $617 million enacted in FY 2015 to 
combat wildlife trafficking--in your estimation, is the 
coordination what it should be between agencies? Could we 
better spend the money that we are spending?
    I know that when I meet with NGOs, some of them are 
critical about where some of the money is spent, in terms of 
tamping down demand or other conservation efforts. I realize we 
are all government witnesses here, and all of you rely on, you 
know, appropriations from us on that regard, but I would like 
to get your opinion on how we can--and have we made some moves 
in the past couple of years to better utilize the numbers that 
we are talking about here?
    First Ms. Garber.
    Ms. Darby. Thank you very much--oh, I am sorry.
    Senator Flake. Go ahead.
    Ambassador Garber. Thank you very much for that question. 
Part of what we are trying to do with the national strategy as 
we develop the implementation plan is do just that. We are 
trying to take a very strategic look at what we are doing to 
make sure that it is really complementary and reinforcing 
across the agencies. And so, as we are developing that plan, we 
are trying to look at where we can use the money most wisely to 
make sure that we are implementing the strategy effectively. 
Because, absolutely, Senator, we can always do better, and that 
is something that we are really very much aware of, 
particularly right now, in a tight fiscal time.
    So, thank you.
    Senator Flake. Will I get the same answer from everybody on 
that? We are doing better with the strategy?
    Mr. Ashe. We certainly can. And I would just highlight a 
few things. Customs and Border patrol is an essential partner 
in this enterprise. And I think all of us are working with U.S. 
Customs and Border Protection to institute things like the 
Commercial Targeting and Analysis Center, so 10 Federal 
agencies working together to expand our abilities to target 
illegal trade, in general, but certainly illegal wildlife 
shipment. The International Trade Data System is going to be an 
important new evolution for us in working together to create a 
single window for trade data so that we can both facilitate 
legal trade and target illegal trade. And so, I think we are 
working, as we never have before, together, but we certainly 
can do better.
    Senator Flake. Mr. Ashe, the ban that Fish and Wildlife 
Service put on elephant trophies from Zimbabwe and Tanzania, 
some are critical. Safari Club and others have criticized that, 
saying we are taking away money that is used for conservation. 
What is your feeling there? Is this prompting Zimbabwe and 
Tanzania to take measures where they better regulate what goes 
out? Or is this, over the long term--and I know this is being 
reviewed for next year. Can you talk about that ban and what 
you hope to achieve there?
    Mr. Ashe. Sure. I think that, first of all, I would say, 
you mentioned Namibia, and what we need to do, number one, is 
reward countries that have good wildlife management programs. 
And last year there was a lot of controversy about the 
potential of a black rhino being harvested in Namibia and 
potentially, you know, imported the trophy, imported into the 
United States. And my position on that was, we need to stand 
behind countries like Namibia, who have--one-third of the black 
rhinos that remain in the world are in Namibia. They manage 
them very well. We need to stand behind those countries. And 
when they can allow harvest, we need to support that.
    I think hunting is not--well-regulated, well-managed 
hunting is not what is driving this crisis. But, we need to 
ensure that hunting remains a well-regulated aspect of wildlife 
management.
    And from the perspective of the U.S. Fish and Wildlife 
Service right now in Tanzania, we are seeing extremely 
disturbing signs of devastation of elephant populations in the 
Selous, which is one of the strongholds in Tanzania. In 
Zimbabwe, we simply do not have the information that is 
necessary for us to make those determinations.
    But, we are talking to both countries. And it is a matter 
of getting better information and putting in place the 
mechanisms that need to be there to ensure that hunting is a 
sustainable process, that it is free from corruption, and the 
revenues from hunting are going back into conservation of the 
species. We expect to be able to see hunting resume in Zimbabwe 
and Tanzania in the future.
    Senator Flake. Thank you.
    It seems as if it is going to be tough, really, to work 
with these countries and--because, I mean, some of them see the 
economic benefit of protecting the herds that they have. They 
certainly do in countries like Namibia, and the whole country 
benefits from the economic value of tourism and everything 
else. But, that is only until the value of poaching, you know, 
exceeds that value, at least to individuals and poachers. So, 
it is the demand side that really has to be affected.
    Like I said, there are some NGOs that are critical that we 
are not spending more money on the demand side, tamping down 
demand, or trying to. There are some NGOs that are working in 
China, in particular, working with public officials, with 
celebrities. How would you rate the efforts that are going on 
right now among the NGO community to try to address the demand 
side in China and Southeast Asia? I do not know who is best to 
address that.
    Mr. Postel. Thank you for the question, Senator. I think a 
couple of people might speak on it.
    But, we feel that the involvement, engagement of NGOs is 
very important in this area and with the citizens, who may not 
even be part of that. There was a large meeting of people in 
London, in February, that the Ambassador and I and a number of 
other people went to, and there was a whole session, where 
activists were presenting evidence about what was working in 
China and other countries. And interestingly, the most 
effective of all was something not done by an organization, but 
a Chinese actress, who tweeted a photo of what it looks like 
when one of these animals is slaughtered, and had 500,000 
people see that.
    There are some very effective and sophisticated things that 
I have seen the NGOs are doing; some of that is with our 
support or other agency colleagues, but some of it is on their 
own. And so, I see a lot of progress being made, but also just 
by regular citizens.
    Senator Flake. Does anybody want to follow up? I am out of 
time, but go ahead.
    Ambassador Garber. What I would just say is that, as you 
said, Senator, addressing demand is a really complex and long-
term issue, and the factors are very different in each one of 
these countries. It is not a one-size-fit-all answer. And we 
certainly recognize that we, as the U.S. Government, do not 
have all the solutions, all the answers to this particular 
question. The NGOs are doing really excellent work. What works 
in one place does not necessarily work effectively in another. 
But, that is why we are really reaching out to have a 
conversation with the nongovernmental organization community, 
with the private sector, and with other governments, because, 
in some places, really the government taking this on and 
showing that it does not support this, showing leadership 
themselves, can also be critical to changing these patterns of 
behavior.
    So, it is a very complicated approach. We are working an 
awful lot on the demand side, very hard across the U.S. 
Government and with a variety of partners. But, it has to be a 
key part of our focus, because the demand, in part, is really 
what is driving this.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    Senator Coons. Senator Cardin.
    Senator Cardin. Well, again, I thank all the witnesses. 
And, you are correct, this hearing is a clear indication that 
the Congress is very much focused on this issue. And it is a 
continuing interest. Today's record will help us in trying to 
figure out where we can be the most helpful to deal with this 
illicit trade.
    It is very interesting, on your point that the value of the 
rhino horn is more than gold. That points out, as you have all 
said, you need a comprehensive strategy. You also have to deal 
with public awareness and demand, you have to deal with supply. 
But, at that price, it shows that we are doing something about 
the supply, for it to be that precious, from the point of view 
of the trade.
    But, I want to get on to the demand side for one moment. 
You have all talked about this a little bit. But, my 
information says that, in Asia, rhino horns, particularly, but 
also elephant tusks, are looked at as a luxury item and a 
social status item, and that many of the people who desire and 
want and acquire these items do not realize it is illegal and 
do not realize the impact it has on the species. So, yes, you 
are absolutely correct, when we bring this attention to the 
public, they become outraged, they get involved, and there is 
political support to take more dramatic action. But, it seems 
like we have a challenge in Asia, that we have not yet reached 
the mainstream of those who are capable of purchasing these 
products and wanting these products, because it looks like it 
is still perceived as a status symbol to have these products in 
your possession.
    Can you just share with us whether we are taking steps to 
try to change that within the demand countries, and what we can 
do in the United States to help in that regard?
    Whoever wants to grab that.
    Mr. Ashe. I will start, Senator, and--I think that we are 
taking steps, and I am sure my colleagues will have things to 
add.
    But, for my part, I think the ban on commercial trade in 
the United States is an essential first step. When we talk to 
our colleagues in other countries, they look right back at us 
across the table and say, ``Well, you are doing the same thing 
that we are doing.'' And when you see this elephant tusk, these 
two products here, they--each of those represents a dead 
elephant. And, you know, part of the education that needs to 
take place in countries like China and others in Southeast Asia 
is a cultural belief that the elephants do not die when the 
tusks are taken, that, some cases, they just fall off, like 
antlers fall off of a deer. And so, an essential first step is 
telling people, ``These are dead--these represent dead 
animals.''
    And so, in the United States, we need to lead by example, 
as we have done so many times in the past on issues like this. 
We need to stop domestic trade in ivory, as an example of U.S. 
resolve and leadership.
    Senator Cardin. Can someone respond to the question on 
reaching the market in Asia so that the public is aware that if 
they, indeed, have these products, it is illegal and affecting 
the diversity of species? Are those efforts underway? And why 
are they not more effective?
    Ambassador Garber. Let me take that on first, and then 
perhaps Assistant Administrator Postel can add some more.
    Yes, those efforts are very much underway. And it is part 
of what we are talking about with these governments. Chairman, 
you mentioned the Strategic and Economic Dialogue with China, 
and we have put wildlife trafficking on the agenda of that 
particular forum. And one of the agenda items that we are 
having on that is conversations about demand reduction. And, on 
the very first Worldwide Life Day, which took place this past 
March 3, we worked with the Government of China and agreed to 
do some joint activities as many of our embassies around the 
world, particularly in Asia, did, as well. And the focus of 
these was on education. Many of them were activities with 
schools. In China, they did two full days of activities, both 
with the Embassy and also the Government doing its own thing 
throughout the country to try and get out this message.
    I have also recently learned that the Chinese Government, 
when it has citizens traveling abroad, sends SMS messages to 
their cell phones when they arrive in countries in Africa, 
reminding them that it is illegal to purchase--you know, 
against purchasing illegal ivory or rhino horn. And this is 
really steps, I think, particularly in China, where many look 
to the government for leadership. The fact that we are seeing a 
change in tone and some activities is really important.
    Is it done yet? No. Are they all the way there? Absolutely 
not. We are going to be asking them to follow our leadership on 
implementing an ivory ban. That would be a very important step, 
should they agree to do so. There is a lot more that we need to 
be doing.
    But, we are making this a point of emphasis with many of 
the governments throughout Asia. We have put it in the APEC 
Leaders Declaration, we are raising it in ASEAN, so we are 
driving very, very hard on the demand question.
    But, Eric may want to talk a little bit about some of the 
specific programs----
    Senator Cardin. I want to--I think U.S. leadership is 
critically important, and that we have got to lead by example, 
we have got to do the things that Mr. Ashe has talked about. 
But, I would be interested as to those countries in Asia where 
we think are--where the markets are particularly strong--a 
strategy for us to use every means we can to help provide 
further education to people of that country. Because I think 
most people would be shocked to know that this is illegal, and 
who own it, for status, and that it is--as you point out, Mr. 
Ashe, it is dead animals and affecting the health of that 
species.
    Mr. Postel.
    Mr. Postel. Thank you, Senator.
    To add to your discussion, a couple other places, first of 
all, involving sharks and shark-fin soup. I am sure you know 
that the Chinese Government has banned that from their official 
functions. In Thailand, we have got a partnership going. The 
number of partners is climbing, but right now we are up to 102 
restaurants and hotels that have agreed to keep it off their 
menus. So, we are trying to work in, in Thailand, in ways that 
reduce demands for some of the species.
    One of the areas that we are pivoting to more, which is one 
of these hotspots--and under the increased funding, we are able 
to do that as we are--for the first time, in 2014, we are going 
to move money into Vietnam, into our programs there, because 
that is one of the other areas where there is a lot of demand 
issues and misconceptions. And so, that is some of the pivot 
that is going on, in accordance with the strategy and just the 
overall surge in this problem to try to address demand, because 
we fully agree with you, we have got to work on that.
    Senator Cardin. Ms. Darby.
    Ms. Darby. As part of our implementation of the U.S. 
strategy to combat transnational organized crime, we have been 
engaged with the U.N. Office of Drugs and Crime on a series of 
public-service announcements to raise awareness about specific 
types of transnational organized crime activity among 
particular audiences.
    So, as part of this series, we just funded a PSA that is 
focused on wildlife trafficking, that features Chinese actress 
Li Bingbing, that is now airing in Asia and should reach 
millions in Asia as part of this awareness-raising effort.
    Senator Cardin. Let me ask you one more question, if I 
might, and it is a final question for me, and that is: Your 
agency deals with all types of trafficking, including wildlife 
trafficking. Is there a similarity between the type of illegal 
activities that take place in wildlife trafficking that is 
supporting crime syndicates, is the money being used to support 
other types of illegal activities? Do we find that wildlife 
trafficking is similar to what we see with arm dealers and drug 
dealers and human traffickers?
    Ms. Darby. I think the biggest things they have in common 
is that they are motivated by the same thing, which is money, 
and they take advantage of the same facilitators. They take 
advantage of corrupt officials, they take advantage of document 
forgers, they take advantage of lax customs enforcement, they 
take advantage of bankers and attorneys who help facilitate the 
illegal trade.
    Right now, we have not seen a lot of evidence of drug-
trafficking groups getting involved in wildlife trafficking, 
for example, or vice versa. We are obviously alert to that 
possibility in the future. And, frankly, the gaps in our 
knowledge with respect to how wildlife trafficking 
organizations operate, we have significant gaps. And one of the 
reasons why we are focused on evidence collection, 
investigative skills, and information analysis in our capacity-
building programs in both Africa and Asia is that we need to 
build up the knowledge that we have about these organizations. 
Right now, what we see is--a customs official or police at an 
airport may pick up a shipment, and they arrest the person who 
is associated with that illegal transit of the wildlife 
product. What we need to do is go a level deeper. And what we 
are really focused on doing, in INL, is trying to then mine 
that for the intelligence that you need to be able to get to 
who is really driving this trade, not just who is a courier, if 
you will.
    So, that is a major focus of what we are----
    Senator Cardin. So, we still do not have enough 
information. I would be very interested in how your findings 
proceed on that. So, thank you.
    Ms. Darby. Absolutely.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Cardin.
    Let me just continue along that line, if I can. I would be 
interested in how we are working with African countries to 
strengthen their abilities--borders, intelligence. And I am 
interested in what role you think the Department of Defense and 
the intelligence community will be playing in the 
implementation of the national strategy, and how you see the 
similarity with drug trafficking, human trafficking, other 
sorts of illicit transnational criminal activity, how that 
requires some more active involvement from law enforcement, 
DOD, intelligence.
    Ms. Darby. Thank you, Mr. Chairman.
    I think the way we approach the wildlife trafficking trade 
is very similar to the way that we approach other forms of 
transnational criminal activity. And I think the focus that the 
INL Bureau is taking on this issue is very much informed by our 
experience working on other forms of transnational organized 
crime, including drugs, which is the need to focus on the laws. 
And I think, as one of my colleagues--the point one of my 
colleagues made, it is not just about the penalties, it is also 
about having conspiracy statutes and other tools that 
investigators and prosecutors can use to vigorously pursue 
these cases.
    Investigative skills, training for both the people who are 
on the front lines--park rangers, et cetera--in how to collect 
and preserve evidence, and then training for investigators who 
can take that evidence and make some links on the basis of that 
evidence, as well as training prosecutors and judges on how to 
use new legal tools to effectively go after the trade. And then 
getting countries to work both within their own country across 
agencies, just as our national strategy compels us to do, we 
want other countries to do the same, and we have engaged our 
Chiefs of Mission overseas to try to get our embassies involved 
in encouraging countries to develop their own national 
strategies. And things like the attachees from the Fish and 
Wildlife Service are very helpful in that regard. And then 
working across borders, because, obviously, the animals do not 
know any borders, criminal activity knows no borders. And so, 
operations like COBRA II, where we bring those countries 
together.
    And, you know, it is notable for both the seizures and the 
arrests that stem from a particular operation like that, but, I 
think even more important, in terms of long-term impact, is 
getting these countries to develop better trust among 
themselves and to see the rewards that cooperation can bring to 
them. And that is something we are really trying to foster.
    Senator Coons. Thank you.
    If I might, Assistant Administrator Postel, one of the 
places that I think we have really seen engagement at the 
grassroots level, effective NGO, and national leadership work 
is in community-based conservation. You referenced a great 
example in Namibia. Now, what is the role and the efficacy of 
community-based conservation approaches in incentivizing 
wildlife conservation? And where else can we replicate this, 
beyond Namibia? What role is USAID taking in that? First.
    Second, comment--tell me a little bit more about the USAID 
wildlife tech challenge. I would be interested in hearing where 
that is headed and what impacts you expect from it.
    Mr. Postel. Thank you, Mr. Chairman.
    So, conservancies are in existence and being created in a 
number of other countries. I was in northern Kenya, looking at 
some that are achieving good results. And, you know, what it 
takes to make that a success is a long-term investment. It has 
got to have a good policy-enabling environment. But, you really 
see that it has other spinoff effects because you are talking 
about creating incomes and a stake in the people who live there 
in preserving what they have, as opposed to the other model, 
where they have a stake in killing what is there to have 
livelihoods. So, if they can have good livelihoods from what is 
there, they have got a stake in keeping it around for all time. 
So, we see the successes, and there is a number of other 
countries that have been looking at that; and, even within 
Kenya and other places, it is expanding.
    One more thing on that, Senator. The one challenge we have 
is that these conservancies are good at dealing with more local 
poaching. But, when you have a armed group with serious 
technology and large numbers, then they are sort of 
outnumbered, and that is part of the thing that we have to 
tackle, in combination with host countries and with their 
police forces and so forth, because the local trackers and 
rangers, then, are completely outnumbered. So, that is a 
current-day challenge to conservancies.
    As far as the tech challenge, there are a number of people 
that have worked on technological solutions to some of these 
problems. For instance, there is a whole consortium of 
organizations and U.S. Fish and Wildlife service and ourselves 
are working with North Carolina Zoo and others on this open-
source software that--the initiatives led by the North Carolina 
Zoo to help people with tracking and other things.
    So, there are existing efforts, but what we are hoping to 
do, consistent with the Global Development Lab that you are 
such a strong supporter of, is to tap into all those other 
people around our country who may not, day in, day out, work on 
wildlife trafficking, but have special skills in--whether it is 
DNA or forensics or in tracking or GIS--to get some of their 
energy. So, we are still putting this together, but we will 
have partners, such as Google and National Geographic and 
others, and will be reaching out to all Americans to offer 
their ideas to solve some of these problems in several 
different areas.
    Senator Coons. Thank you.
    Director Ashe, in your written testimony, you said--and I 
do not mean to take this out of context, but it was memorable--
``Working with shoestring budgets and a special-agent workforce 
that has not grown since the late 1970s, the service has 
disrupted large-scale trafficking in contraband wildlife 
commodities that range from elephant ivory and rhino horn to 
sturgeon caviar and sea turtle skin and shell.'' Wow. Well 
written. A good reminder that we may have been underfunding 
enforcement capabilities for a long time.
    How could we better invest in Fish and Wildlife Service? 
And what progress are you seeing from the two attachees that 
have been referred to before, that, if memory serves, are in 
Bangkok and Nairobi? And how do you see that as a promising 
model for the long term?
    Mr. Ashe. Well, thank you, Senator. Yes, we have just over 
200 special agents in our law enforcement force. We have had as 
many as 230, I believe, in the past. But, we find ourselves, 
today, about where we were in 1978, in terms of our law 
enforcement capacity. Of course, we have learned more, we are 
more sophisticated, we have great partners. So, I am optimistic 
about the future. But, we simply need additional resources.
    I think the liaison positions in U.S. embassies will be a 
quantum leap forward as we have people in country that are 
developing direct relationships, as I think has been noted 
here. Trust is a key element as we do law enforcement on the 
international scale. People share information with people that 
they trust. And so, having our people there, able to build 
those trust-based relationships, coordinating more effectively 
amongst partner organizations, and doing on-the-ground 
training. So, as Ms. Darby said, not just helping people on the 
ground, but--with evidence collection--but helping in 
prosecution and--I think will be a key ingredient in success.
    So, we have just begun that, we just stationed our first 
liaison in--at the Embassy in Bangkok. By the end of this year 
we hope to have five, total, and we have additional funding in 
our FY15 budget for more positions. And so, we hope to see that 
as a key ingredient of success in the years ahead.
    Senator Coons. Terrific. Thank you, Director.
    Senator.
    Senator Flake. Thanks.
    Let me just return to--a minute on the demand side. We are 
spending considerable amount of money. I just want to know, 
with the new strategy that we have and working across agencies 
to make it more efficient, how are we spending that money? Does 
Fish and Wildlife have a budget that it uses to then contract 
with NGOs or spend directly or do public-private partnerships? 
I am just speaking of the--on the demand side. Does AID, does 
State? Give me a sense of how that is going to work now. Are 
you all going to be contracting with your favorite NGOs? Or how 
is it going to work?
    I see you smiling, Ms. Garber. Can you shed some light on 
that?
    Ambassador Garber. I think that is exactly what we are 
trying to look at in the implementation strategy, is to make 
sure that we are very coordinated on this, because we want to 
make sure that it is very integrated, going forward.
    Senator Flake. Right. Well, you are going to be spending 
money this year.
    Ambassador Garber. Right. And----
    Senator Flake. And will--this year, will it be coordinated?
    Ambassador Garber. Yes. We are working together as we never 
have before, so absolutely. But, there--I would like to ask my 
colleagues to talk about their specific pots of money, because, 
in my Bureau, the amount that we have for this kind of thing we 
use in very small amounts. We are talking, in this year's 
budget, some small grants proposals for some of our 
environmental hubs, maybe 20,000 apiece----
    Senator Flake. Okay.
    Ambassador Garber [continuing]. Totaling 60,000. And the 
level of my colleagues down the row is a little bit more than 
that. So----
    Senator Flake. Right. If you could just each tell me how 
you are going to do that--on the demand side, how you are going 
to spend it.
    Mr. Ashe. I will say that, in the Fish and Wildlife 
Service, we have direct funding through our international 
program, and we have asked for increased funding. Again, part 
of that will be demand reduction. I will have to get back to 
you for the record in terms of what, specifically, we are 
doing. But, we work very closely with both USAID and the State 
Department. And I think what we should do--to be able to do for 
you is to paint a picture for how we are going to use that 
money most effectively, particularly on the demand side.
    Senator Flake. All right. Well, what I think would concern 
me is if U.S. Fish and Wildlife, if AID and, to some extent, 
State--it is not as big--but if you each have your own program 
officers that deal with these issues, and we--you just do not 
get any economies of scale there, and you are not able to--a 
lot of the money is wasted in implementation rather than the 
end product. Do you see a danger in that? Or this strategy that 
we have, is it going to solve that, or not?
    Mr. Ashe. I see a--there certainly is a danger in that, but 
I would say, I think this is a pretty small community of 
people, and I think that my experience is that we get the 
maximum amount of muscle for every dollar that we spend, 
because it is a small community of people and they work very 
closely together, both across government and across NGO 
organizations. So, I would be surprised to see, you know, that 
we are spending demand reduction--our demand-reduction efforts 
are duplicative or working at cross purposes.
    Senator Flake. Thank you. I would appreciate that.
    Mr. Postel. Senator, I will add one example. In the case of 
Vietnam, which will be a new one, after the CN and 653(a) 
clear, that money will move into the field, and then our team 
in Vietnam will work with the Embassy and have consultation 
with government, civil society, and other people to finalize 
the key priorities.
    And, as part of that, we also look at the various tools 
that need to be brought to bear. And, if necessary, we will sit 
with U.S. Fish and Wildlife Service and move money to them 
because of all the expertise there, or to other parts of 
Department of Interior and so forth. And that is--a lot of 
coordination occurs in the field as people are finalizing 
exactly what is the most strategic thing on which to spend 
money.
    So, I think we always have to be on guard. I agree with 
your premise. And so, we can never take our eye off that ball, 
but we also have a lot of people try to work hard to 
coordinate, and the strategy is really enforcing that.
    Senator Flake. Ms. Darby.
    Ms. Darby. I would add that, while our Bureau does not play 
a big role in the demand reduction side of the house, this was 
one of our concerns across the board. How do we, as newer 
players in the mix, avoid duplicating or stepping over things 
that our colleagues were already doing? And so, our working-
level folks who are on these issues are getting together every 
2 weeks to make sure that we are identifying gaps, we are 
identifying priorities, and that we are having discussions 
about who is best placed to address certain needs across the 
board, not just demand-reduction-related, but across the board.
    Senator Flake. Well, I would say in closing, there are best 
practices; we know what campaigns work. I hope that we are 
looking out there and spending our money on those campaigns 
rather than simply always coordinating with that money, whether 
it is with embassy staff or others. And when we know what 
works, if there is something out there that is working--I know 
it is specific to each country. What works in Vietnam may not 
be working in China or elsewhere. But, I hope that, when we see 
those things that are working, that is where the money goes, 
and less money actually coordinating to get there, if you know 
what I mean.
    Thank you.
    Senator Cardin. Well, once again, I thank you all, not just 
for your testimony, but what you do every day on these issues 
and so many other issues.
    I want to follow up my first round of questioning in which 
we talked about the similarities between trafficking in 
wildlife and other forms of trafficking, and that there is a 
lot of common ground here, from the point of view of 
corruption, the importance of custom and border issues, law 
enforcement, and treating this as a crime and not just as a 
casual activity. It reminds me of some of our discussions, many 
years ago, on what we could do to be effective in stopping 
trafficking in persons. And in one of the hearings, we had a 
great deal of discussion about best practices and with law 
enforcement and dealing with the fact that you have originating 
countries, transit countries, and destination countries. In a 
way, that is the same problems that we have on trafficking in 
wildlife. And one of the tools that we developed--with the 
State Department taking the lead, I might say--was a 
Trafficking in Person report that we get every year that rates 
the performance of every country--including the United States--
in dealing with these issues. Because each country is 
different, as Senator Flake has pointed out. One size does not 
fit all, here.
    So, I am just exploring whether a similar type of an effort 
would be useful. Let me just say, by way of an example, that 
report is very much in my office at all times. When Ambassadors 
from other countries visit, I know exactly where they stand on 
the TIP report and what they need to do to improve. So, it is 
on the agenda of just about every meeting we have, particularly 
if the country is on one of our watch lists.
    So, it seems to me it might be helpful to have some type of 
matrix developed as to expectations in dealing with wildlife. 
There may not be as many countries involved that are critical 
to this task as it is in trafficking in persons, but it might 
be a useful guide. I can assure you that embassies lobby us to 
move in a more positive direction on the TIP report, so they 
are very mindful of that. We might be able to achieve a similar 
result with a Trafficking in Wildlife report.
    I welcome your thoughts. We have two representatives from 
the State Department here. What do you think? Helpful, or not? 
Would it work for you?
    Ms. Darby. You know, I think the ``name and shame'' 
exercises can be helpful in some contexts. I do not think we, 
frankly, have had discussions about whether we think it would 
be helpful in this context.
    I think one thing that we have seen as a result of the 
national strategy in the executive order is a lot of engagement 
by our embassies and far more reporting than we ever saw in the 
past, in terms of the unique challenges countries face, what is 
the scope of the wildlife trafficking problem in a given 
country, what is the political will to combat it, what specific 
engagements with these countries would be helpful, what partner 
nations we need to engage. So----
    Senator Cardin. But, it is somewhat haphazard today. I do 
not question the sincerity of trying to advance, in a positive 
way, this issue. What the TIP report has done is 
institutionalized it. It is now part of the agenda because it 
is there. And wildlife is not at the same level as humans in 
trafficking, from the point of view of visibility and 
attention. I do not expect we will get there. As serious as 
trafficking in wildlife is, when you traffic a person, it is a 
much more horrendous crime. I recognize that.
    But, the process, here, of trying to institutionalize 
concern is something that may not require the same amount of 
effort that we put into TIP report. But, to develop protocols 
and to start rating countries on how well they are meeting 
those protocols, to me, might be a valuable tool to help you in 
your work.
    Ambassador Garber. As DAS Darby was saying, it is something 
that we have not fully considered in the context of doing this, 
but one of the things that many of--what we find that is 
happening since the President's strategy came out and since 
Congress has owned an interest in this as well, is that we are 
seeing a change in the attitudes of many countries on this. And 
I think China is a good example. I think if you had said, 3 
years ago, that China would sit down as part of our premier 
bilateral policy dialogue, put wildlife on the agenda, people 
would have probably laughed you out of the room. Not you, 
Senator, of course, but me, if I had suggested that; let me be 
clear.
    But--and I do think that we have many multilateral 
environment agreements and efforts, such as CITES, that also 
are forums for discussion on how countries are doing on certain 
areas, and setting criteria. We are trying to introduce the 
issue of wildlife trafficking into more forums. So, setting 
those standards in APEC, trying to bring it to ASEAN. We 
approached the African Union about having wildlife trafficking 
as an issue on their agenda. They have been receptive to it, 
and technical discussions are going along those lines.
    And what I would be cautious about on--at this point, as 
immediately saying yes, is because some of those efforts may 
turn out to be very effective, and you would not want to 
undercut them. But, it is something that I think we would need 
to evaluate and think about, and it is an interesting 
suggestion.
    Senator Cardin. Okay. Thank you.
    I just want to make sure I get this into the record. We are 
going to keep the committee record open until next Wednesday, 
close of business, for additional comments or questions that 
might be asked. Just wanted everyone to be aware of that.
    And I really do appreciate what you do every day. This is a 
subject matter that we are trying to figure out how Congress 
can be more helpful in carrying out your responsibility.
    I do think it has gotten a lot more visibility. And that is 
to the credit of the people that are in this room. And I 
compliment you all.
    I do think there is a lot of private-sector interest in 
helping us in this regard, which makes our job a little bit 
easier when we have that type of private-sector interest. I 
just think that we need to find more effective ways to develop 
expected practices.
    And the thing that I think troubled me the most in the 
background that was prepared by my staff is the fact that, in 
so many places, owning a piece of ivory or a piece of rhino 
horn is considered to be a status symbol, considered to be a 
sign of success. And to me, that is something that we should be 
able to overcome, and we need to develop strategies to let 
people know that having such a product in your home is 
contributing to crime and contributing to the devastation of 
species.
    Thank you.
    Senator Coons. Thank you, Senator.
    I have just a few more questions, if I might, which I hope 
continues to demonstrate the very real interest of Members of 
Congress in this topic.
    I have never forgotten the first time I encountered an 
elephant that had been slaughtered by poachers. This was on the 
banks of the Ewaso Nyiro River in northern Kenya in 1984. It is 
just an awful sight. And, you are right, it is easy to forget 
that there are many people who believe that collecting ivory 
does not contribute to killing elephants. And whatever we can 
do to help spread that message globally and domestically, I 
think, is important for us to continue to work together on.
    Ambassador Garber, demand reduction in the United States is 
an important piece of this. I would be interested if you and 
Director Ashe would comment on what you think is our path 
forward on demand reduction in the United States, reducing the 
consumption of, the collection of, the purchasing of illicit 
and illegal wildlife products.
    Director.
    Mr. Ashe. So, I think we have taken the first steps, which 
is using our full authority under the African Elephant 
Conservation Act and the Endangered Species Act. We have one 
more step to take, which is to revise our Section (4)(d) rule 
under the Endangered Species Act, and that will prohibit all 
trade, except for documented antiques, things that are over 100 
years old, that--and so, we will, effectively, have banned all 
commercial trade domestically in the United States in 
international commerce, in--and interstate and intrastate 
commerce.
    So, we have the ability to do that, we need to do that. I 
think what you will hear, and what we will hear, are many 
people making arguments that sound like, ``Well, these products 
just have a de minimis amount of ivory.'' And if you see a 
product, and it has a little piece of ivory, it is the same as 
that entire tusk. It represents a dead animal. And we cannot--
our law enforcement agents cannot distinguish--you know, this 
product over here could be 100 years old, it could be 100 days 
old. You cannot distinguish between them without very 
sophisticated genetic analysis, and sometimes even without--
even genetic analysis cannot determine the age of a product 
like that.
    So, we need to make a difficult decision, because we are 
asking our trading partners to make difficult decisions. 
Culturally, economically, they are difficult decisions. So, 
again, I think it is important for us to show leadership and 
show resolve. And we have the tools. Legally, we have the tools 
to implement a near-complete ban. The Endangered Species Act 
explicitly authorizes trade in antiques. And so, that is the 
one piece of trade that we cannot ban, administratively; but, 
you know, legitimate, documented antiques that are over 100 
years old are not--again, are not the cause of the problem. So, 
I think we have the ability to do it. We need to do it.
    Senator Coons. I am interested in how conflict is fueling 
some of the poaching crisis, particularly in Central Africa. 
And, Ambassador, I would be interested in your comment on how 
the interplay between instability, political and security 
instability situations in countries like Central African 
Republic, Democratic Republic of the Congo, South Sudan--are 
accelerating a wildlife poaching problem, both because of the 
free flow of weapons and then the lack of controlled borders 
and increasing number of folks who are, frankly, desperate for 
any way to generate revenue.
    And then, Deputy Assistant Secretary Darby, you made a 
passing reference to some evidence that al-Shabaab and the 
Janjaweed and the Lord's Resistance Army are trafficking in 
wildlife products. I would be interested in your comment on 
whether--how reliable is that? Is this just conjecture, or do 
we have any evidence?
    Ambassador Garber.
    Ambassador Garber. Yes, political insecurity and elephant 
poaching really have been going hand-in-hand. And with fragile 
states with very porous borders in which there is not very 
clear governance and a lot of monitoring, it gives free 
passage, so to speak, for many of the bad actors that are 
involved in this trade to go in. For instance, in the Central 
African Forest, elephant population has been extremely 
vulnerable and has seen a two-third decline in its population 
since 2002.
    Working very closely with our mission to the United 
Nations, in January we were able to get, in the Security 
Council resolutions that were addressing some of these 
conflicts, also wildlife traffickers to be a sanctioned element 
in those particular resolutions. So, by this, we are trying to 
demonstrate that, even though these fragile states may not have 
the governance that would stop this, that the international 
community is working hand-in-hand together to try and prevent 
this from going on.
    Senator Coons. Thank you, Ambassador.
    Deputy Assistant Secretary Darby.
    Ms. Darby. Thank you, Mr. Chairman.
    While we have some evidence of involvement of some 
terrorist organizations and armed groups in this activity, we 
do not have good evidence on the extent of that involvement. We 
believe that, in some cases, they may be profiting financially 
from it. In some cases, they may be exchanging wildlife 
products for safe haven or for weapons. But, the picture is far 
from clear, and I would--you know, I would defer to my 
intelligence-community colleagues. But, I think, even in the 
unclassified assessment that the Office of the Director of 
National Intelligence has posted, the links that we can 
establish at this point are not strong.
    One area where we have better insights, I think, is in the 
area of terrorist financing. And, at this stage, we do not see 
that wildlife trafficking is a major revenue source, or a 
significant revenue source of any kind for terrorist 
organizations. But, again, we seek to develop better knowledge 
on this. And we are very attuned to the possibility that it is 
out there.
    Senator Coons. Ambassador, let me focus on one country, in 
particular, if I might. Mozambique has recently come under 
fairly intense scrutiny as both a transshipment country and the 
base from which a significant number of poachers are operating 
who are going in and out of Kruger National Park in South 
Africa, as well as other parks in the region. What is the U.S. 
Government doing to address Mozambique's particularly strong 
role in fueling poaching and trafficking in southern Africa?
    Ambassador Garber. Thank you for that question, Mr. 
Chairman.
    We have been addressing this issue with the Government of 
Mozambique. And the Government of Mozambique has acknowledged 
the seriousness of the wildlife trafficking problem. The U.S. 
Government is currently engaged with the Mozambique Government 
to consider ways to address these issues. And we currently have 
a 20-year public-private partnership between the Government of 
Mozambique and the Gorongosa Restoration Project, a U.S. 
nonprofit organization that has been a strong partner in 
overall park management in combating wildlife trafficking.
    Our Embassy has also been engaging with civil society in 
Mozambique and various partners trying to leverage additional 
public-private partnership. And recently--and I think, again, 
this is a sign of how the attention that the United States has 
been paying to this issue is beginning to make a difference--
the Government of Mozambique, just last month, the Parliament 
passed a Conservation Areas Act, which will introduce 
significantly more serious penalties for wildlife crimes. Under 
this law, protected animals, without a license, would result in 
a prison sentence of 8 to 12 years, and the illegal 
exportation, storage, transportation, or sale of protected 
species results in fines equivalent of up to $90,000, which in 
Mozambique is significant.
    But, this is not just a one-country issue. I think a number 
of us have addressed that in the course of our comments today, 
that if you put pressure in one area, you can often see the 
traffickers and the problem moving elsewhere. So, we are also 
putting a lot of effort to try and put more into our regional 
wildlife enforcement network into southern--in southern Africa, 
trying to get South Africa to play a greater role, to get 
Mozambique to be involved, and just, generally, to put more 
concentration in there. So, as they are all sharing best 
practices, information, techniques, they will, together, work 
to the problem to prevent that this additional pressure that we 
have been putting on Mozambique, if we are successful, it does 
not just result in the problem moving next door.
    Senator Coons. Thank you, Ambassador.
    I would like to thank all four of you for your very hard 
work, your leadership, and your cooperation and coordination.
    I would like to thank, again, representatives who are with 
us today from a wide range of nongovernmental organizations. I 
do think this is an area that enjoys broad interest and support 
from Members of Congress, a significant interest and engagement 
from our constituents, and where there is a very great 
challenge for us in demand reduction in Asia and in the United 
States and in dealing with the corruption, the violence, the 
porous borders, the lack of trained and adequately staffed and 
supported wildlife rangers and border guards that really make 
Africa, sadly, tragically, the focus of a lot of illicit 
poaching.
    So, thank you for your work and your service, and thank you 
for your testimony here today.
    The record of this hearing will be kept open til the close 
of business tomorrow, Thursday, May 22.
    And I am grateful for your testimony and your work.
    With that, we are hereby adjourned.
    [Whereupon, at 4:04 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Daniel M. Ashe to Questions 
                    Submitted by Senator Marco Rubio

    On February 11, 2014, the administration announced a ``National 
Strategy for Combating Wildlife Trafficking'' and a proposal to ban all 
U.S. commercial trade in elephant ivory. However, a September 2012 FWS 
International Affairs Division report stated: ``Since the vast majority 
of seizures in the United States were small quantities, we do not 
believe that there is a significant illegal ivory trade into this 
country.''

    Question. What has changed since the September 2012 report to move 
the administration to pursue a complete ban on U.S. commercial trade in 
elephant ivory?

    Answer. The quote above is included in a fact sheet that the U.S. 
Fish and Wildlife Service (Service) prepared highlighting U.S. efforts 
to control illegal ivory trade. The statement was based on the Elephant 
Trade Information System (ETIS) analysis of U.S. import/export seizure 
data. As we noted in the fact sheet, the vast majority of seizures 
interdicted at the point of import are small quantities. However, the 
data reported for inclusion in the ETIS analysis did not include large-
scale seizures of ivory that had previously entered the United States 
illegally and were not detected upon import.
    The U.S. v. Victor Gordon case is just one such example. On June 4, 
2014, a judge in New York sentenced Victor Gordon to 30 months in 
prison, followed by 2 years of supervised release, for smuggling 
elephant ivory into the United States. Approximately one ton of 
elephant ivory was seized in that case alone.
    A more holistic evaluation of U.S. ivory seizures, as well as the 
substantial volume of elephant ivory available within the United States 
that is of questionable legal origin, indicates that we remain a 
significant ivory market, and we must continue to be vigilant in 
combating illegal ivory trade.

    Question. How would a complete ban on the domestic trade and sale 
of legally owned, preban ivory stop poaching and the illicit trade in 
ivory?

    Answer. By effectively controlling illegal ivory trade at home and 
encouraging and assisting elephant range states and consumer countries 
around the world to take additional actions to control poaching and 
illegal trade, we can have a significant impact on elephant 
conservation.
    Though there is trade in antiques and other legally acquired ivory 
imported prior to the 1989 African Elephant Conservation Act ivory 
import moratorium, we believe a substantial amount of elephant ivory is 
illegally imported and enters the domestic market. It is extremely 
difficult to differentiate legally acquired ivory from ivory derived 
from elephant poaching. Our criminal investigations and antismuggling 
efforts have clearly shown that legal ivory trade can serve as a cover 
for illegal trade. In addition to the Victor Gordon case noted above, 
U.S. Fish and Wildlife Service and state wildlife officers seized more 
than 2 million dollars' worth of illegal elephant ivory from two New 
York City retail stores in 2012.
    We have not yet implemented any regulatory or policy action to 
completely ban all domestic trade and we have not asserted that we will 
do so. Instead, we will propose a revision to the Endangered Species 
Act special rule for the African elephant that will further restrict 
commercial trade in African elephant ivory within the United States. 
This proposed rule will be subject to public comment and we will 
address those public comments before publishing a final rule.
                                 ______
                                 

        Statement submitted by the Wildlife Conservation Society

    Thank you for the opportunity to submit written testimony on the 
hearing entitled ``The Escalating International Wildlife Trafficking 
Crisis: Ecological, Economic and National Security Issues.'' The Bronx 
Zoo-headquartered Wildlife Conservation Society (WCS) is an 
international conservation organization with the mission of saving 
wildlife and wildlife places. Globally, WCS works to protect more than 
a quarter of the world's biodiversity in more than 60 countries around 
the world. WCS manages or comanages more than 200 million acres of 
protected areas across Africa, Asia, Latin America and the Caribbean, 
Oceania, and North America employing more than 4,000 staff including 
200 Ph.D. scientists and 100 veterinarians. WCS works to protect many 
of the world's most iconic species, including elephants, tigers, 
gorillas, chimpanzees, bison, sea turtles, whales, sharks, and many 
others. WCS also works to conserve ecologically significant and intact 
land and sea scapes partnering with governments, local communities, and 
other stakeholders.
    International wildlife trafficking, driven largely by burgeoning 
demand in Asia and facilitated by corruption, is considered by experts 
to be the fourth-largest illegal trade in the world behind drugs, guns 
and human trafficking, and is estimated to be worth at least $5 billion 
and potentially in excess of $20 billion annually.\1\ Wildlife 
trafficking and other transnational crimes are often interlinked, 
either involving the same trade routes and countries, or even some of 
the same criminal syndicates. The current wave of wildlife poaching in 
many countries is carried out by sophisticated and well-organized 
criminal networks--often using helicopters, night-vision equipment, and 
silencers--avoiding enforcement patrols. In many countries, the 
poaching of elephants and other species threatens sustainable 
development and the security of local communities, especially when 
illicit proceeds partially fund insurgency groups such as the Lord's 
Resistance Army and al-Shabab.\2\
    WCS is implementing a 4-pronged global approach to end wildlife 
trafficking: (1) documenting the crisis; (2) stopping the poaching; (3) 
stopping the trafficking; and (3) ending the demand for illegally or 
unsustainably sourced products such as ivory. WCS works to monitor, 
analyze, and publish population trend data for key wildlife species, 
poaching rates, and trafficking information. For example, WCS led on 
recent seminal scientific papers showing dramatic declines in range and 
populations of tigers and forest elephants.\3\ This work has been 
effective in raising awareness of the scale and the nature of the 
problem, and stimulating government actions.
    WCS works to stop wildlife poaching through its long-term field-
based projects, including in 24 sites across 16 countries in Africa and 
Asia on elephants, and another 11 sites across 7 countries on tigers. 
To measurably reduce poaching, WCS is establishing and supporting 
ranger and community guard patrols; deploying the GIS-based SMART4 
software across 100 partner sites for parks and protected areas to 
enhance monitoring, enforcement patrols, morale, and transparency; and 
conducting aerial surveillance for detection and early warning system 
to trigger an enforcement response--particularly in large savannah 
areas and marine ecosystems.
    WCS also works to stop the trafficking along major global and 
regional trafficking chains in multiple source, intermediary, and 
consumer countries. WCS supports government partners to ensure national 
legislative frameworks and the institutional environment elevates the 
recognition of wildlife trafficking to a serious transnational 
organized crime to enable both an effective policing response and 
deterrent to wildlife trafficking. WCS also strengthens the technical 
capacity of frontline enforcement agencies and promotes and facilitates 
the strategic application of appropriate technologies and tools (e.g., 
sniffer dogs, mobile apps, x-ray scanners, and wildlife forensics such 
as DNA and isotopic analyses of seized contraband) toward significantly 
improving rates of successful arrests, prosecutions, and convictions of 
wildlife traffickers resulting in deterrent penalties. WCS gathers and 
analyses information to generate actionable intelligence on key 
individuals and key trafficking routes, and carries out a range of 
activities with our government partners to ensure that agencies are 
legally mandated, sufficiently trained, and empowered to share 
information and respond, with effective enforcement, to actionable 
intelligence at multiple scales. Finally, WCS also works to reduce 
demand through multiple evidence-based approaches, including active 
social media campaigns in Asia and the United States to reach potential 
consumers.\5\
    The political attention on this issue continues to grow within the 
U.S. Government with the release and implementation of the National 
Strategy to Combat Wildlife Trafficking (National Strategy). Wildlife 
conservation, antipoaching, and antitrafficking efforts would not be 
possible without the tremendous support and assistance of the U.S. 
Agency for International Development (USAID), the U.S. State Department 
Office of International Narcotics & Law Enforcement (INL), the U.S. 
State Department Office of Oceans, Environment and Scientific Affairs 
(OES), the U.S. Fish and Wildlife Service (FWS), and the U.S. 
Department of Justice Division of Environment & Natural Resources 
(DNR). Congressionally directed appropriations to biodiversity 
conservation, large landscape conservation programs, wildlife 
trafficking, law enforcement, and international species conservation 
have been essential to mounting a sustained long-term response to the 
crisis. Ensuring that these funds are directed to the greatest threats 
and the priority geographies is critical as funds are scaled up, rather 
than sprinkling small amounts across many countries. U.S. Government 
collaboration with other countries and civil society is already 
delivering increased political will as several countries have followed 
the U.S. Government's lead in destroying their confiscated ivory 
stocks.
    Government agencies responsible for combating wildlife trafficking 
in Asia still lack the political and legislative support, resources, or 
skills to mount an effective response. While recent improvements in law 
enforcement and successful investigations have occurred, trafficking 
remains largely unaffected. International mechanisms such as Interpol 
and United Nations Office on Drugs and Crime (UNODC), and regional 
support initiatives such as ASEAN-Wildlife Enforcement Network can 
allow for greater regional coordination, but are only as strong as 
their members. This ``third-party convener'' model for international 
cooperation depends upon the level of trust between countries and with 
the international organizations convening them.
    In recognition of the shortcomings of existing programs, WCS is (a) 
maximizing our in-country presences and deep knowledge through 
intelligent and strategic analysis and dissemination of information; 
and (b) leveraging this information through our trusted in-country 
relationships by helping to generate government responses along the 
trade chains to catalyze enforcement at key nodes to prevent, detect, 
and suppress criminals who sustain illegal flows of wildlife. China, 
Vietnam, Lao PDR, Cambodia, Indonesia, and Burma are the priority 
investment countries based on the global impact that criminal networks 
in those countries are having on wildlife populations in Africa. There 
are five priority approaches: (1) strengthen coordination and 
cooperation within and between governments in priority trafficking 
countries; (2) increase political support toward effective enforcement 
on wildlife traffickers within key countries at national and local 
levels; (3) provide and train frontline law enforcement officials--
border, customs, police, and regulatory bodies--on new mobile 
technologies to apprehend, arrest, prosecute, and penalize criminals; 
(4) generate accurate information and intelligence on criminals, 
companies, species trafficked, methods of trafficking, trafficking 
routes; and (5) empower local civil society and media in priority 
countries along the trade chain to pressure and support government 
agencies to act. These approaches will build political will and 
galvanize action to stop trafficking in supply, transit, and consumer 
countries, as well as reduce demand. It is important to note that being 
aware of an issue does not necessarily lead to an attitudinal or 
behavior change resulting in reduced consumption. From WCS's 
experience, in many Asian countries, government action and inaction are 
perhaps more important drivers of both criminal and consumer behavior.
    In dealing diplomatically with China, the U.S. Government should 
continue the Strategic and Economic Dialogue as a means to elevate 
wildlife trafficking and promote China as a global leader. The U.S. 
could encourage China to building off of leadership statements at APEC 
and ASEAN to convene an international global or regional dialogue with 
China's key economic or trade partners, on the national and economic 
security threats from wildlife trafficking. Behavior-change campaigns 
like the recent 96 Elephants Campaign's parody of ``The Antique Road 
Show,'' ``Antique HorrorShow'' \6\ which is urging broadcasters to stop 
assessing and glorifying the value of ivory for commercial sale, need 
to spring up within China coupled with increased public reporting of 
wildlife crimes through smart-phone apps such as the Wildlife Guardian 
App.\7\
    In Vietnam, law enforcement needs to be professionalized through 
training academy curricula for prosecutors, police, and customs. The 
World Customs Organization and Interpol should provide greater on-the-
job support for the use of investigative techniques. To increase the 
effectiveness of existing policies, technical assistance to coordinate 
and operate the Vietnam Wildlife Enforcement Network is needed, 
including regular meetings, field missions, analyses, and task forces 
at key trafficking locations. To enhance international cooperation, 
Vietnam should be convinced to open up strategic dialogues with key 
countries in Africa and Asia along the trade chain to share 
information, build relationships, and plan joint investigatory and 
enforcement operations.
    Through our antitrafficking work on the China/Vietnam border, WCS 
has alerted both countries to ongoing smuggling at a key border point, 
and have followed up with training and other activities. The U.S. 
Embassies in both Vietnam and the Lao PDR, and many other countries, 
are now actively engaged on the crisis, working through diplomatic 
channels to elevate the issue. A recent government workshop in Vietnam 
was attended by the U.S. Embassy along with other governments, 
demonstrating the value of the National Strategy to elevate wildlife 
trafficking as a transnational organized crime necessitating higher 
level engagement of U.S. embassies and foreign policy actors.
    In Africa, site-based protection of wildlife and antitrafficking 
techniques such as sniffer dogs must be used to address this crisis 
head-on. In Tanzania's Ruaha National Park, which harbors the largest 
remaining population of elephants in East Africa, WCS and our partners 
have proven that building the professional capacity of rangers, 
enhancing protected area management, and applying new technologies for 
reporting poaching incidents are working. These same successes could be 
realized in other countries. In the Sudano-Sahelian region south of the 
Sahara in Africa, collusion between smugglers and state officials has 
eroded state authority and created lucrative funding channels for 
terrorists, militias, and criminal groups.\8\ In response, INL is using 
a successful technique in the battle against the narcotics trade, to 
link anticorruption and unit vetting programs to support willing 
governments plagued with wildlife trafficking. Asset recovery and 
forfeiture will be integral to shutting down corruption, money 
laundering, and other illicit financial flows related to wildlife 
trafficking.
    In Uganda, a critical transshipment hub for illegal wildlife 
products such as ivory, protecting elephants from poachers and shutting 
down transboundary trafficking routes are critical. The Greater Virunga 
and Murchison Semliki Landscapes in Uganda are a priority for WCS 
investment in order to protect the most important remaining populations 
of elephants, lions, and chimpanzees in the country. Efforts must focus 
on professionalizing the Uganda Wildlife Authority in antitrafficking 
techniques and the interception of ivory being transited through Uganda 
to other destinations on the African Continent and in Asia.
    U.S. political leadership can make all the difference in stopping 
this crisis. The U.S. must continue to elevate this issue politically, 
through bilateral and multilateral relationships around the world, 
particularly in key source, transit, and consumer countries. In 
addition to conservation efforts, U.S. work with other governments on 
anticorruption, transnational organized crime, and money laundering 
should include wildlife crime. Where U.S. ambassadors collaborate with 
international donors in a country and regionally with other U.S. 
ambassadors, the impact can be significant, as has been the case in 
Central Africa. U.S. ambassadors have the authority to direct the 
military, intelligence, legal, and law enforcement staff in the embassy 
to analyze and share key intelligence with wildlife law enforcement 
officials. With the placement of FWS staff at major transit locations 
this info sharing will be essential. This practice needs to be 
standardized across all U.S. embassies.
    U.S. Government leadership at CITES can help end wildlife crime. 
One such opportunity is the CITES Standing Committee meeting this July, 
in Geneva. This Committee, the body that manages the work of CITES 
intersessionally, will discuss the ivory trade at its next meeting, 
including decisions related to the eight countries identified as the 
most problematic in ivory trafficking; those countries that have not 
fulfilled their obligations run the risk of sanctions by CITES on 
wildlife trade. The U.S. is a member of the Committee, and building on 
the National Strategy, the U.S. is in a strong position to work with 
other member governments to take a firm, proactive position on wildlife 
trafficking at the upcoming meeting.
    Thank you to Africa Subcommittee Chairman Senator Coons, Asia 
Subcommittee Chairman Senator Cardin, and Senate Foreign Relations 
Committee Chairman Menendez for hosting the May 21, 2014, joint hearing 
on wildlife trafficking. Raising the profile on the wildlife poaching 
and trafficking crisis, and especially the transnational criminal 
nature of this economic and national security issue, can serve as a 
great mobilizing force to coordinate a global response. As the 
limitations of existing federal authorities become apparent it is 
imperative that the Senate Foreign Relations Committee legislate and 
guide federal agencies to work in an effective and efficient 
coordinated manner with the full array of resources, capabilities and 
assets the U.S. Government can bring to bear internationally.
----------------
End Notes

    \1\ Wyler, L.S., Sheikh, P.A., 2013. ``International Illegal Trade 
in Wildlife: Threats and U.S. Policy.'' Congressional Research Service 
Report for Congress RL34395, Washington D.C., USA.
    \2\ UNEP, CITES, IUCN, TRAFFIC, 2013. Elephants in the Dust--The 
African Elephant Crisis. A Rapid Response Assessment. United Nations 
Environment Programme, GRID-Arendal. www.grida.no and Vira, V., Ewing, 
T., 2014. ``Ivory's Curse: The Militarization & Professionalization of 
Poaching in Africa.'' Born Free USA and c4ads, Washington DC, USA.
    \3\ Maisels, F. Strindberg, S., Blake, S., et al., 2013. 
``Devastating Decline of Forest Elephants in Central Africa.'' PLoS ONE 
8, e59469. and Walston, J., Robinson, J.G., Bennett, et al. E.L., 2010. 
``Bringing the Tiger Back from the Brink--The Six Percent Solution.'' 
PLoS Biol 8, e1000485.
    \4\ ``SMART Conservation Software,'' North Carolina Zoological Park 
on behalf of the SMART Collaboration, 2014, available at http://
www.smartconservationsoftware.org/.
    \5\ See, www.96elelphants.org for U.S.-based demand reduction 
public campaign and http://shouhudaxiang.org for a Chinese ivory demand 
reduction campaign site.
    \6\ See, www.96elelphants.org for U.S.-based demand reduction 
public campaign.
    \7\ See, http://china.wcs.org/AboutUs/LatestNews/tabid/6788/
articleType/ArticleView/articleId/953/
Wildlife_Guardian_mobile_software.aspx#.U3tqgfldVPo.
    \8\ Written Testimony of Ambassador William R. Brownfield, 
Assistant Secretary of State for International Narcotics & Law 
Enforcement Affairs, ``United States Assistance to Combat Transnational 
Crime'': Hearing before the Subcommittee on State, Foreign Operations, 
and Related Programs of the Appropriations Committee (U.S. House of 
Representatives, May 7, 2014), available at http://docs.house.gov/
meetings/AP/AP04/20140507/102189/HHRG-113-AP04-Wstate-BrownfieldA-
20140507.pdf.
                                 ______
                                 

Statement submitted by the Environment and Natural Resources Division, 
                 Department of Justice, Washington, DC

                            i. introduction
    Chairmen Coons and Cardin, and members of the Committee on Foreign 
Relations Subcommittees on African Affairs and East Asian and Pacific 
Affairs, thank you for the opportunity to submit to you this testimony 
discussing the work of the Environment and Natural Resources Division 
of the U.S. Department of Justice (``ENRD'' or the ``Division'') with 
respect to the administration's efforts to combat wildlife trafficking.
     ii. overview of the environment and natural resources division
    The Environment and Natural Resources Division is a core litigating 
component of the U.S. Department of Justice (the ``Department''). 
Founded more than a century ago, ENRD has built a distinguished record 
of legal excellence. The Division is organized into nine litigating 
sections (Appellate; Environmental Crimes; Environmental Defense; 
Environmental Enforcement; Indian Resources; Land Acquisition; Law and 
Policy; Natural Resources; and Wildlife and Marine Resources), and an 
Executive Office that provides administrative support. ENRD has a staff 
of about 600, more than 400 of whom are attorneys.
    The Division functions as the Nation's environmental lawyer, 
representing virtually every federal agency in courts across the United 
States and its territories and possessions in civil and criminal cases 
that arise under an array of federal statutes. Our work furthers the 
Department's strategic goals to prevent crime and enforce federal laws, 
defend the interests of the United States, promote national security, 
and ensure the fair administration of justice at the Federal, State, 
local, and tribal levels.
         iii. enrd's work with respect to wildlife trafficking
    For the purposes of this hearing, this testimony highlights the 
work of the Division in prosecuting wildlife and wildlife-related 
crimes; conducting capacity-building and training on wildlife-related 
issues; and helping to develop and implement the National Strategy for 
Combating Wildlife Trafficking.
    The Department of Justice, principally through the work of the 
Environment Division, has long been a leader in the fight against 
wildlife trafficking. Combating wildlife trafficking is a top priority 
for the Department. Earlier this year, Associate Attorney General Tony 
West led the United States delegation at the London Conference on the 
Illegal Wildlife Trade, where high-level representatives from more than 
40 countries gathered and issued a declaration emphasizing that urgent 
action is necessary to end wildlife trafficking and eliminate demand 
through high-level political commitment and international cooperation.
    The Division has a separate section devoted to the prosecution of 
environmental crimes, including wildlife crime. The Environmental 
Crimes Section has 35 dedicated criminal prosecutors who often work 
together with U.S. Attorneys' Offices around the country and our 
federal agency partners (such as the U.S. Fish and Wildlife Service and 
the National Oceanic and Atmospheric Administration) in the area of 
wildlife trafficking. Our cases enforce the Endangered Species Act and 
the Lacey Act, as well as statutes prohibiting smuggling, criminal 
conspiracy, and related crimes. We have had significant successes over 
the years prosecuting those who smuggle and traffic in elephant ivory, 
endangered rhinoceros horns, South African leopard, Asian and African 
tortoises and reptiles, and many other forms of protected wildlife. 
Some cases that exemplify these critical enforcement efforts are 
discussed below.
    The Department also works in the international sphere by assisting 
and collaborating with enforcement partners in source, transit, and 
destination countries for illegal trade in protected wildlife. The 
Department works closely with the State Department and various 
international organizations to promote more proactive international law 
enforcement operations, including through efforts to train 
investigators, prosecutors, and judges. Some examples of these 
activities are discussed in more detail below.
    Most recently, the Department of Justice has engaged deeply in the 
administration's effort to combat wildlife trafficking in its role as 
one of the three agency cochairs of the Presidential Task Force on 
Wildlife Trafficking, established by President Obama's July 1, 2013, 
Executive order on Combating Wildlife Trafficking. The Department, 
principally through ENRD, has worked closely with the other cochairs 
from the Departments of State and the Interior, and the other Task 
Force agencies, to craft the National Strategy for Combating Wildlife 
Trafficking. The Strategy, announced by the White House on February 11, 
2014, identifies three key priorities: (1) strengthening domestic and 
global enforcement; (2) reducing demand for illegally traded wildlife 
at home and abroad; and (3) strengthening partnerships with foreign 
governments, international organizations, NGOs, local communities, 
private industry, and others to combat illegal wildlife poaching and 
trade. The Department is committed to contributing to the 
implementation of all aspects of the Strategy, though our primary 
efforts naturally focus on enforcement. The work we do to improve 
domestic and global enforcement includes not only our own case work but 
also our substantial efforts to improve enforcement through 
international capacity-building and training.
A. Wildlife Trafficking Prosecutions
    The two primary federal antiwildlife trafficking statutes that the 
Department enforces are the Lacey Act and the Endangered Species Act. 
The Lacey Act reaches two broad categories of wildlife offenses: 
illegal trafficking in wildlife and false labeling. The Endangered 
Species Act establishes a U.S. program for the conservation of 
endangered and threatened species. The Endangered Species Act makes it 
illegal to traffic in listed endangered or threatened species without a 
permit and also implements our international treaty obligations under 
the Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES)--a treaty establishing limits on trade in 
certain species of wildlife.
    The types of cases we prosecute for illegal trafficking are varied. 
While many involve individuals trafficking in illegal wildlife and 
wildlife parts, we are also seeing the involvement of criminal 
organizations, including transnational criminal organizations that may 
threaten the security interests of the U.S. and its allies. We 
routinely seek punishment that includes sentences for significant 
periods of incarceration, fines, and restitution or community service 
to help mitigate harm caused by the offense; forfeiture of the wildlife 
and instrumentalities used to commit the offense; and, where wildlife 
traffickers also violate laws against smuggling or other related 
crimes, disgorgement of the proceeds of the illegal conduct.
    A prominent example of the Division's robust prosecution of illegal 
wildlife trafficking is ``Operation Crash,'' an ongoing multiagency 
effort to detect, deter, and prosecute those engaged in the illegal 
killing of rhinoceros and the illegal trafficking of endangered 
rhinoceros horns. This initiative has resulted in multiple convictions, 
significant jail time, penalties, and asset forfeiture. In one case, 
United States v. Zhifei Li (D.N.J), the defendant pled guilty this past 
December to organizing an illegal wildlife smuggling conspiracy in 
which 30 raw rhinoceros horns and numerous objects made from rhino horn 
and elephant ivory (worth more than $4.5 million) were smuggled from 
the United States to China. Li pleaded guilty to a total of 11 counts: 
one count each of conspiracy to smuggle and conspiracy to violate the 
Lacey Act, seven smuggling violations, one Lacey Act trafficking 
violation, and two counts of making false wildlife documents. Li 
admitted that he was the ``boss'' of three antique dealers in the 
United States whom he paid to help obtain wildlife items and smuggle to 
him through Hong Kong. One of those individuals was Qiang Wang, 
a/k/a ``Jeffrey Wang,'' who was sentenced to serve 37 months' 
incarceration for smuggling Asian artifacts, including ``libation 
cups,'' made from rhinoceros horn and ivory (United States v. Qiang 
Wang (S.D.N.Y.)). More information about the Li case is available at 
http://www.justice.gov/opa/pr/2013/December/13-enrd-1335.html, and 
information about the Wang case is at http://www.justice.gov/opa/pr/
2013/December/13-enrd-1284.html.
    Another recent ``Operation Crash'' success is United States v. 
Michael Slattery, Jr. (E.D.N.Y.). This past January, Slattery (an Irish 
national) was sentenced to serve 14 months' incarceration, followed by 
3 years' supervised release. Slattery also will pay a $10,000 fine and 
forfeit $50,000 of proceeds from his illegal trade in rhinoceros horns. 
In 2010, Slattery traveled from England to Texas to acquire black 
rhinoceros horns. Mr. Slattery admitted to illegal trafficking 
throughout the United States and is alleged to belong to an organized 
criminal group engaged in rhino horn trafficking. This organized 
criminal element speaks to the scope, scale, and lawlessness of this 
problem. More information about this case is available at: 
http://www.justice.gov/opa/pr/2013/November/13-enrd-1181.html.
    ``Operation Crash'' cases, like the Wang case above, may also 
include charges related to the illegal smuggling and sale of elephant 
ivory. The Division has seen success in other elephant ivory cases. In 
United States v. Tania Siyam (N.D. Ohio), Siyam, a Canadian citizen, 
was sentenced in August 2008 to 5 years' incarceration and a $100,000 
fine for illegally smuggling ivory from Cameroon into the United 
States. Siyam originally operated art import and export businesses in 
Montreal (Canada) and Cameroon that were fronts for smuggling products 
from endangered and protected wildlife species, including raw elephant 
ivory. The two ivory shipments to Ohio included parts from at least 21 
African elephants.
    Another ivory case, United States v. Kemo Sylla, et al. (E.D.N.Y.), 
concerned the illegal importation of ivory over a 2-year period through 
New York's JFK Airport. The ivory was disguised as African handicrafts 
and wooden instruments. The six defendants pleaded guilty to Lacey Act 
violations and received sentences ranging from 1 year of probation to 
14 months' incarceration. A number of the defendants also were ordered 
to pay fines to the Lacey Act Reward Fund. More information about this 
case is available at: www.justice.gov/usao/nye/pr/2011/2011mar03.html.
    Still other prosecutions involve the illegal import or export of 
endangered species. For instance, in United States v. Nathaniel Swanson 
(W.D. Wash.), three defendants were recently sentenced (following 
guilty pleas) to incarceration ranging from 5 months to 1 year, 
supervised release, and an order to pay $28,583 in restitution for 
conspiracy to smuggle various turtle and reptile species from the 
United States to Hong Kong, including Eastern box turtles, North 
American wood turtles, and ornate box turtles. One of the defendants 
also illegally imported several protected turtle species from Hong 
Kong, including black-breasted leaf turtles, Chinese striped-necked 
turtles, big-headed turtles, fly river turtles, and an Arakan forest 
turtle. 
The Arakan forest turtle is critically endangered, having once been 
presumed extinct. The illegal trafficking spanned approximately 4 
years. More information about this case is available at http://
www.justice.gov/usao/waw/press/2014/January/swanson.html.
B. Working in the International Sphere: Training and Capacity-Building
    As the Strategy recognizes, wildlife trafficking is a global 
problem that requires a global solution. For many years, prosecutors 
and other Division attorneys have worked closely with our foreign 
government partners to build their capacity to develop and effectively 
enforce their wildlife trafficking laws, better enabling them to combat 
local poaching and the attendant illegal wildlife trade. The Division's 
training efforts have focused on the legal, investigative, and 
prosecution aspects of fighting wildlife crime. We seek to help our 
partners craft strong laws, strengthen their investigation and 
evidence-gathering capabilities, and improve their judicial and 
prosecutorial effectiveness. Our experience has shown that such 
training develops more effective partners to investigate and prosecute 
transnational environmental crimes, increases our ability to enforce 
U.S. criminal statutes that have extraterritorial dimensions while also 
helping law enforcement officials in the U.S. and other countries meet 
their enforcement obligations under international environmental and 
free trade agreements. These training initiatives also foster positive 
relationships with prosecutors in other countries in a way that better 
enables us to share information and assist in prosecuting transnational 
crimes.
    We often conduct our international training in close collaboration 
with the Department of State and other federal agencies, such as the 
Department of the Interior and the U.S. Forest Service. Capacity-
building may be conducted bilaterally (in the United States or a 
partner nation) or in multilateral fora, and our programs may span a 
range of environmental crimes. The Division has participated 
extensively in training and providing support for foreign 
investigators, prosecutors, and judges through the various Wildlife 
Enforcement Networks (``WENs''). These include the Association of 
Southeast Asian Nations WEN (``ASEAN-WEN''), South Asia WEN, and 
Central American WEN, as well as the launch of WENs in Central Africa, 
Southern Africa, and the Horn of Africa. In multiple countries in these 
regions, we have conducted workshops that involved dozens of agencies 
from the host countries, and typically have included hundreds of 
participants representing government, the judiciary, industry, and 
civil society. The workshops are a mix of direct course instruction on 
legal and wildlife trafficking enforcement issues, including 
presentations by U.S. environmental prosecutors, and an opportunity for 
representatives from the different countries to exchange views on the 
issues they face. Thus, these sessions are both a valuable training 
opportunity and an opportunity to develop a law enforcement network in 
that region.
    The Division has also been involved in numerous international 
training efforts focused on enhancing prosecutions brought under the 
Lacey Act. The Lacey Act is the United States oldest plant and wildlife 
protection statute and is one of our primary tools to fight wildlife 
trafficking. With the amendment of the Lacey Act in 2008 to protect a 
broader range of plants and plant products, the State Department and 
the U.S. Agency for International Development have provided funding for 
much of our recent capacity-building work, focused on the trade in 
illegally harvested and traded timber and timber products, an illegal 
trade conservatively estimated at a value of $10 to $15 billion 
worldwide. ENRD has conducted numerous training sessions abroad on 
investigating and prosecuting illegal logging cases in Indonesia, 
Brazil, Peru, Honduras, and Russia. The training agenda may vary 
somewhat from country to country, but is typically done in close 
collaboration with the foreign government and local prosecutors. Such 
collaboration benefits and strengthens criminal law enforcement both 
here and abroad. These capacity-building efforts further our efforts to 
combat wildlife trafficking. As the National Strategy recognizes, 
wildlife trafficking is facilitated and exacerbated by the illegal 
harvest and trade in plants and trees, which destroys needed habitat 
and opens access to previously remote populations of highly endangered 
wildlife.
    The Division conducts further international capacity-building in 
the area of illegal wildlife trafficking through its participation in 
INTERPOL (specifically the Wildlife Crime Working Group, Environmental 
Crime Committee, and Fisheries Crime Working Group) and the 
International Law Enforcement Academy (with programs for eastern 
European and Southeast Asian law enforcement officials).
    The Division is also working closely with the Office of the United 
States Trade Representative to promote conservation objectives and to 
combat wildlife trafficking by pursuing commitments including with 
respect to law enforcement cooperation in U.S. free trade agreements, 
like the Trans-Pacific Partnership Agreement.
C. The National Strategy to Combat Wildlife Trafficking
    The Department is proud of its record of achievement in this area, 
but the National Strategy is a reminder that more must be done. The 
National Strategy calls for a ``whole of government'' approach and 
increased federal coordination to address three priorities: (1) 
enhancing domestic and international law enforcement to curb the 
illegal flow of wildlife; (2) reducing the demand for illegally traded 
wildlife; and (3) building and strengthening global cooperation and 
public/private partnerships to support the fight against wildlife 
trafficking. The National Strategy resulted from the analysis, 
contributions, and expertise of multiple federal agencies, and it 
benefitted from the contributions of the Advisory Council on Wildlife 
Trafficking established by the July 1, 2013, Executive order. Coming 
from outside the government, the Advisory Council brings a wide range 
of experience and skills to the process and represents the many 
different communities that will have to be engaged as partners to 
tackle this problem.
    The result is a robust, coordinated, and far-reaching National 
Strategy that addresses the multiple dimensions of this growing crisis, 
and the Department is proud to have played a major role in developing 
the National Strategy. The Strategy recognizes that strong enforcement 
is critical to stopping those who kill and traffic in these animals, 
whether on land or in the oceans. And, as is described above, the 
Department of Justice has for many years aggressively pursued and 
prosecuted those engaged in the illegal wildlife trade. We have also 
worked vigorously to train and support partner countries in their 
efforts to stanch this terrible crime.
    As we work to implement the National Strategy, those enforcement 
and capacity-building efforts will be enhanced and intensified. 
Department prosecutors will continue to target traffickers and their 
networks, investigate and prosecute them, bring down their leaders, and 
disrupt the illicit finance that flows to and from these syndicates. We 
will focus on making illegal wildlife trafficking much less profitable 
by using the tools of fines and penalties, seizure and forfeiture, and 
payment of restitution to those victimized by illegal trafficking. The 
Department will also strengthen our coordination of enforcement 
efforts, looking for ways to improve the way we work with our federal 
partner agencies (including through the improved sharing of 
intelligence), as well as state and tribal authorities.
    We also look forward to working with Congress to strengthen 
existing laws and develop new legislation to improve the tools 
available to address this challenge. The law should place wildlife 
trafficking on an equal footing with other serious crimes, for example, 
by recognizing wildlife trafficking as a predicate crime for money 
laundering. We can also more effectively fight the scourge of wildlife 
trafficking if Congress passes legislation that allows for using funds 
generated through wildlife trafficking prosecutions to mitigate the 
harms caused by that trafficking, as well as to ensure adequate 
authority to forfeit all proceeds of wildlife trafficking.
    Looking globally, the Department will continue to help source, 
transit, and demand countries build their capacity to take action 
against illegal wildlife traffickers. Given the transnational dimension 
of this problem, we will continue our support and training of existing 
Wildlife Enforcement Networks and look to support additional regional 
WENs, where appropriate. And more directly, recognizing that illegal 
wildlife trafficking is a growing area of transnational organized 
crime, we will support and engage in enforcement initiatives together 
with the enforcement authorities of other nations. These efforts will 
target the assets and seek to impede the financial capacity of 
international wildlife traffickers.
                             iv. conclusion
    In closing, the Department remains fully committed to working with 
the administration and Congress to do all that we can to stop those who 
poach and traffic illegally in wildlife.
                                 ______
                                 

Statement submitted by Ginette Hemley, senior vice president, Wildlife 
Conservation, World Wildlife Fund, and Crawford Allan, senior director, 
                                TRAFFIC

    Chairmen Coons and Cardin, Ranking Members Flake and Rubio, and 
members of the subcommittees, thank you for the opportunity to submit 
testimony on the international wildlife trafficking crisis and its 
implications for conservation, economic growth and development and U.S. 
security interests. Our testimony is offered on behalf of both World 
Wildlife Fund-US and TRAFFIC and also reflects the views of our broader 
networks around the globe. WWF is the largest private conservation 
organization working internationally to protect wildlife and wildlife 
habitats. WWF currently sponsors conservation programs in more than 100 
countries with the support of 1.2 million members in the United States 
and more than 5 million members worldwide. TRAFFIC, a strategic 
alliance of WWF and IUCN-International Union for Conservation of 
Nature, is the world's leading wildlife trade monitoring organization. 
It is a global network with 25 offices around the world working to 
ensure that trade in wild plants and animals is not a threat to the 
conservation of nature. Over the past 38 years, TRAFFIC has gained a 
reputation as a reliable and impartial organization and a leader in the 
field of conservation as it relates to wildlife trade and trafficking. 
Both WWF and TRAFFIC are proud to have representation on the U.S. 
Federal Advisory Council on Wildlife Trafficking.
                              introduction
    Illegal wildlife trafficking and poaching to supply the illegal 
trade in wild fauna and flora is one of the greatest current threats to 
many of our planet's most charismatic, valuable, and ecologically 
important species. As has been recognized by many in the U.S. 
Government, including the President of the United States through 
Executive Order 13648 and the new National Strategy for Combating 
Wildlife Trafficking, wildlife trafficking poses a threat not just to 
wildlife conservation and our shared natural heritage but also to 
security, good governance, and economic development objectives around 
the globe. It is a transnational criminal enterprise worth billions of 
dollars annually that is strongly connected to other transnational 
organized crimes, such as drug and arms trafficking.\1\
    According to the best estimates, the illegal wildlife trade has a 
value of approximately $10 billion per year, a figure which puts it the 
top 5 largest illicit transnational activities worldwide, along with 
counterfeiting and the illegal trades in drugs, people, and oil.\2\ If 
the illegal trades in timber and fish are included in the total, then 
the estimated value of illegal wildlife trafficking rises to almost $20 
billion annually. In terms of its size, wildlife trade outranks the 
illegal small arms trade. It also has strong connections to other 
illegal activities--guns, drugs, and ivory may be smuggled by the same 
criminal networks and using the same techniques and smuggling routes.
    According to data from the CITES Elephant Trade Information System 
(ETIS) that was established by TRAFFIC, the increase of large-scale 
(>500kg) ivory seizures is one piece of evidence of the growing 
involvement of organized crime in the illegal wildlife trade. Since 
2009, we have seen a significant upsurge in the number of large-scale 
seizures. Last year, 2013 saw more large-scale ivory seizures than any 
year since records began 25 years ago, surpassing the previous record 
in 2011. While seizures of rhino horn are smaller by weight, rhino horn 
is worth far more than elephant ivory, priced higher than gold pound 
for pound. Illicit traders can make more profit from smuggling a kilo 
of rhino horn than they would make from smuggling any illicit drug, and 
the risks are minimal in comparison. (It is estimated that 3,000kg of 
illicit rhino horn reaches Asian markets each year.)
    These record seizure numbers translate into devastating declines 
for the affected species. Tens of thousands of African elephants are 
killed every year to supply the illegal ivory market, with an average 
of nearly 20 tonnes seized per year over the past 20 years and annual 
highs of over 40 tonnes seized. The Convention on International Trade 
in Endangered Species of Fauna and Flora (CITES) reported that roughly 
25,000 elephants were illegally killed on the African Continent in 2011 
and that another 22,000 fell victim to poaching in 2012. Many 
independent experts see these estimates as conservative and believe the 
number to be significantly higher, with some estimates ranging from 
30,000 to as high as 50,000. During the same period, the number of 
rhinos illegally killed in South Africa also rose dramatically: from 13 
animals in 2007 to 1,004 in 2013--more than a 7,500-percent 
increase.\3\ Tigers continue to be subjected to intense poaching 
pressures throughout their range in Asia, and numerous other species--
many less well-known--are being rapidly depleted to feed a voracious 
global trade, including sharks, pangolins, corals, tortoises and 
terrapins, tokay geckos, song birds and endangered plant species, such 
as orchids and tropical hardwoods.
    At the root of this wildlife trafficking and poaching crisis is the 
growing demand--primarily in Asia--for high-end products made from 
wildlife parts, such as elephant ivory, rhino horn, and tiger skins and 
bones. Products made from these and other increasingly rare species 
command high prices on Asian black markets as purported medicinal cures 
(e.g., rhino horn powder and tiger bone wine), culinary delicacies 
(e.g., shark fins), or demonstrations of wealth and status (e.g., ivory 
carvings). Growing wealth in Asia, particularly in countries such as 
China and Vietnam, is a primary driver and has resulted in a steep 
increase in Asian consumers with the means to purchase such products--
and in the prices being paid for them.
    If the growth in demand is primarily from Asia, the criminal 
networks feeding that growing demand are global in nature, reaching 
across oceans and continents and operating in many countries, including 
the United States. Middleman traders often direct poaching activities 
and engage in targeted efforts to corrupt law enforcement, border 
inspection and wildlife protection efforts in affected countries. In 
some cases, organized Asian criminal syndicates, which are now 
increasingly active in Africa, work with local economic and political 
elites to subvert control systems and operate with relative impunity. 
With respect to ivory, the trends in both the MIKE (Monitoring the 
Illegal Killing of Elephants) \4\ and ETIS data sets are highly 
correlated with governance shortfalls and corruption. In other words, 
where poaching of elephants and illegal trade in ivory is most acute, 
poor governance is likely to be a serious operating factor. A related 
issue is the theft of government ivory stocks, a persistent problem in 
many African countries. For example, in April 2012 in Mozambique, 266 
pieces of elephant ivory, representing over one tonne of ivory, were 
stolen from the government ivory store in the Ministry of Agriculture 
building in Maputo. Overall, illegal trade in ivory produces a broad 
corrupting influence on governments.
    The combination of rapidly rising prices and inadequate enforcement 
regimes in many countries makes poaching and illegal wildlife 
trafficking a high profit, low risk criminal enterprise and has led to 
a dramatic upsurge in not just the amount of poaching and illegal 
wildlife trafficking, but also its severity. Poachers supplying 
products such as elephant ivory and rhino horn are less often local 
criminals armed with spears or shotguns and more frequently resemble 
highly organized and heavily armed gangs, at times including militia or 
military personnel. They violate international borders, carry AK-47s 
and rocket-propelled grenades, and possess strong connections to 
transnational criminal networks. In some regions of Africa, trafficking 
in wildlife and other natural resources has been strongly connected to 
the financing of destabilizing forces, including armed insurgencies, 
groups responsible for human rights abuses, and organizations with ties 
to terrorism.\5\ In many parts of Africa and Asia, poachers and 
wildlife traffickers can operate largely with impunity due to weak laws 
or law enforcement, poor capacity, governance shortfalls, and a failure 
of many governments to recognize wildlife crime as the serious crime 
that it is.
    It is on the ground, primarily in developing countries and rural 
regions, where large-scale illegal trade in wildlife and wildlife 
products is having its most devastating effects, negatively impacting 
local communities by undermining regional security and economic growth 
while exacerbating corruption and instability. The current poaching 
crisis is pushing some of our most iconic species closer toward 
extinction, and many developing countries are witnessing the rapid 
decimation of their wildlife--a potentially valuable resource on which 
to build sustainable growth and eventually bring greater stability to 
impoverished and often conflict-torn regions. At the same time that 
wildlife crime is taking a profound toll on many ecological systems, it 
is also robbing some of the poorest communities on earth of their 
natural wealth, breeding corruption and insecurity and disenfranchising 
them of sustainable pathways to prosperity.
    In the testimony that follows, we hope to describe the problem as 
presented through two representative wildlife products--elephant and 
rhino horn--and provide recommendations on the role the U.S. Government 
can play in light of the new National Strategy on Combating Wildlife 
Trafficking.
                             elephant ivory
    WWF has over 40 years of experience in elephant conservation. 
Through WWF's African Elephant Program, we aim to conserve forest and 
savanna elephant populations through both conservation projects and 
policy development. WWF works with elephant range state governments, 
local people, and nongovernmental partners to secure a future for this 
powerful symbol of nature. TRAFFIC tracks illegal trade in elephant 
ivory using records of ivory seizures that have occurred anywhere in 
the world since 1989. The Elephant Trade Information System (ETIS), one 
of the two monitoring systems for elephants under CITES, is managed by 
TRAFFIC and currently comprises over 20,000 elephant product seizure 
records from over 90 countries, the largest such collection of data in 
the world.
    Elephants are important keystone species, and their future is tied 
to that of much of Africa's rich biodiversity. African elephants help 
to maintain suitable habitats for many other species in savanna and 
forest ecosystems, directly influencing forest composition and density 
and altering the broader landscape. In tropical forests, elephants 
create clearings and gaps in the canopy that encourage tree 
regeneration. In the savannas, they can reduce bush cover to create an 
environment favorable to a mix of browsing and grazing animals. Many 
plant species also have evolved seeds that are dependent on passing 
through an elephant's digestive tract before they can germinate; it is 
calculated that at least a third of tree species in west African 
forests rely on elephants in this way for distribution of their future 
generations.
    African elephants once numbered in the millions across Africa, but 
by the mid-1980s their populations had been devastated by poaching. An 
international ban on the sale of ivory, put in place in 1989, helped to 
slow the rate of decline significantly for the past two decades in many 
parts of Africa. The status of the species now varies greatly across 
the continent. Some populations have remained in danger due to poaching 
for meat and ivory, habitat loss, and conflict with humans. In Central 
Africa, where enforcement capacity is weakest, estimates indicate that 
populations of forest elephants in the region declined by 62 percent 
between 2002 and 2011 and lost 30 percent of their geographical 
range,\6\ almost entirely due to poaching. This is in spite of the 
global trade ban in ivory trading, in place since 1989. Elephants in 
Central Africa are also heavily impacted by the existence of large, 
unregulated domestic ivory markets, especially those still functioning 
in Kinshasa, Democratic Republic of Congo (DRC) and Luanda, Angola. In 
other parts of Africa, populations have remained stable or grown until 
recently. However, evidence now clearly shows that African Elephants 
are facing the most serious crisis since the ivory trade ban under 
CITES was agreed to in 1989, and whatever gains were made over the past 
25 years may be in the process of being reversed.
    MIKE data show an increasing pattern of illegal killing of 
elephants throughout Africa and demonstrate an escalating pattern of 
illegal trade--one that has reached new heights over the past 3 years. 
Those working on the ground throughout Africa have seen an alarming 
rise in the number of elephants being illegally killed, even in areas 
that were, until recently, relatively secure and free from large-scale 
poaching, such as southern Tanzania and northern Mozambique.\7\ This 
past January, the Tanzanian Government released numbers showing that 
the population of elephants in that country's Selous Game Reserve had 
fallen 66 percent in just 4 years--a shocking decline of tens of 
thousands of elephants for a reserve that until recently was home to 
Africa's second-largest concentration of elephants. Witnesses have also 
seen a disturbing change in the sophistication and lethality of the 
methods being used by the poachers, who are frequently well armed with 
automatic weapons, professional marksmen and even helicopters. In most 
cases in Africa, poachers are better equipped than the park supervisors 
and guards. In some instances, they are better equipped even than local 
military forces.
Escalating Ivory Trade and Large-Scale Ivory Seizures
    Illegal trade in ivory has been steadily increasing since 2004. The 
increases were rather modest initially, but since 2009 the upward trend 
has surged, with historic highs for large-scale ivory seizures. 
Preliminary estimates for last year, 2013 saw more large-scale ivory 
seizures (over 500kg) than any year since records began 25 years ago, 
involving over 40 tonnes of ivory. Successive years of high-volume, 
illegal trade in ivory is a pattern that has not been previously 
observed in the ETIS data. This represents a highly worrying 
development and is jeopardizing two decades of conservation gains for 
the African Elephant, one of Africa's iconic flagship species and an 
animal that the U.S. public feels adamant about protecting.
    Requiring greater finance, levels of organization and an ability to 
corrupt and subvert effective law enforcement, large-scale movements of 
ivory are a clear indication that organized criminal syndicates are 
becoming increasingly more entrenched in the illicit trade in ivory 
between Africa and Asia. Virtually all large-scale ivory seizures 
involve container shipping, a factor that imposes considerable 
challenges to resource-poor nations in Africa.
    Large-scale movements of ivory exert tremendous impact upon illegal 
ivory trade trends. Unfortunately, very few large-scale ivory seizures 
actually result in successful investigations, arrests, convictions and 
the imposition of penalties that serve as deterrents. International 
collaboration and information-sharing between African and Asian 
countries in the trade chain remains weak, and until very recently, 
forensic evidence was rarely collected as a matter of routine 
governmental procedure. Finally, the status of such large volumes of 
ivory in the hands of Customs authorities in various countries, which 
generally do not have robust ivory stock management systems, remains a 
problematic issue and leakage back into illegal trade has been 
documented.
Ivory Trade Routes Out of Africa
    In terms of ivory trade flows from Africa to Asia, East African 
Indian Ocean seaports remain the paramount exit point for illegal 
consignments of ivory today, with Kenya and the United Republic of 
Tanzania as the two most prominent countries of export in the trade. 
This development stands in sharp contrast to ivory trade patterns 
previously seen whereby large consignments of ivory were also moving 
out of West and Central Africa seaports. Whether the shift in shipping 
ivory from West and Central African Atlantic Ocean seaports reflects a 
decline in elephant populations in the western part of the Congo Basin 
remains to be determined, but the depletion of local populations is 
steadily being documented throughout this region, according to the 
IUCN's Species Survival Commission's African Elephant Database. Data on 
elephant poaching from the Monitoring Illegal Killing of Elephants 
(MIKE) program, the other site-based monitoring system under CITES, 
also show that illegal elephant killing has consistently been higher in 
Central Africa than anywhere else on the African Continent. Now, 
however, poaching is seriously affecting all parts of Africa where 
elephants are found.
End Use Markets in Asia
    In terms of end-use markets, China and Thailand are the two 
paramount destinations for illegal ivory consignments from Africa. 
While repeated seizures of large consignments of ivory have occurred in 
Malaysia, the Philippines, and Viet Nam since 2009, these countries 
essentially play the role of transit countries to China or Thailand. 
Directing large shipments of ivory to other Asian countries for onward 
shipment is an adaptation by the criminal syndicates to the improved 
surveillance and law enforcement action in China and Thailand where 
targeting of cargo from Africa has increased. Importation into other 
Asian countries allows the shipping documents to be changed, concealing 
the African origin of the containers in question. In the case of Viet 
Nam, which shares a long terrestrial border with China, ivory is being 
smuggled overland into China. CITES data also suggest that Cambodia, 
Laos, and most recently Sri Lanka are now rapidly emerging as new trade 
routes into China and Thailand, reflecting further adaptations by the 
criminal networks behind this trade.
China's Role
    Without any doubt, ivory consumption in China is the primary driver 
of illegal trade in ivory today. The Chinese Government recognizes 
ivory trafficking as the country's greatest wildlife trade problem, and 
law enforcement officials are making almost two ivory seizures every 
single day, more than any other country in the world. Regardless, 
strict implementation of China's domestic ivory trade control system 
seriously faltered in the wake of the CITES-approved one-off ivory sale 
held in four southern African countries in late 2008. Various observers 
to China, including TRAFFIC monitors, have found government-accredited 
ivory trading retail outlets persistently selling ivory products 
without the benefit of product identification certificates, which 
previously were an integral discriminating feature in the Chinese 
control system. The ability of retail vendors to sell ivory products 
without product identification certificates means that they do not 
become part of China's database system, which is designed to track 
ivory products at the retail level back to the legal stocks of raw 
ivory at approved manufacturing outlets. This circumvention creates the 
opportunity to substitute products from illicit sources of ivory into 
the legal control system.
    China remains the key for stopping the growing poaching crisis 
facing Africa's elephants. While Chinese CITES authorities are engaged 
on ivory trade issues and law enforcement is certainly taking place on 
an unprecedented scale, China's demographics appear to be swamping the 
impact of such actions. Within the country, stricter internal market 
monitoring and regulation are needed, and investigative effort directed 
at fighting the criminal syndicates behind the ivory trade needs to be 
scaled up as a dedicated, ongoing concern. At the same time, Chinese 
nationals based throughout Africa have become the principle middleman 
traders behind the large illegal movements of ivory to Asia. The advent 
of Asian criminal syndicates in Africa's wildlife trade stands as the 
most serious contemporary challenge, and China needs to actively 
collaborate with African counterparts to address the growing Chinese 
dimension in Africa's illegal trade in ivory and other wildlife 
products.
Thailand's Role
    Thailand also has one of the largest unregulated domestic ivory 
markets in the world. Unlike China, Thailand has consistently failed to 
meet CITES requirements for internal trade in ivory. In recent years, 
interdictions of several large shipments of ivory have occurred at 
Thailand's ports of entry, resulting in over 8.3 tonnes of ivory being 
seized between 2009 and 2012. This development is welcomed, but there 
is almost no evidence of similar law enforcement pressure on the 
hundreds of retail ivory vendors in the country's marketplace which 
effectively exploit legal loopholes in Thailand's legislation to offer 
tens of thousands of worked ivory products to tourists and local 
buyers. An initial attempt by the Thai Government to address these 
legal deficiencies and provide a basis for stricter market regulation 
has been blocked by industry insiders, and the view that remedial 
measures in Thailand will only result if sanctions are imposed under 
CITES or an application of the Pelly amendment is increasingly taking 
hold as the only hope for breaking the current impasse. CITES data 
underscore the global reach of Thailand's ivory markets as more than 
200 ivory seizure cases have been reported by other countries regarding 
illegal ivory products seized from individuals coming from Thailand 
over the last three years.
    Recognizing the elephant poaching and illegal ivory trade crisis, 
the U.S., the U.K. and others took a hard line at the 63rd Meeting of 
the CITES Standing Committee (March 2, 2013) and agreed to a Decision 
requiring countries identified as being involved in substantial illegal 
ivory trade as source, transit, or destination countries to develop 
ivory trade ``action plans'' that included milestones and clear 
timeframes for addressing the illegal flow of ivory along the trade 
chain. The countries or territories that were subject to this decision 
were: China and Thailand as destination countries, Malaysia, Hong Kong, 
Philippines, and Viet Nam as transit countries/territories, and Kenya, 
the United Republic of Tanzania and Uganda as source countries.
    Thailand submitted their report by the required deadline, but their 
action plan, and their progress against that action plan to date, has 
been unsatisfactory. At the 16th Meeting of the Conference of the 
Parties to CITES (March 2013), and in the decade prior, Thailand 
attempted to deflect criticism of being a major ivory-consuming nation 
by continually characterizing itself as a transit country. Fortunately, 
such posturing is not apparent in this action plan and the Thai 
Government seems to have finally acknowledged its role as a major ivory 
trade destination. However, a host of other issues do raise serious 
concerns. Although a comprehensive action plan has been submitted, its 
content creates serious ambiguity in terms of overall, long-term 
intent. The plan presents conflicting signals concerning whether there 
will be controlled domestic ivory trade or a complete end to ivory 
trade in Thailand's future and commits little in the way of increased 
law enforcement.
    The timeline of Thailand's action plan is of serious concern, 
particularly as it relates to the legislative reform process. Indeed, 
Thailand is the only country that has structured its action plan around 
a 5-year timeframe extending to the end of 2017. This is an 
unacceptably excessive amount of time, as legislative issues should 
have been resolved decades ago. The proposed legislative amendments 
would enable Thailand to implement the Appendix I listing of African 
elephant ivory that took effect in January 1990--over 23 years ago. 
Thailand has been a Party to the Convention since January 1973.
    Next to China, Thailand's domestic ivory market is perhaps the 
second-greatest driver of illegal trade in ivory at the present time, 
and Thailand needs to be held accountable for years of inaction. WWF 
and TRAFFIC would strongly encourage the U.S. Government to consider 
using the full force of punitive measures allowed by CITES--a 
``recommendation to suspend trade''--to encourage Thailand to address 
its illegal ivory market. The U.S. should make this recommendation at 
the 65th Meeting of the CITES Standing Committee, July 7-11, 2014. 
Additionally, the U.S. should work in advance of the meeting to 
encourage other Members of the Standing Committee and other governments 
to actively support this recommendation as well.
                               rhino horn
    In addition to the poaching crisis affecting elephants in West, 
Central, and Eastern Africa, a concurrent and related crisis is 
affecting rhinos, primarily in South Africa, which is home to roughly 
80 percent of the world's remaining rhinos. In the early 2000s, roughly 
a dozen rhinos were illegally killed in South Africa in any given year, 
but since 2007, the country has been experiencing an unprecedented 
surge in rhino poaching: in 2007, 13 rhinos were illegally killed; by 
2011, it was 448; in 2012 it was 668; and in 2013, it was 1,004. These 
numbers represent a more than 7,500-percent increase in poaching deaths 
in just 6 years' time--a situation made all the more shocking given 
that South Africa is recognized to have the most well-developed park 
system in Africa, with the highest capacity and best enforcement.
    Much like ivory poaching, rhino horn poaching and trading 
operations are associated with organized and well-armed criminal 
networks, some with access to high-powered weapons, helicopters, and 
night vision goggles. These poaching operations can outgun wildlife 
rangers or move so rapidly there is low risk of detection. Profits are 
now so high that even those charged with protecting rhinos are becoming 
corrupted and facilitating the poaching. There is no sign of abatement 
in poaching rates, in spite of military support and intervention in 
Kruger National Park, the primary site of the poaching surge. Many 
African nations fear their rhinos will be targeted next, particularly 
if South Africa somehow manages to prevent further slaughter and the 
poachers seek out easier targets. Kenyan officials are particularly 
concerned and have seen an increase in poaching losses, which, as a 
percentage of their total rhino population, are worse than those in 
South Africa. In Namibia this week, reports are that DNA testing of 
rhino horns seized from Chinese nationals leaving the country earlier 
this year, show that the rhino horns were taken from seven Namibian 
rhinos.
Vietnam's role
    Rhino poaching is surging due to demand for rhino horn in Vietnam, 
where many believe that the horn has medicinal properties. Some believe 
it to be a last resort cure for fever and even cancer; others employ it 
as a party drug/hangover cure that doubles as a status symbol due to 
its exorbitant cost. Rising prosperity in Vietnam means that wealthy 
buyers have driven up prices and demand for rhino horn to a level where 
it is now being sourced not just from live rhinos in Africa and Asia, 
but also from trophies, antiques, and museum specimens in the U.S. and 
Europe. Rhino horn is now worth more than its weight in gold or heroin. 
While trade in rhino horn is illegal in Vietnam, possession is not. 
Rhino horns trophies are officially permitted in Vietnam only as 
personal effects, not for commercial purposes (under CITES rules) and 
not to be traded or used post-import. Under the terms of the trophy 
export permit from South Africa, horns are not to be used for 
commercial purposes. South Africa has now prevented Asia nationals from 
trophy hunting however, as they uncovered a ``pseudohunt'' system where 
Vietnamese and Thai nationals (not known for trophy hunting), were 
hunting rhinos to export the horns to trade illegally in Vietnam. Until 
recently, Vietnam had shown little willingness to clamp down on illegal 
trade in rhino horn, but engagement by the U.S. State Department and 
recent CITES decisions regarding rhino horn seem to have helped move 
Vietnam to be more cooperative in addressing the problem. Much more 
will need to be done to clamp down on illegal trade in rhino horn and 
educate the Vietnamese public, however, if current trends are to be 
reversed and demand for the product is to be curtailed and eliminated.
Mozambique's Role
    Mozambique is coming under intense scrutiny as a major driver of 
both rhino horn and ivory trafficking, due to its role as a major 
transshipment point for illegal wildlife products out of Africa and a 
major base for poaching operations into South Africa's Kruger National 
Park, whose eastern frontier is comprised of a 220-mile stretch of 
South Africa's porous border with Mozambique. It is estimated that 80 
percent of the rhino poaching occurring in Kruger National Park is 
being carried out by poaching gangs from Mozambique. This situation is 
exacerbated by the fact that, at present, Mozambique has no serious 
laws or penalties to deter rhino poaching or possession of rhino horn. 
Poaching is simply considered a misdemeanor offence, and trafficking 
gangs have raced to take advantage of the permissive environment that 
this legal vacuum provides for their operations. Corrupt practices on a 
significant scale are supporting the criminal networks operations. In 
March 2013, the CITES Conference of the Parties directed Mozambique to 
take urgent actions to tackle its role in the rhino poaching crisis, 
including the need to give priority attention to the creation and 
implementation of effective legislation to effectively deter wildlife 
crime and to preventing the illegal killings of rhinos and possession 
of rhino horn. Some legislative reforms have moved forward since that 
Decision was issued, but these have yet to take legal effect. At the 
next CITES Standing Committee meeting, July 7-11, 2014, there is a 
potential that Mozambique may receive punitive measures for chronic 
failings in this regard.
        benefits of wildlife for economic growth and development
    Wildlife resources, if properly protected, can form the basis for 
future economic growth in impoverished, rural regions of the continent. 
In several African and Asian countries, this is already happening. In 
Namibia, WWF has helped to establish community-run ``conservancies'' in 
which local communities own and manage their own wildlife resources, 
deriving profits from ecotourism opportunities and sustainable use of 
wildlife, have contributed to new attitudes toward wildlife, rebounding 
populations of such charismatic species as rhinos and lions, and--just 
as importantly--an exponential increase in the economic benefits that 
communities receive from their wildlife, including income and 
employment. Due to joint-venture lodges and related ecotourism 
opportunities, community conservancies now generate upward of 6 million 
USD annually for rural Namibians--up from an insignificant amount in 
the mid-1990s. These successful programs receive critical support from 
USAID and, more recently, the Millennium Challenge Corporation, as well 
as WWF and others.
    By demonstrating the value of wildlife to local communities, these 
programs have also made essential partners out of local people in the 
long-term conservation of wildlife and defense against poaching, 
helping to build successful informer networks and wildlife stewardship 
among communities, which have helped keep wildlife poaching low to 
nonexistent in countries where these programs have become established. 
Namibia's conservancies have remained largely immune to elephant and 
rhino poaching until recently, and a central reason why, when isolated 
poaching incidents have occurred in the past year, the poachers have 
been apprehended within 24 hours because of information provided by 
local informers. Empowered to communally own and manage their wildlife 
resources, conservancies have helped to created local governance and 
democracy in addition to economic prosperity and a respect for the rule 
of law in post-apartheid Namibia. In Nepal, a similar approach 
combining Community-Based Anti-Poaching Units, strong engagement by the 
government in park protection and enhanced intelligence-sharing led to 
a full year free of poaching of rhinos, tigers or elephants in that 
country on two separate occasions--in 2011 and 2013.
    In Central Africa, a wildlife-based economic success story can also 
be told about Virunga National Park--Africa's oldest national park and 
one of its most important in terms of biodiversity. It is also the 
continent's best known park, because it is home to the last remaining 
mountain gorillas. Gorilla-based tourism is a huge economic engine: the 
annual revenue earned directly from gorilla tourism in the Virungas is 
now estimated at 3 million USD. In Rwanda alone, the number of tourists 
visiting the country from 2010 to 2011 increased 32 percent and tourism 
revenues rose an amazing 12.6 percent, from $200 million to $252 
million in 2011--much of it due to mountain gorillas and other 
ecotourism opportunities.
    Through USAID, the U.S. is currently helping to support additional 
community-based wildlife conservation efforts in other priority 
landscapes for wildlife, including Tanzania's Wildlife Management Areas 
(WMAs) and southern Africa's Kavango-Zambezi Transfrontier Conservation 
Area (KAZA)--the largest transboundary conservation area in the world, 
encompassing 109 million acres, crossing five southern Africa countries 
(Angola, Botswana, Namibia, Zambia, and Zimbabwe), and home to nearly 
half of Africa's remaining elephant population. Given its rich wildlife 
resources, the KAZA partnership in particular has the potential to 
improve the livelihoods of the 2.5 million people who live in the 
Okavango and Zambezi river basin regions through Community-Based 
Natural Resource Management (CBNRM) approaches informed by the 
successful Namibia conservancies model that ensure that local 
communities benefit economically from wildlife on their land, through 
conservation of animals and their habitats and the creation of a world-
class tourism experience while also bringing southern African countries 
together to more effectively combat international wildlife trade and 
poaching through information-sharing, joint patrols and surveillance, 
as well as harmonized law enforcement policies.
    We strongly encourage continued U.S. Government support for 
programs such as these, which help to create clear economic benefits 
for local people from protecting wildlife, thereby incentivizing 
locally driven conservation efforts and building immunity to poaching 
and wildlife trafficking. For these reasons, they are an essential part 
of the long-term solution to the current crisis.
                        the u.s. government role
    Over the past 2 years, the U.S. Government has demonstrated 
historic leadership on the issue of wildlife trafficking, at all 
levels. Long an international leader on the issue, the U.S. has, since 
2012, helped to elevate attention on wildlife crime both at home and 
abroad to a new apex. The President's issuance of Executive Order 13648 
and the creation of the National Strategy for Combating Wildlife 
Trafficking by a Presidential Task Force led by the Departments of 
State, Interior and Justice are a profound recognition by the 
administration of the importance of this issue and the will to address 
it. This U.S. leadership has also set the stage internationally, 
putting the issue firmly on the agendas for our international partners, 
including in fora such as APEC, ASEAN, UNODC, the U.N. Security Council 
and--with renewed energy and impressive success--at the most recent 
CITES CoP. The U.S. ivory crush last November has helped to trigger 
similar actions by major demand countries, including China and Hong 
Kong. And the leadership of many in Congress, from both sides of the 
aisle, has already helped to raise the profile of the issue and 
strengthen U.S. law to address it, and is now working to provide the 
resources and needed oversight to ensure that the new U.S. strategy is 
implemented efficiently, effectively, and with the concerted energies 
of all relevant U.S. agencies in a whole-of-government approach. We 
strongly believe that this whole-of-government approach must continue, 
guided by the strategy, and hope it can serve as a model that other 
countries will emulate to ensure that they are bringing to bear not 
just their conservation resources and expertise to solve this problem, 
but also the full range of law enforcement, security, intelligence, and 
diplomatic resources guided by high-level leadership and political 
will. Following are some specific thematic recommendations for priority 
government actions.
Diplomatic Recommendations
    The U.S. Government should continue to raise the issue of wildlife 
trafficking at the highest levels with key countries and in 
international forums and should strive to insert wildlife crime into 
the agendas of relevant bilateral and multilateral agreements where it 
is not yet addressed and where the work of those agreements could 
benefit the fight against wildlife trafficking (as was done in 2013 
with the U.N. Commission on Crime Prevention and Criminal Justice and 
at APEC in 2012).
    The United States Government should continue to use its 
considerable diplomatic influence and technical capacity to work with 
the primary consumer countries to shut down the illegal trade and 
should ensure that countries are held accountable at this summer's 
Standing Committee meeting for applicable decisions made at the last 
CITES Conference of the Parties. Recent steps by China are encouraging 
and need to be institutionalized and sustained through the U.S.-China 
Strategic Economic Dialogue. Thailand must enact major legislative and 
enforcement reforms to control its internal ivory market. Mozambique 
must play a critical role in preventing its citizens from driving a 
poaching epidemic in South Africa and in ending its role as a major 
transit hub for ivory and rhino horn. And Vietnam must take action at 
all levels to enforce CITES rhino trade restrictions and launch public 
initiatives to reduce demand. These countries must be held accountable 
to CITES and the global community if they fail to live up to their 
international commitments.
    To drive needed action, the U.S. should consider application of the 
Pelly amendment and the sanctions process that law offers in cases 
where CITES continues to be seriously undermined. The Pelly amendment 
has been used sparingly but successfully in the past to achieve swift 
reforms in countries where endangered species trafficking was 
completely out of control, specifically for the illegal trade in tiger 
and rhino parts in Taiwan, China, South Korea, and Yemen. Each of those 
countries made major positive wildlife trade control improvements as a 
result of action under the Pelly amendment and parallel action through 
CITES. The ivory and rhino trade today is as serious as any wildlife 
trade issue in the past and warrants equally serious measures.
Anti-Poaching Recommendations
    The men and women on the front lines who put their lives on the 
line in order to prevent wildlife crime are the thin green line between 
the poachers and the animals they wish to kill. In order to effectively 
reduce poaching, we need to ensure that they are up to the task when 
they are confronted with today's poaching threats, which are more 
dangerous than they have ever been and require more skills than have 
often been expected in the past.
    There are two ways to look at antipoaching; the short-term 
emergency response and the long-term solution. In terms of the 
emergence response, effective on-the-ground protection requires: 
suitable operational support, including trained rangers; knowledge of 
patrol tactics; access to equipment and transportation; and adaptive 
management systems, such as that provided by the SMART \8\ conservation 
tools.
    In order for on-the-ground operations to be efficient and proactive 
they need to be supported by intelligence, and this can be gained 
through community relationships, informant networks, on-patrol 
interviews, and through the use of surveillance technology. 
Interdiction also needs to lead to prosecution so that the cost of 
breaking the law outweighs the benefits, requiring a whole-of- 
government approach even at the local level. Crucially, the best 
antipoaching operations are focused on crime prevention and not 
violator interdiction. This means working with communities through a 
community policing framework where there is a strong partnership 
between rangers and communities. These approaches are enhanced where 
communities see direct benefits between conservation and economic 
development. It is an integrated approach such as this one, which WWF 
has helped to foster through its program in Nepal, which has seen Nepal 
achieve zero rhino and elephant poaching in 2 of the last 3 years.
    We know what works and how to establish these systems at the local 
level. But we have also been here before: in the 1980s, 
conservationists worked to abate the last poaching crisis affecting 
elephant, rhino, and tiger populations. We successfully abated that 
crisis, and with a concerted effort, we can abate the current one as 
well, but what we have not been able to do is get ahead of the curve to 
prevent the next crisis from happening in the first place. To do this 
takes a more strategic, long-term approach; one of sector reform.
    In the majority of countries being a ranger is a not a profession 
that one aspires to. Despite being charged with protecting a national 
asset, rangers are often poorly paid, poorly trained, lacking health or 
life insurance, expected to work long hours, stationed in remote areas 
away from their families for long periods of time, operating in some of 
the most hostile and dangerous environments on the planet, lacking 
access to performance-based reward systems, and regularly intimidated 
or prosecuted if they don't turn a blind eye to crime. In order to 
build a professional ranger corps, rangers deserve our attention not 
just in times of crisis but in a sustained fashion.
    In order to transform the ranger force we need to:

  <bullet> Establish accredited higher education training centers that 
        produce professionally trained rangers--in a similar fashion to 
        police academies, no ranger should be hired without receiving a 
        professional, accredited qualification;
  <bullet> Rewards and promotions should be based on performance and 
        set competencies--this means transforming the human resource 
        systems in many ranger departments;
  <bullet> Rangers need to be empowered with the legal authority to 
        detain and arrest suspects, to process a crime scene and 
        present admissible evidence in court, and to legally defend 
        themselves in life threatening situations;
  <bullet> Rangers should be reasonably protected by the law when they 
        are doing their duty;
  <bullet> Adequate insurances should be provided to rangers and their 
        families;
  <bullet> Outposts should provide shelter, basic amenities, 
        communications equipment, and medical supplies.

    The long-term solution to the poaching crisis is to reform the 
ranger force just like the international community supports reform in 
other sectors such as police, education, and health. Professionalizing 
the ranger force will support rule of law, provide an additional layer 
of good governance and provide protection for environmental services 
including biodiversity, timber, fisheries, watersheds, and carbon 
stocks. Rangers are also often on the front line in remote areas that 
are safe havens for criminal gangs, militias and terrorist 
organizations and, in many cases, the protected areas they patrol also 
run along international borders, adding another layer of security 
considerations. The U.S. Government should consider how it can support 
the promotion of global standards and training and accreditation 
systems to achieve the transformation outlined above, whether through 
existing U.S. institutions, such as the State Department-run 
International Law Enforcement Academies, or through partnerships with 
national or regional training institutions that can help foster 
``ranger academies'' and the long-term professionalization of the 
wildlife law enforcement sector in partner countries.
    Where suitable, the U.S. Government should also explore possible 
collaboration and/or assistance by the Department of Defense/AFRICOM 
with those local forces tasked with wildlife and/or park protection in 
countries facing militarized poaching threats, whether through training 
opportunities, logistical and intelligence support, or provision of 
equipment.
Anti-Trafficking Recommendations
    In implementing the U.S. strategy, the U.S. should focus 
significant efforts on disrupting and dismantling the illicit 
trafficking networks and crime syndicates that are driving the poaching 
and illegal trade, including advanced investigative and intelligence 
gathering techniques and bringing to bear the same sorts of tools used 
to combat other forms of trafficking, such as narcotics. As the 
narrowest point in the trade chain, impeding traffickers offers the 
best opportunity to disrupt the flow of illicit goods, represents the 
highest-value targets for arrest and prosecution, and their arrest, 
prosecution, and incarceration can serve as a strong disincentive to 
others involved in or hoping to involve themselves in the illegal 
wildlife trade.
    The U.S. should continue to support transregional programs, similar 
to Wildlife TRAPS and Operation Cobra/Cobra II, which coordinate joint 
law enforcement actions between demand, range and transit states and 
focus on multiple points in the illegal trade chain.
    The U.S. should focus on enhancing port and border security at key 
transit points (e.g., seaports in Southeast Asia and East, Central, and 
West Africa), including border detection efforts and investigative 
techniques. The expertise of U.S. Customs and Border Protection and 
others at the Department of Homeland Security could be of value in 
these efforts, and their active involvement should be encouraged.
    The U.S. should dedicate serious efforts to enhancing the 
prosecutorial and judicial law enforcement capacity in priority 
countries in order to ensure successful convictions and incarcerations 
of serious wildlife traffickers, including anticorruption measures.
    The U.S. should continue to support the development and 
sustainability of regional Wildlife Enforcement Networks (WENs) as well 
as the creation of national-level Wildlife Crime Task Forces or 
National Coordination Units in participating countries (using the U.S. 
Task Force and National Strategy as a model).
    The U.S. should assist a targeted number of countries to build the 
requisite capacity, political will, and improvements in their law 
enforcement systems that will enable and empower them to emulate 
relevant elements of the U.S. approach to combating wildlife 
trafficking and to investigate, arrest, prosecute, and incarcerate 
wildlife criminals effectively.
    The U.S. should support development and dissemination of new 
technologies and tools, including DNA testing of specimens, tracking of 
shipments, SMART or similar patrolling software and the International 
Consortium to Combat Wildlife Crime's (ICCWC) Forest and Wildlife Crime 
toolkit.
    Congress should take legislative action to make wildlife 
trafficking a predicate offense under Title 18 to money laundering, 
racketeering, and smuggling. Congress should also consider other 
legislative fixes that put wildlife trafficking on par with other 
trafficking offenses, such as drug trafficking, and authorize U.S. law 
enforcement to bring the same legal tools to bear.
    The U.S. Government should continue to improve wildlife crime 
intelligence-sharing and cooperation in evidence-gathering between law 
enforcement, security and intelligence agencies of the U.S. Government, 
including the Department of Defense (on security linkages) and the 
Department of the Treasury (on illicit financial flows).
                               conclusion
    We are once more at a crisis moment for elephants and rhinos and 
numerous other species targeted by the illegal wildlife trade. U.S. 
policymakers at the highest level have provided outspoken leadership 
and strong statements of commitment and action, and these have played a 
large part in galvanizing global action around this issue in an 
unprecedented way. It is time to put those commitments into action, and 
to implement them with concerted efforts on the ground, energetic 
diplomatic engagement, and the full range of law enforcement tools. The 
United States Government at all levels has demonstrated its willingness 
to lead on this issue, and that leadership will continue to be pivotal 
to solving this crisis and protecting our planet's wildlife heritage 
over the long term. WWF and TRAFFIC are redoubling our efforts to 
combat this threat, and we are deeply heartened and deeply grateful to 
see the level of U.S. Government leadership on this issue, which gives 
us hope for a positive future.
    On behalf of WWF and TRAFFIC, we thank you for the opportunity to 
provide testimony to the committee. We thank you and your subcommittees 
for your leadership on this issue, and we look forward to continuing to 
work with Congress and the administration to address this crisis.

----------------
End Notes

    \1\ www.dni.gov/files/documents/
Wildlife_Poaching_White_Paper_2013.pdf.
    \2\ http://transcrime.gfintegrity.org/.
    \3\ http://wwf.panda.org/?uNewsID=203098.
    \4\ http://www.cites.org/eng/prog/mike/index.php.
    \5\ www.dni.gov/files/documents/
Wildlife_Poaching_White_Paper_2013.pdf.
    \6\ Maisels F, Strindberg S, Blake S, Wittemyer G, Hart J, et al. 
(2013) ``Devastating Decline of Forest Elephants in Central Africa.'' 
PLoS ONE 8(3):e59469. doi: 10.1371/journal.pone. 
0059469.
    \7\ http://namnewsnetwork.org/v3/read.php?id=180566; http://
www.sanwild.org/NOTICEBOARD/2011a/
Elephant%20poachers%20use%20helicopter%20in%20Mozambique%20National%20Pa
rk. 
HTM; http://www.savetheelephants.org/news-reader/items/selous-the-
killing-fields-40tanzania41. 
html.
    \8\ Spatial Monitoring and Reporting Tool: a GPS-based law 
enforcement monitoring system that improves the effectiveness and 
transparency of patrols, www.smartconservationsoft 
ware.org.
                                 ______
                                 

Statement submitted by Bas Huijbregts, head of policy, Illegal Wildlife 
     Trade Campaign, Central Africa Worldwide Fund for Nature (WWF)

    Chairmen Coons and Cardin, Ranking Members Flake and Rubio, and 
members of the subcommittees, thank you for the opportunity to submit 
testimony on the international wildlife trafficking crisis and its 
implications for conservation, economic growth and development, and 
U.S. security interests. As Head of Policy for WWF's International 
Wildlife Trade Campaign in Central Africa, my testimony is offered on 
behalf of the WWF International with respect to combat poaching and 
wildlife trafficking in the Congo Basin countries of Central Africa. 
Prior to my current role, I also spent nearly 2 years as Regional 
Conservation Director for WWF's Central Africa Regional Programme 
Office. Founded in 1990, the WWF Central Africa Programme is focused on 
the Congo Basin and provides support to WWF's offices and projects in 
Cameroon, Central African Republic, the Democratic Republic of Congo 
and Gabon. WWF global network of offices and programs makes it the 
largest private conservation organization working internationally to 
protect wildlife and wildlife habitats. WWF currently sponsors 
conservation programs in more than 100 countries with the support of 
more than 5 million members worldwide, including 1.2 million members in 
the United States.
                              introduction
    Illegal wildlife trafficking and poaching to supply the illegal 
trade in wild fauna and flora is one of the greatest current threats to 
many of our planet's most charismatic, valuable, and ecologically 
important species. It is a transnational criminal enterprise worth 
billions of dollars annually: according to the best estimates, the 
illegal wildlife trade has a value of 7.8-10 billion USD per year, a 
figure which puts it the top five largest illicit transnational 
activities worldwide, along with counterfeiting and the illegal trades 
in drugs, people, and oil.\1\ If the illegal trades in timber and fish 
are included in the total, then the estimated value of illegal wildlife 
trafficking rises to roughly 20 billion USD annually. In terms of its 
size, wildlife trade outranks the illegal small arms trade. It also has 
strong connections to these other illegal activities--guns, drugs and 
wildlife products, such as ivory, may be smuggled by the same criminal 
networks and using the same techniques and smuggling routes.\2\
    For these reasons wildlife trafficking and the poaching that 
accompanies it pose a threat not just to wildlife conservation, but 
also to security, good governance, and economic development objectives 
in many developing countries, including in Central Africa.
    The combination of rising prices for illegal wildlife products, 
such as ivory, and inadequate enforcement regimes in many countries 
makes poaching and illegal wildlife trafficking a high profit, low-risk 
criminal enterprise and has led to a dramatic upsurge in not just the 
amount of poaching and illegal wildlife trafficking, but also its 
severity. Poachers supplying products such as elephant ivory and rhino 
horn are less often local criminals armed with spears or shotguns and 
more frequently resemble highly organized and heavily armed gangs, at 
times including militia or military personnel. They violate 
international borders, carry AK-47s and rocket-propelled grenades, and 
possess strong connections to transnational criminal networks. In some 
regions of Africa, trafficking in wildlife and other natural resources 
has been strongly connected to the financing of destabilizing forces, 
including armed insurgencies, groups responsible for human rights 
abuses, and organizations with ties to terrorism.\3\ In many parts of 
Central Africa, poachers and wildlife traffickers can operate largely 
with impunity due to weak laws or law enforcement, poor capacity, 
governance shortfalls, and a failure of many governments to recognize 
wildlife crime as the serious crime that it is.
             elephants and ivory poaching in central africa
    Poaching in Central Africa is putting serious pressure on numerous 
species, including great apes, pangolins, and a variety of species that 
are targeted by the bushmeat trade. However, my testimony will focus on 
one species in particular--Central Africa's elephants and the ongoing 
ivory poaching crisis in the region.
    WWF has over 40 years of experience in elephant conservation. 
Through WWF's African Elephant Program, we aim to conserve forest and 
savanna elephant populations through both on-the-ground conservation 
projects and policy development. WWF works with elephant range state 
governments, local people and nongovernmental partners to secure a 
future for this powerful symbol of nature. Elephants are important 
keystone species, and their future is tied to that of much of Africa's 
rich biodiversity. African elephants help to maintain suitable habitats 
for many other species in savanna and forest ecosystems, directly 
influencing forest composition and density and altering the broader 
landscape. In tropical forests, elephants create clearings and gaps in 
the canopy that encourage tree regeneration. In the savannas, they can 
reduce bush cover to create an environment favorable to a mix of 
browsing and grazing animals. Many plant species also have evolved 
seeds that are dependent on passing through an elephant's digestive 
tract before they can germinate--it is calculated that at least a third 
of tree species in west African forests rely on elephants in this way 
for distribution of their future generations.
    African elephants once numbered in the millions across Africa, but 
by the mid-1980s their populations had been devastated by poaching. An 
international ban on the sale of ivory, put in place in 1989, helped to 
slow the rate of decline significantly for the past two decades in many 
parts of Africa. The status of the species now varies greatly across 
the continent. In some parts of Africa, populations have remained 
stable or grown until recently, with evidence now clearly showing that 
African Elephants are facing the most serious crisis since the ivory 
trade ban under CITES was agreed to in 1989. Whatever gains were made 
over the past 25 years may be in the process of being reversed. 
However, in Central Africa, where enforcement capacity is weakest, 
elephant populations never had the opportunity to recover during the 
1990s. In spite of the global trade ban in ivory trading put in place 
in 1989, Central Africa's elephants have remained in danger due to 
poaching for meat and ivory, habitat loss and conflict with humans. 
They are now reaching a critical point: estimates indicate that 
populations of forest elephants in the region declined by 62 percent 
between 2002 and 2011 and lost 30 percent of their geographical 
range,\4\ almost entirely due to poaching. If current poaching rates 
continue or rise, forest elephants could be extinct within the next 
decade.
    In Central Africa's developing countries and rural regions, this 
large-scale illegal activity is having devastating effects, negatively 
impacting local communities by undermining regional security and 
economic growth while exacerbating corruption and instability. The 
current poaching crisis is pushing some of the most iconic African 
species closer toward extinction, and Central African countries are 
experiencing the rapid decimation of their wildlife--a potentially 
valuable resource on which to build sustainable growth and eventually 
bring greater stability to impoverished and often conflict-torn 
regions. At the same time that wildlife crime is taking a profound toll 
on many ecological systems, it is also robbing some of the poorest 
communities on earth of their natural wealth, breeding corruption and 
insecurity and disenfranchising them of sustainable pathways to 
prosperity. The poaching crisis is also taking a huge toll on the lives 
of park rangers and the families they support, making the ranger 
profession one of the most dangerous jobs in some parts of Africa.
             threats to security, stability and rule of law
    Poaching, by definition, entails armed individuals, often gangs, 
operating illegally in wildlife habitats which, in many cases, are 
protected areas that attract tourists and contribute to the economic 
development of many African countries. Where poaching is particularly 
entrenched and pernicious, armed militias from one country temporarily 
occupy territory in another country, destroying its wildlife assets and 
posing serious national security threats on many levels. Every year, 
throughout Africa, dozens of game scouts are killed by poachers while 
protecting wildlife.
    Poachers who profit from killing elephants and harvesting illegal 
ivory may also have ties to criminal gangs and militias based in 
countries such as Sudan (in the case of Central Africa) and Somalia (in 
the case of East Africa). Longstanding historical ties between slave 
trading, elephant poaching and the tribes that form Sudan's Janjaweed 
militia (responsible for many of the worst atrocities in Darfur), mean 
that illegal ivory may well being used as powerful currency to fund 
some of the most destabilizing forces in Central Africa.
    In parts of West and Central Africa, the situation has been dire 
for some time, and severe poaching is already resulting in the local 
extinction of elephant populations. In the past few years, the 
situation has grown even worse as we have seen a disturbing change in 
the sophistication and lethality of the methods being used by the 
poachers, who are frequently well armed with automatic weapons, 
professional marksmen and even helicopters. In most cases, poachers are 
better equipped than park rangers. In some instances, they are better 
equipped even than local military forces.
    The connection between wildlife crime and regional security has 
been dramatically driven home over the past 3 years due to a number of 
high-profile poaching incidents involving large-scale massacres of 
elephants, violations of international sovereignty and the need for 
military involvement, both by African Governments and the U.S. 
military. The U.S. intelligence community has also been engaged to 
analyze the threat posed by wildlife trafficking to U.S. interests. 
According to a September 2013 white paper published by the U.S. 
National Intelligence Council and entitled, ``Wildlife Poaching 
Threatens Economic, Security Priorities in Africa'':

          Criminal elements of all kinds, including some terrorist 
        entities and rogue security personnel, often in collusion with 
        government officials in source countries are involved in 
        poaching and movement of ivory and rhino horn across east, 
        central, and southern Africa. We assess with high confidence 
        that traffickers use sophisticated networks and the complicity 
        of public officials in order to move ivory and rhino horn from 
        relatively remote areas to markets and ports of export, 
        perpetuating corruption and border insecurity in key eastern, 
        central and southern African states. We judge some of these 
        networks probably are the same or overlap with those of other 
        illicit goods such as drugs and weapons.
          Poaching presents significant security challenges for 
        militaries and police forces in African nations (e.g., Kenya, 
        Tanzania, Congo-Kinshasa, South Africa, and others), which are 
        often outgunned by poachers and their criminal and extremist 
        allies. Corruption and lack of sufficient penal and financial 
        deterrents are hampering these governments' abilities to reduce 
        poaching and trafficking.\5\

    The connections between wildlife trafficking and security threats 
are particularly acute in Central Africa, where large parts of the 
region remain plagued by insecurity, civil war, and uncontrolled 
movements of armed and terrorist groups across national boundaries. 
This is demonstrated by the ongoing civil war in Central African 
Republic (CAR); kidnappings and killings by the terrorist group Boko 
Haram in Nigeria and its violent incursions in neighboring countries, 
such as Cameroon; the continued presence of the Lord Residence Army 
(LRA) in CAR and surrounding countries; and continued unrest and 
fighting by rebel and uncontrolled armed groups, including rogue 
elements of the armed forces in the case of DRC. Several of these armed 
factions, as well as al-Shabaab, Seleka, M23, the Janjaweed and the 
Sudanese Army, have been implicated in the trafficking in wildlife and 
other natural resources as a means of financing their operations.
    Other parts of the subregion--mainly the heavily forested parts of 
Cameroon, as well as Gabon and the Republic of Congo (RoC)--have so far 
been spared such acute insecurity. However, even in these areas, lack 
of rule of law, corruption and abuse of power, combined with lack of 
law enforcement capacity, inaccessibility of the terrain, ease of 
access to guns and small arms, and the out of control price of ivory 
and other protected species products, such as pangolin scales, continue 
to lead to the rapid depletion the most iconic wildlife in the Congo 
Basin's forests.
    Leadership in the region clearly understands the links between 
wildlife crime, peace and security and economic development, as 
demonstrated during the high-level round table on the links between 
wildlife crime and peace and security in Africa organized by the French 
Government on December 5, 2013 (one day before the Elysee summit on 
Peace and Security in Africa). Central African Governments also agreed 
to the language of the final Declaration\6\ of the London Conference on 
Illegal Wildlife Trade, convened by the U.K. Government from February 
12-13, 2014, at Lancaster House, London to inject a new level of 
political momentum into efforts to combat the growing global threat 
posed by illegal wildlife trade.
Cameroon
    WWF is active in four priority forest landscapes in Cameroon and 
provides on-the-ground support to law enforcement agencies in their 
fight against poaching and trafficking, including support to 
investigations, field operations leading to arrests, and legal support 
throughout the judiciary process. In the winter of 2012, Cameroon was 
the site of one of the worst elephant massacres ever recorded.\7\ In 
early February 2012, bands of heavily armed poachers illegally crossed 
from Chad into northern Cameroon's Bouba N'Djida National Park. Over 
the course of several weeks, they massacred upward of 300 of the park's 
elephants for their tusks. The poachers, believed to have come from 
Sudan with ties to the Janjaweed, traveled over 1,000 miles on 
horseback, disregarding international borders to systematically target 
the elephants of Bouba N'Djida. The park guards were ill-equipped, 
unarmed and few in number, and the Sudanese militants were able to 
operate with impunity for weeks. The Cameroonian Government was slow to 
react or recognize the severity of the problem. Repelling the invaders 
eventually required the involvement of the Cameroonian military, 
resulting in casualties on both sides and the seizure of both ivory and 
weapons. The crisis provoked the engagement of the U.S. military, 
including an in-person meeting between the President of Cameroon and 
U.S. General Carter F. Ham, Commander of AFRICOM at the time.
    Since 2012, Cameroon has shown progress in its efforts to address 
wildlife crime. Elite units of the military have been dispatched to 
secure the border regions and to assist the park authorities, with some 
encouraging collaboration and results. While data since January 2014 is 
still being compiled, a total of 87 cases involving 134 wildlife 
traffickers were followed up with WWF support from July to December 
2013 for a total of 39 court decisions obtained. The 39 court decisions 
were given against a total of 55 wildlife traffickers out of which 49 
were declared guilty. Some of the high profile cases that led to 
successful prosecutions include:

  <bullet> In September 2013, after a year-long trial, the notorious 
        poacher Sangha Symphorien was sentenced to an unprecedented 3 
        years imprisonment and fined 45,000 USD as damages for assault 
        against a wildlife ranger, elephant poaching and ivory 
        trafficking;
  <bullet> An ivory trafficker arrested with 29 ivory tusks was 
        sentenced to 6 months imprisonment and payment of 55,000 USD as 
        damages to the Ministry in charge of forests and wildlife 
        (MINFOF) in October 2013;
  <bullet> In November 2013, two wildlife traffickers were sentenced to 
        4 years imprisonment for illegal hunting in the Korup National 
        Park and for illegal possession and trafficking in elephant and 
        chimpanzee products;
  <bullet> Two ``white collar'' wildlife traffickers are currently 
        being prosecuted: a Vietnamese trafficker arrested with 10 
        ivory tusks and 60 kilograms of pangolin scales; and a council 
        mayor, her son, and an accomplice are being prosecuted for 
        ivory trafficking.
Central African Republic: Dzanga-Sangha Protected Areas
    Since the military coups in Central African Republic (CAR) by a 
coalition of rebel groups called Seleka in March 2013, and the 
subsequent rise of a counter rebel group called Anti-Balaka, the 
situation in CAR remains chaotic and violent with daily attacks 
terrorizing civilians across the country. The United Nations estimates 
that, ``more than 1 million people--roughly one-quarter of the total 
population--have been displaced or have fled the country. Thousands of 
people have been killed--at least 2,000 since December alone--although 
no one knows the exact figure, which is likely much higher. Despite 
having the largest number of peacekeepers ever deployed to the country, 
the violence in CAR continues unabated.'' \8\
    The Dzanga-Sangha protected area complex in Central African 
Republic (CAR) is home to the majority of that country's remaining 
elephants. Prior to the March 2013 coup, numerous poaching attempts 
were made by Sudanese militants targeting elephants in the Dzanga-
Sangha Reserve. Gangs of armed horsemen attempted on at least two 
occasions to enter the protected area complex: the first attempt in the 
fall of 2011 was successfully repelled by the CAR army (not without 
casualties) after WWF and other partners on the ground alerted the 
government to the imminent threat; and in May 2012, WWF became aware of 
the presence of about three dozen Sudanese raiders in CAR and 
determined that they were moving toward the Dzanga-Sangha Reserve. At 
least 8-10 elephants were killed outside of the park, but operations by 
the CAR military again repelled the invaders and prevented them from 
entering the protected areas. Cameroon and the Republic of Congo 
coordinated in that effort, stationing troops along their borders with 
CAR to prevent the poachers from moving into their territory.
    Throughout 2011, not a single elephant poaching incident was 
detected in Dzanga-Sangha, the first such achievement in many years, 
due in large part to strong protection efforts developed over several 
years by WWF and its governmental and nongovernmental partners, 
including the support of the U.S. Agency for International Development 
(USAID) and the U.S. Fish and Wildlife Service, through its Central 
African Regional Program for the Environment (CARPE). Another major 
factor was the cross-border cooperation developed between park rangers 
of the three bordering countries--CAR, Cameroon, and Republic of 
Congo--each of which contain a portion of the Sangha River Tri-national 
landscape (of which Dzanga-Sangha is the CAR portion). As part of these 
tri-national operations--a unique and innovative agreement between the 
three countries--park rangers engaged in regular communication, joint 
patrols, and joint law enforcement, ensuring information was rapidly 
shared and potential poachers could be pursued across borders.
    However, following the March 2013 coup and the collapse of 
government authority in CAR, the Dzanga-Sangha Protected Areas became 
vulnerable to armed incursions. Within days, trucks with armed 
``Seleka'' rebels arrived in the small town of Bayanga, home to Dzanga-
Sangha park headquarters, leading WWF to decide to evacuate its 
expatriate staff and volunteers. The park headquarters, including WWF 
offices and premises, were subsequently looted (including the stockpile 
of seized ivory), as were WWF's office in the capital, Bangui. Seleka 
fighters took seven AK47, two ``MASS 36'' weapons, and an RPG7 from the 
park HQs and briefly took four rangers hostage before leaving the area. 
On April 6, 2013, 17 armed Sudanese Seleka arrived from Bangui in a 
pickup truck with Seleka insignia, drove out to Dzanga Bai, the world 
famous elephant clearing, ransacked the research camp and then opened 
fire on the elephants, killing 26 individuals, including 4 infants. 
They left the next day with their truck full of ivory. Park rangers and 
local WWF staff resumed work the day after, and a support team of 
security advisors arrived 5 days later to establish contact with the 
local Seleka group in order to seek their support in protecting Dzanga-
Sangha and in stopping potential new groups of ``Seleka'' poachers. 
Since then, huge efforts have been made by the government, WWF and its 
partners, to continue to protect this World Heritage site from further 
incursions by armed groups searching for ivory.
    Despite repeated and ongoing threats, not a single elephant has 
been poached in Dzanga-Sangha since April 6, 2013, and numbers have 
since increased. This clearly demonstrates that elephants can be 
protected even under the most difficult of circumstances by a dedicated 
local ranger force as long as there is no complete breakdown of law and 
order, as happened in April 2013.
    The security situation in CAR remains fragile, however. Seleka 
groups have left the area but have been replaced by uncontrolled groups 
of ``Anti-Balaka'' fighters who, with support from members of the local 
community, have chased away all the Muslim inhabitants of the area, 
ransacking their houses and shops. Although the security situation 
remains worrying, calm is returning to Bayanga. This month, following 
an agreement established between the Ministers of Forestry and Defense 
with WWF, a small force of armed forces of the CAR Army from Nola 
together with elements of the police supported by park rangers is now 
based in Bayanga with the aim of disarming remaining anti-Balaka 
elements.
Chad
    Fifty years ago the Republic of Chad was home to roughly 50,000 
elephants; today the population is estimated to be around 1,500. In 
2013, Chad initiated a National Elephant Protection Plan, which 
included the establishment of a National Elephant Monitoring Centre to 
track and respond to threats to the country's remaining elephants. In 
February 2014, President Deby, together with Heads of State from 
Botswana, Ethiopia, Gabon, and Tanzania pledged support for a new 
Elephant Protection Initiative at the U.K. Government's London summit 
on the Illegal Wildlife Trade, which means these countries will refrain 
from any trade in ivory products for a minimum of 10 years. Also in 
February 2014, Chad's President Deby Itno burned 1.1 tons of ivory 
stockpiled in the country over the past 8 years. The ivory burn showed 
Chad's commitment to take the lead in the fight to protect Central 
Africa's remaining savannah elephants. With this highest level of 
Government commitment, significant progress has been made on the 
ground, particularly in Zakouma National Park, where the tide finally 
may be turning and poaching is being brought under control by 
courageous local rangers with assistance from the Africa Parks Network.
Democratic Republic of Congo (DRC)--Garamba National Park
    Garamba National Park is located in northeastern DRC, on the border 
with South Sudan. For many years this park was supported by WWF to 
protect the last remaining population of northern white rhino, as well 
as the park's elephants. The park was invaded many times by both sides 
during the long civil war in Sudan, and poaching by well-armed militias 
was common. The result was a steady decline in rhino populations from 
at least 500 in the 1970s to the last observation in the wild several 
years ago. As a result of the ongoing poaching, Northern White Rhino 
are now considered extinct in the wild. Garamba NP is still home to one 
of the few remaining viable elephant populations in DRC. An analysis of 
elephant trends in DRC shows that there are probably only a handful of 
remnant populations of elephants in that country numbering more than 
500 individuals and that the country's total elephant population is 
less than 20,000 and declining rapidly--down from an estimated 100,000 
as recently as 50 years ago.\9\ Garamba NP is now comanaged by DRC's 
national park agency and Africa Parks Network, a Dutch NGO. Due to 
their efforts and the improved security following the tentative peace 
in southern Sudan, the situation in the park saw a steady improvement 
in recent years and a reduction in poaching. This was true up until 
March 15, 2012, when a foreign helicopter entered DRC airspace and 22 
elephants were killed by a marksman, firing from the helicopter and 
killing the elephants with a single shot to the top of the head. While 
the actual slaughter was not witnessed, a Russian manufactured Mi-17 
troop-carrying helicopter was photographed in the vicinity at the same 
time. The helicopter was illegal and of unknown origin.
    Earlier this month, on May 13, Africa Parks Networks issued an 
urgent statement to update conservation colleagues on a new and serious 
elephant poaching onslaught in Garamba, noting that 33 elephants had 
been killed over the past 5 weeks, including 10 deaths alone on May 9. 
Two days later, on May 11, a gunfight broke out in the park when 
antipoaching teams encountered poaching camps, resulting in the deaths 
of three poachers. While the source of the poaching threat cannot be 
confirmed, there is reason to believe that the major thrust of the 
poaching activities are emanating from the heavily forested Azande 
Domaine de Chasse to the west of the park, which has been a traditional 
base for the Lords' Resistance Army (LRA) over many years. As yet, it 
is not confirmed whether the current poaching onslaught emanates from 
the LRA, Sudanese poaching gangs, local Congolese poachers, or a 
combination of these. However, the extremely heightened level of 
poaching suggests organized groups of poachers are focusing new efforts 
on Garamba and its elephants.
Gabon
    Gabon continues to be a victim of transborder ivory poaching, with 
Cameroonian ivory gangs entering northern Gabon and penetrating deep 
into the country in search for elephants. Ivory gangs are typically 
made up of 4 hunters, 6-10 porters and 1 ``field leader'' who ensures 
that all ivory effectively goes to the ``organizer'' of the expedition. 
These south Cameroonian ivory poaching groups are known to have 
widespread immunity in South Cameroon and support from corrupted local 
authorities. The inability to control cross-border incursions 
originating in Cameroon is a major reason why Gabon's Minkebe National 
Park, located in northern Gabon on the border with Cameroon and RoC, 
has lost an estimated 11,000 elephants since 2004. Another major 
weakness in Gabon is the inadequacy of current law, which has a maximum 
prison sentence of 6 months for ivory trafficking/elephant poaching. 
This is compared to a 3-year maximum sentence in Cameroon and 5-year 
maximum in RoC.
Republic of Congo (RoC)
    The same ivory poaching syndicates that operate in Minkebe are 
active in the northwestern forests of RoC. WWF and the RoC Ministry of 
Forests have signed a cooperation agreement that includes collaboration 
on antipoaching. In 2013, with WWF support, 37 people were arrested for 
elephant poaching related crimes and transferred to the provincial 
capital, Ouesso, for trial. However, none of these criminals was 
effectively condemned, and suspects were released after an average of 4 
months of temporary custody. In 2014, WWF supported the arrest of 12 
ivory poaching criminals, 2 of whom received firm prison sentences of 2 
years and 10 of whom received suspended prison sentences of 3 years. It 
is clear that the effective application of the law is being hampered by 
corruption and abuse of power by powerful elites involved in the trade. 
African Parks Network, which operates in Odzala NP through a management 
agreement with the government, arrested a major ivory trafficker who 
was sentenced in March 2014 to 5 years in prison, following wide 
interest in local and international press \10\ combined with strong 
pressure from the diplomatic community, including the U.S. Ambassador 
and conservation organizations. African Parks has since been victim of 
a violent uprising in Mbomo town (HQ of the park) where their head of 
antipoaching was threatened and had to leave the country in early May. 
It is widely thought that the uprising has been instigated by interests 
linked to the ivory trade.
           recommendations for u.s. actions in central africa
    The success in Dzanga-Sangha pre- and post-coup demonstrates that, 
in spite of persistent challenges in the region, Central African 
countries can combat the environmental and security threats posed by 
transnational wildlife crime when governments engage and prioritize the 
issue, when enough capacity is in place to respond effectively, and 
when countries cooperate on a regional and transboundary basis. Such 
regional cooperation can also help to foment stronger regional ties on 
other issues and reduce regional tensions, as evidenced by the fact 
that countries that were in conflict with each other not long ago have 
since engaged in joint security missions to protect their shared 
wildlife resources.
    The U.S. can help enhance antipoaching and antitrafficking efforts 
in this most acutely affected region in the following key ways:

          1. The U.S. Government, particularly through the U.S. Fish 
        and Wildlife Service and USAID, should maintain and (where 
        possible) enhance its support for urgently needed park and 
        wildlife protection efforts in Central Africa, through;

                  a. Support for park rangers and park guards and law 
                enforcement training programs. Innovative protected 
                areas comanagement initiatives, where NGO partners take 
                on part of the management responsibility, while holding 
                governments and NGOs accountable for management 
                effectiveness, should be supported.
                  b. Support forest and wildlife crime national 
                assessments in Cameroon, CAR, DRC, and RoC, for example 
                using the International Consortium to Combat Wildlife 
                Crime (ICCWC) Toolkit as standardized methodology.
                  c. Support the establishment and operations in 
                Central African countries of national coordination 
                units, bringing together different ministries and 
                government agencies, that can conduct operations to 
                dismantle criminal networks of wildlife traffickers.
                  d. Based on training needs identified as a result of 
                the national assessments, support ICCWC members and 
                conservation NGOs to provide targeted trainings in 
                intelligence, controlled deliveries, informant 
                networks, judiciary followup and way to improve legal 
                instruments. The training needs of police, wildlife and 
                magistrate schools also need to be included in this 
                assessment.
                  e. Provide technical and financial support to 
                informant networks, investigations, operations, and 
                judiciary following of arrested wildlife traffickers, 
                with an emphasis on operations in the forest elephant 
                strongholds of the Dja-Minkebe-Odzala Tri-National 
                (TRIDOM) landscape of Cameroon, RoC and Gabon, and the 
                Tri-National de la Sangha (TNS) landscape of Cameroon, 
                RoC and CAR.
                  f. Support the establishment of a political dialogue 
                between Central Africa and Asia, particularly China, 
                through the Forum on Africa-China Cooperation (FOCAC), 
                with a focusing on demand reduction and information 
                exchange. Expand this discussion to other African 
                Economic Communities with a focusing on breaking the 
                illegal trade chain.

          2. Increase the involvement of U.S. Embassies in the region 
        related to wildlife crime policy and diplomacy, especially in 
        cases of high-level traffickers, to create political momentum 
        for governments to apply their sanction regimes to the full 
        extent of the law.
          3. Evaluate trade sanction laws relative to African countries 
        with weak enforcement of wildlife laws.
          4. Support the CAR sanction regime of the U.N. Security 
        Council Resolution 2127 (2013). This resolution targets 
        individuals who are involved in the illicit exploitation of 
        wildlife and wildlife products.
          5. Support the renewed U.N. Security Council Resolution S/
        RES/2136 (2014) on DRC's sanctions regime, which targets 
        individuals and entities illegally supporting armed groups 
        through the illicit trade of natural resources, including 
        wildlife and wildlife products, such as elephant ivory.

    On behalf of WWF and its Illegal Wildlife Trade Campaign, I thank 
you for your leadership on this issue and for the opportunity to 
provide testimony to the subcommittees.

----------------
End Notes

    \1\ http://transcrime.gfintegrity.org/.
    \2\ www.dni.gov/files/documents/
Wildlife_Poaching_White_Paper_2013.pdf.
    \3\ www.dni.gov/files/documents/
Wildlife_Poaching_White_Paper_2013.pdf.
    \4\ Maisels F, Strindberg S, Blake S, Wittemyer G, Hart J, et al. 
(2013) ``Devastating Decline of Forest Elephants in Central Africa.'' 
PLoS ONE 8(3):e59469. doi: 10.1371/journal.pone. 
0059469.
    \5\ ``Wildlife Poaching Threatens Economic, Security Priorities in 
Africa,'' National Intelligence Council, 6 September 2013.
    \6\ https://www.google.cm/
?gws_rd=cr&ei=Gb90U4z_Eo7S4QSdpYGICA#q=Declaration+of+the 
+London+Conference.
    \7\ http://www.usatoday.com/news/world/environment/story/2012-03-
16/cameroon-elephants-poaching/53564500/1.
    \8\ http://enoughproject.org/reports/behind-headlines-drivers-
violence-central-african-republic.
    \9\ http://www.bonoboincongo.com/2009/02/01/how-many-elephants-are-
left-in-dr-congo/.
    \10\ http://edition.cnn.com/2014/01/06/world/africa/congo-poacher-
camp-bust/.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
